<html>
<title> - HEARING TO REVIEW THE ADMINISTRATION AND DELIVERY OF CONSERVATION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   HEARING TO REVIEW THE ADMINISTRATION AND DELIVERY OF CONSERVATION
                                PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CONSERVATION, CREDIT,
                          ENERGY, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 1, 2010

                               __________

                           Serial No. 111-54


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-017                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           DAVID P. ROE, Tennessee
STEVE KAGEN, Wisconsin               BLAINE LUETKEMEYER, Missouri
KURT SCHRADER, Oregon                GLENN THOMPSON, Pennsylvania
DEBORAH L. HALVORSON, Illinois       BILL CASSIDY, Louisiana
KATHLEEN A. DAHLKEMPER,              CYNTHIA M. LUMMIS, Wyoming
Pennsylvania                         THOMAS J. ROONEY, Florida
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                  (ii)
?

       Subcommittee on Conservation, Credit, Energy, and Research

                   TIM HOLDEN, Pennsylvania, Chairman

STEPHANIE HERSETH SANDLIN, South     BOB GOODLATTE, Virginia, Ranking 
Dakota                               Minority Member
DEBORAH L. HALVORSON, Illinois       JERRY MORAN, Kansas
KATHLEEN A. DAHLKEMPER,              SAM GRAVES, Missouri
Pennsylvania                         MIKE ROGERS, Alabama
BETSY MARKEY, Colorado               STEVE KING, Iowa
MARK H. SCHAUER, Michigan            RANDY NEUGEBAUER, Texas
LARRY KISSELL, North Carolina        JEAN SCHMIDT, Ohio
JOHN A. BOCCIERI, Ohio               ADRIAN SMITH, Nebraska
MIKE McINTYRE, North Carolina        BLAINE LUETKEMEYER, Missouri
JIM COSTA, California                GLENN THOMPSON, Pennsylvania
BRAD ELLSWORTH, Indiana              BILL CASSIDY, Louisiana
TIMOTHY J. WALZ, Minnesota           THOMAS J. ROONEY, Florida
BOBBY BRIGHT, Alabama
FRANK KRATOVIL, Jr., Maryland
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
WALT MINNICK, Idaho
EARL POMEROY, North Dakota

               Nona Darrell, Subcommittee Staff Director

                                 (iii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Goodlatte, Hon. Bob, a Representative in Congress from Virginia, 
  opening statement..............................................     2
Holden, Hon. Tim, a Representative in Congress from Pennsylvania, 
  opening statement..............................................     1
Luetkemeyer, Hon. Blaine, a Representative in Congress from 
  Missouri, submitted letter.....................................    67
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     3

                               Witnesses

White, Dave, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture, Washington, D.C.....................     4
    Prepared statement...........................................     6
Coppess, Jonathan W., Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, D.C.....................    12
    Prepared statement...........................................    13
Robinson, Steve, President, National Association of Conservation 
  Districts, Washington, D.C.....................................    29
    Prepared statement...........................................    31
Lohr, John R., Vice President, National Association of Farm 
  Service Agency County Office Employees, Norvelt, PA............    34
    Prepared statement...........................................    36
Leathers, Ron, Public Finance Director, Pheasants Forever, Inc.; 
  Government Grants Coordinator, Quail Forever, St. Paul, MN.....    37
    Prepared statement...........................................    39
Manley, Ph.D., Scott W., Director of Conservation Programs, Ducks 
  Unlimited, Inc., Ridgeland, MS.................................    43
    Prepared statement...........................................    45
Burns, Ph.D., P.E., Robert T., Assistant Dean, Agriculture, 
  Natural Resources and Resource Development & Professor, 
  University of Tennessee Extension Service, Knoxville, TN.......    47
    Prepared statement...........................................    49
Dlugosz, Steve, Certified Crop Adviser and Lead Agronomist, 
  Harvest Land Co-op, Madison, WI; on behalf of International 
  Certified Crop Adviser Program; and American Society of 
  Agronomy.......................................................    51
    Prepared statement...........................................    53
Braford, William L., Consulting Forester, Bluechip Forestry, 
  Natural Bridge Station, VA; on behalf of American Forest 
  Foundation.....................................................    55
    Prepared statement...........................................    57

                           Submitted Material

Schaeffer, Jennifer Mock, Agriculture Conservation Policy 
  Analyst, Association of Fish and Wildlife Agencies, submitted 
  statement......................................................    67


   HEARING TO REVIEW THE ADMINISTRATION AND DELIVERY OF CONSERVATION
                                PROGRAMS

                              ----------                              


                         THURSDAY, JULY 1, 2010

                  House of Representatives,
 Subcommittee on Conservation, Credit, Energy, and 
                                          Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300, Longworth House Office Building, Hon. Tim Holden 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Holden, Herseth Sandlin, 
Dahlkemper, Schauer, Kissell, Costa, Bright, Murphy, Owens, 
Minnick, Peterson (ex officio), Goodlatte, Moran, Neugebauer, 
and Luetkemeyer.
    Staff present: Cindy Birdsong, Nona Darrell, Liz 
Friedlander, John Konya, James Ryder, Anne Simmons, April 
Slayton, Rebekah Solem, Patricia Barr, Brent Blevins, Tamara 
Hinton, Josh Maxwell, Jamie Mitchell, and Sangina Wright.

   OPENING STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    The Chairman. This hearing of the Subcommittee on 
Conservation, Credit, Energy, and Research to review the 
administration and delivery of conservation programs will come 
to order.
    I would like to thank our witnesses and guests for coming 
today. This hearing presents an opportunity for Members of the 
Subcommittee to review how USDA administers conservation 
programs and the delivery system that is in place for providing 
technical assistance to producers.
    The Natural Resources Conservation Service and the Farm 
Service Agency, through the authority of this Committee and the 
farm bill, currently administer over 20 programs to assist 
producers and landowners who wish to practice conservation on 
agricultural lands. Early conservation efforts were focused on 
reducing high levels of soil erosion, addressing water quality 
and quantity issues, but have since evolved and expanded to 
address other natural resources concerns, such as wildlife, 
habitat, air quality, wetlands restoration and protection, 
energy efficiency, and sustainable agriculture.
    Throughout this period of growth, one thing has become 
clear: Technical assistance is a crucial component of 
conservation, and it is important that landowners have access 
to the technical expertise they need in order to implement 
conservation practices.
    In the 2002 Farm Bill, we recognized and responded to the 
growing demand and need for more technical assistance. We 
included a provision that allowed producers to retain approved 
and certified third-party providers, known as TSPs, for 
technical assistance. That provision maintains and expands 
technical capacity for agriculture conservation programs.
    However, despite those changes, and others included in the 
2008 Farm Bill, we still find ourselves in a situation where 
there is not enough technical assistance available to 
landowners, and it is critical that we get this right.
    Over the years, USDA has transferred responsibility for 
administration, leadership, and funding of conservation 
programs between FSA and NRCS. Last year, NRCS initiated a 
streamlining initiative to identify the most efficient and 
effective model for delivering conservation assistance, but 
there is still debate about what the proper role for each 
agency should be in order to ensure that landowners have access 
to the technical expertise they need.
    Effective administration of conservation programs is an 
important topic that should be further discussed. Equally as 
important are the delivery mechanisms in place to make certain 
that technical assistance is available to those landowners who 
want it.
    Whether through NRCS or a technical service provider, a 
consistent message we are hearing across the country is that 
more people are needed in the field to provide technical 
services to make certain that landowners have access to the 
technical assistance they need to make land management 
decisions and implement conservation practices.
    Farmers and ranchers have always been the original stewards 
of the land and continue to be the best advocates for resource 
conservation. I look forward to today's expert testimony and 
the opportunity to listen, learn, and question those 
responsible for ensuring that that remains true in the future.
    I will recognize the Ranking Member, the gentleman from 
Virginia.

 OPENING STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN 
                     CONGRESS FROM VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman, for holding today's 
hearing to review the delivery and administration of 
conservation programs.
    Since 1985, farm bills have increased the size and 
complexity of conservation programs. There are a number of 
programs that can assist producers to become better stewards of 
the land. The 2008 Farm Bill created new conservation programs 
that allow cooperation and flexibility among producers and 
organizations to target conservation initiatives such as the 
Chesapeake Bay, which is of great importance to the farmers and 
ranchers in Virginia and Pennsylvania.
    The farm bill increased funding to oversubscribed programs 
to address backlogs and retool existing programs to make them 
more producer friendly and available on a national basis. 
However, if the programs are not being administered 
effectively, and our producers are not receiving the technical 
guidance they need, then an increase in the number of programs 
and in the level of funding will not result in improved 
conservation benefits.
    Providing the participants of these programs with the 
necessary financial and technical assistance is essential to 
the success of conservation practices. This Committee has 
worked hard to make sure that each conservation program has 
adequate dollars. We have authorized the use of third-party 
technical service providers to assist NRCS and the FSA staff, 
and we have encouraged streamlining the application process. 
The delivery system is the lifeline to ensuring the success of 
conservation programs.
    The administration of these programs and the salaries and 
expenses involved in administering them have been a concern to 
the House Committee on Agriculture for some time. Congress 
needs to understand fully where the deficiencies are in USDA 
administering these programs and systems, and whether or not 
they need fine-tuning so that farmers and ranchers get cost-
efficient conservation on the ground.
    I would like to thank Chief White, from the Natural 
Resources Conservation Service, and Mr. Jonathan Coppess, the 
Administrator for the Farm Service Agency, for being here today 
to testify. I also want to thank our witnesses on the second 
panel for their participation in this hearing, and for the work 
that they are doing to help deliver conservation programs.
    I am especially pleased to welcome Mr. Bill Braford, a 
consulting forester from Rock Ridge County, Virginia. Mr. 
Braford is a constituent who has more than 35 years of 
experience in the field of forestry. After spending 30 years 
working for the Virginia Department of Forestry, he became a 
consulting forester in 2008. He acts as a technical service 
provider for NRCS, and currently serves on the board of the 
Virginia Forestry Association. I look forward to hearing his 
insights into USDA conservation programs and what we should 
improve in the next farm bill.
    Mr. Chairman, again, thank you for holding this hearing. I 
look forward to hearing from our witnesses.
    The Chairman. The chair thanks the gentleman and would ask 
all other Members to submit any opening statement for the 
record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    Good morning, and thank you, Mr. Holden, and Mr. Goodlatte for 
holding today's hearing of the Subcommittee on Conservation, Credit, 
Energy, and Research.
    Today's hearing focuses on the administration and delivery of 
conservation programs through technical service providers and technical 
assistance. I am concerned that with the Farm Service Agency (FSA) and 
the Natural Resources Conservation Service (NRCS) duplicating efforts 
in record-keeping and check-writing, the current delivery system is not 
working in the best way possible for producers or the taxpayers.
    This is why today's hearing is so important. I believe it's not a 
matter of more money but rather facilitating a dialogue between NRCS, 
FSA and their partners that will solve this problem. Getting more boots 
on the ground to provide adequate technical assistance to producers is 
necessary to ensure participation in conservation programs.
    The Committee has already started holding hearings on the 2012 Farm 
Bill and as the process moves forward we will look into whether or not 
there is a better way to divide the responsibilities between NRCS and 
FSA when providing technical assistance to producers wishing to 
participate in conservation programs. This is something I wanted to 
address in the last farm bill but unfortunately, we couldn't see that 
happen. Today's hearing is a good place to start to look for solutions 
and ways to address these issues in the next farm bill.
    I look forward to hearing from today's witnesses and again thank 
the Chairman for holding today's hearing.

    The Chairman. I would like to welcome our first panel, Mr. 
Dave White, Chief, Natural Resources Conservation Service at 
the Department of Agriculture; and Mr. Jonathan Coppess, 
Administrator for the Farm Service Agency with the Department 
of Agriculture.
    Mr. White, you may begin when you are ready.

STATEMENT OF DAVE WHITE, CHIEF, NATURAL RESOURCES CONSERVATION 
                  SERVICE, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. White. Thank you, Mr. Chairman, Mr. Goodlatte, Members 
of the Subcommittee. It is an honor to be here.
    First, I would like to thank all of you for the joint 
resolution you passed honoring the 75th anniversary of the 
Natural Resources Conservation Service. We deeply appreciate 
that very much.
    I often hear people talk about what the greatest 
conservation program ever is. And the response varies, and it 
is generally from where the person sits the response they make. 
But, in my mind, the greatest conservation program ever 
occurred in 1935 when this Congress unanimously passed and 
provided for a continuing soil and water conservation program, 
voluntary, incentive-based, providing technical assistance to 
our nation's farmers and ranchers.
    Working with our partners and through conservation 
districts, we have technical experts that work with farmers and 
ranchers openly in an honest relationship. The farm gate is 
open for us, and there is trust on both sides. No other Federal 
agency has the access or the trust that we enjoy, and I will 
jealously safeguard that and do whatever I can to improve the 
efficiency of how it functions.
    And research is showing that we have positive results. 
Cropland erosion since 1982--between 1982 and 1987 was reduced 
by 43 percent. That is a stunning amount in anyone's book. Last 
month, we also reported the results from the Conservation 
Effects Assessment Project in the Upper Mississippi. It is 
showing us that conservation works. We have seen huge 
reductions in many of the natural resources issues we have to 
deal with.
    It is also showing that us that suites of conservation 
practices work better than ones in isolation; and it is showing 
us that if we target our efforts, we can have an even greater 
effect. For example, if we work on just 15 percent of the 
cropland in the upper Mississippi, we can reduce overland 
nitrogen loss by 29 percent and overland phosphorous loss by 20 
percent.
    We have also improved our efficiency. Between 2005 and 
2009, we have doubled the number of customers we service every 
year; and we are also helping farmers and ranchers meet those 
emerging challenges that Mr. Holden talked about--energy, air, 
environmental service markets.
    And as we have learned from the CEAP that I just mentioned 
to ensure conservation gets on the ground, we are now targeting 
a little bit of the funds through special initiatives. We have 
landscape-level initiatives such as the Mississippi River, the 
Chesapeake Bay, Sage-Grouse. We have resource-focused 
initiatives such as the organic water quality, water 
conservation, air quality. And while most of the activity in 
this is statutorily derived, we are focusing about eight 
percent of EQIP funds on the initiatives, mostly the Sage-
Grouse and Mississippi River.
    We are also working to get our house in order, Mr. 
Goodlatte. The amount of financial assistance we administer has 
increased 376 percent since 2002; and even though our 
productivity has doubled, our front line staff has remained 
pretty much constant. We have to figure out ways to do that, 
and I think we have tremendous opportunities to do so.
    The primary one is what Mr. Holden mentioned, the 
streamlining initiative. We want to simplify the delivery, 
streamline our processes, and make sure that we retain our 
science-based delivery system.
    There are five components to this. It ranges from 
integrating all our tools into one desktop icon, to eliminating 
the duplicate entry of data, to establishing a client gateway 
on the Web where a farmer or rancher can sit at home and apply 
for a program. If they have a contract, they can look at their 
contract and see if there is a practice due or where they are 
at. They can see if they are due a payment, where it is in the 
process. They can look at their conservation plan.
    These kinds of things are going to have a huge impact, and 
our projections are that it is going to reduce the 
administrative clerical burden on our field people by 80 
percent. Our goal is to free up 75 percent of our folks' time 
to be in the field.
    You have a huge panel behind me on technical service 
providers. They are going to give you a lot of information.
    We surveyed our technical service providers. We only have 
1,200 of them. We really should have a lot more. But we are 
looking at training and how do we eliminate inconsistencies 
between Federal and state. What can we do to make the 
certification process simpler? What can we do to address the 
payment rates?
    And we are also developing what we call a conservation 
plug-in, where a TSP can go through the USDA security firewall 
and get client data that he is authorized to get, pull it out, 
work on it, finish it, and put it back into the system.
    In summary, we are working to streamline and modernize the 
delivery of services to meet the needs of today's customers, 
and the need remains great. I think you all know that the U.N. 
is projecting 2.3 billion more people and is saying that a 70 
percent increase of food production is going to be needed in 
the next 4 decades. That is a huge undertaking and how we meet 
that challenge is going to define us, but I am confident that 
we will. I think that our children will inherit a resource base 
as rich as the one we have now.
    Thank you for inviting me to be here. I welcome the 
opportunity to address any questions you have.
    [The prepared statement of Mr. White follows:]

Prepared Statement of Dave White, Chief, Natural Resources Conservation 
       Service, U.S. Department of Agriculture, Washington, D.C.

    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today to share our 
experiences in implementing a number of conservation programs contained 
in Title II of the Food Security Act of 1985 that were added or re-
authorized by the Food, Conservation, and Energy Act of 2008 (Farm 
Bill). I am happy to be here again to discuss the work of the Natural 
Resources Conservation Service in delivering Conservation Technical 
Assistance and providing technical and financial assistance through 
2008 Farm Bill programs.
75 Years of Helping People Help the Land
    Two thousand-ten is the 75th anniversary of the Natural Resources 
Conservation Service (NRCS). Since our founding in 1935, we have helped 
America's farmers, ranchers, and forest owners manage the nation's 
working lands to ensure continued agricultural productivity and a 
healthy environment. With about 70 percent of U.S. land in the lower 48 
states in private hands; our mission remains a critical one.
    The Upper Mississippi River Basin Conservation Effects Assessment 
Project (CEAP) Report released last month shows our efforts over the 
past \3/4\ of a century have not been in vain. The CEAP data confirm 
that voluntary, incentive-based conservation works and that the 
conservation practices applied by farmers in the basin have resulted in 
a 69 percent reduction in sediment loss.
    Findings also indicate that implementing suites of practices to 
address multiple resource concerns is more effective than using single 
practices, reinforcing the need to engage in comprehensive conservation 
planning. For many producers, conservation planning is the fundamental 
starting point for maintaining and improving the natural resources that 
support productive and profitable agricultural operations. In addition, 
the CEAP Report provides quantitative support for improving program 
effectiveness by targeting conservation programs to the acres with the 
most critical need.
    A conservation plan tailored specifically to a farm or ranch 
identifies immediate or potential resource problems that could affect 
production; helps producers comply with environmental regulations; 
helps farmers and ranchers qualify for various United States Department 
of Agriculture (USDA) conservation programs; adapts to changing 
operational goals; establishes a reasonable schedule to apply needed 
conservation practices; and can save farmers and ranchers time, labor 
and energy. Once we have worked with farmers and ranchers to evaluate 
their needs and conservation options, farm bill programs are available 
to assist them in implementing the components of their conservation 
plans.
    Comprehensive planning through both technical and financial 
assistance to land owners and managers has been at the heart of NRCS's 
work throughout our history and will remain there for the foreseeable 
future. Yet, as we begin our next 75 years of service, we realize that 
how we deliver this assistance matters more than ever.
    From FY 2005 through FY 2009, NRCS has written conservation plans 
on over 185 million acres of crop, grazing, and forest land. In 
addition, NRCS developed over 1,200 area-wide plans in FY 2009 for a 
total of nearly 4,000 since FY 2006. These area-wide plans look at 
opportunities for improvement beyond farm or ranch boundary, involving 
multiple farm or ranch operations and local communities. NRCS staff is 
servicing more customers per person, doubling the number of farmer or 
rancher assisted per full time equivalent (FTE) from FY 2005 to FY 
2009.
    In accordance with NRCS regulations that implement the National 
Environmental Policy Act at 7 CFR Part 650.5, NRCS will be preparing 
site specific environmental evaluations to determine the need for any 
Environmental Assessment of Environmental Impact Statement. 
Environmental evaluations (EE) integrate environmental concerns 
throughout the planning, installation, and operation of NRCS-assisted 
projects. The EE applies to all assistance provided by NRCS, but 
planning intensity, public involvement, and documentation of actions 
vary according to the scope of the action. NRCS begins consideration of 
environmental concerns when information gathered during the 
environmental evaluation is used:

  <bullet> To identify environmental concerns that may be affected, 
        gather baseline data, and predict effects of alternative 
        courses of actions.

  <bullet> To provide data to applicants for use in establishing 
        objectives commensurate with the scope and complexity of the 
        proposed action.

  <bullet> To assist in the development of alternative courses of 
        action; (40 CFR 1502.14). In NRCS-assisted project actions, 
        nonstructural, water conservation, and other alternatives that 
        are in keeping with the Water Resources Council's Principles 
        and Standards are considered, if appropriate.

  <bullet> To perform other related investigations and analyses as 
        needed, including economic evaluation, engineering 
        investigations, etc.

  <bullet> To assist in the development of detailed plans for 
        implementation and operation and maintenance.

    Factors, such as greater taxpayer investment in conservation 
through farm bills, the desire for increased transparency and financial 
accountability, advances in science and technology, the need to 
sustainably feed a growing global population, and burgeoning public 
interest in environmental health, compel us to upgrade and update our 
plans, programs, policies, and procedures. Moreover, in the current 
farm bill, Congress has called on us to help producers meet new 
conservation challenges, such as air quality, energy conservation, 
mitigating for the impacts of climate change, and participation in 
expanding markets for ecosystem services.
    To address all of these priorities, I articulated three goals upon 
becoming Chief last year. They are: ensuring conservation gets on the 
ground, improve agency internal controls and increase accountability, 
and creating a climate where private lands conservation can succeed.
Ensuring Conservation Gets on the Ground
    We have taken several steps to ensure conservation gets on the 
ground. First, we are targeting some of our financial and technical 
assistance to landscape-scale conservation, specific resource concerns, 
and special initiatives. By working at this scale we can treat resource 
concerns much more effectively and achieve measurable results. 
Landscape-scale initiatives include work in the Mississippi River 
Basin, the Great Lakes and the Chesapeake Bay and efforts to restore 
sage-grouse habitat; targeted resource concerns including air quality 
and the initiative for organic producers.
    Mississippi River Basin Healthy Watersheds Initiative (MRBI). NRCS 
is working to maximize environmental benefits in the Mississippi River 
Basin through the MRBI. The initiative's main goal is to address 
nutrient loading in the basin. In addition to these nutrient-focused 
efforts, NRCS will also partner to find new and innovative ways to 
address resource concerns ranging from water quality to soil erosion to 
energy conservation and wildlife habitat. NRCS recently announced 
funding for 76 projects in 12 states: Arkansas, Illinois, Indiana, 
Iowa, Kentucky, Louisiana, Minnesota, Mississippi, Missouri, Ohio, 
Tennessee, and Wisconsin. Funding is provided through the Cooperative 
Conservation Partnership Initiative, the Wetlands Reserve Enhancement 
Program (WREP) and Conservation Innovation Grants (CIG).
    Sage-Grouse Initiative (SGI). The SGI is designed to enhance public 
awareness of sage-grouse concerns, increase cooperation and 
collaboration from a broad-based partnership, and provide funding for 
conservation practices that benefit sage-grouse habitat. In March, NRCS 
announced that up to $16 million in financial assistance would be made 
available to protect sage-grouse population and habitat in 11 western 
states: California, Colorado, Idaho, Montana, Nevada, North Dakota, 
Oregon, South Dakota, Utah, Washington, and Wyoming. Funding is 
provided through the Environmental Quality Incentives Program (EQIP) 
and the Wildlife Habitat Incentive Program (WHIP). An additional $5 
million has been provided through EQIP and WHIP to meet growing demand 
under this initiative for a total of $21 million.
    Great Lakes Restoration Initiative (GLRI). The GLRI supports the 
Administration's vision for promoting voluntary action to protect and 
restore priority watersheds. NRCS received $34 million for the 
Initiative through an Interagency Agreement with the Environmental 
Protection Agency (EPA). The funding will be used by NRCS to implement 
priority programs, projects, and activities to protect, restore, and 
maintain the Great Lakes ecosystem, as identified in the Great Lakes 
Restoration Initiative Action Plan. The funding will be released 
through a number of NRCS programs, including Conservation Technical 
Assistance (CTA), EQIP, WHIP, Emergency Watershed Protection Program-
Floodplain Easements, and Farm and Ranch Lands Protection Program. 
States receiving funding include: Illinois, Indiana, Michigan, 
Minnesota, New York, Ohio, Pennsylvania, and Wisconsin.
    Chesapeake Bay Watershed Initiative. The Chesapeake Bay Watershed 
Initiative was authorized in the 2008 Farm Bill to provide assistance 
to agricultural producers to minimize excess nutrients and sediments in 
order to restore, preserve, and protect the Chesapeake Bay. Bay states 
include Delaware, Maryland, New York, Pennsylvania, Virginia, and West 
Virginia. The Chesapeake Bay Watershed Initiative is currently being 
delivered through the EQIP and WHIP. On June 18, USDA unveiled three 
showcase watersheds designed to demonstrate what can be achieved by 
combining strong partnerships, sound science and funding to solve 
natural resource problems in a targeted area in the Chesapeake Bay 
Watershed. The showcase watersheds are designed to demonstrate water 
quality improvements in a confined geographic area through expanded 
producer outreach efforts, use of innovative conservation practices and 
intensive conservation planning, implementation and monitoring. The 
goal is to reach out to 100 percent of the agricultural producers in 
each watershed to gauge their current level of conservation treatment 
and explain additional technical and financial assistance opportunities 
available through various conservation programs.
    Environmental Quality Incentives Program (EQIP) Air Quality 
Initiative. The 2008 Farm Bill includes a provision for EQIP to provide 
payments to implement practices to address priority air quality 
resource concerns from agricultural operations and to meet Federal, 
state, and local regulatory requirements. In Fiscal Year 2010, 
$33,825,000 of EQIP financial assistance has been allocated to Arizona, 
California, Colorado, Georgia, Indiana, Maryland, Michigan, Montana, 
New York, Ohio, Pennsylvania, and Texas for this initiative.
    Environmental Quality Incentives Program Organic Initiative. The 
EQIP Organic Initiative requires payments to be made for conservation 
practices on operations related to organic production and/or transition 
to organic production. In FY 2010, $50 million in financial assistance 
was allocated among all states.
    A second key aspect of getting conservation on the ground is 
retooling programs for better performance and to increase the 
efficiency of technical assistance resources. NRCS has dedicated 
significant staff resources from the states and field to improve 
performance of programs such as the Wetlands Reserve Program, EQIP and 
CIG.
    The President's FY 2011 budget also includes a new proposal for 
Strategic Watershed Action Teams (SWATs) to be deployed in high 
priority agricultural watersheds. Though the Conservation Technical 
Assistance Program, NRCS will use teams of Soil Conservationists, 
specialists (engineers, biologist, range specialist or others as 
needed) depending on the need in each watershed. The goal of deploying 
the SWATs will be to reach every landowner in a targeted watershed 
eligible for NRCS programs and provide them with the technical 
assistance to assess their natural resource conditions and offer 
resource planning and program help. Through the use of SWATs, NRCS will 
greatly improve the environmental cost effectiveness of technical and 
financial assistance programs.
    Further, we are applying the knowledge gained through CEAP and 
other research initiatives to improve program performance. For example, 
NRCS has just completed the first ranking period sign up under the new 
Conservation Stewardship Program (CSP) and are pleased to announce that 
12, 649,918 acres were enrolled as of June 18, 2010. We reviewed public 
comments, assessed the first ranking period and made changes that 
encourage enhanced stewardship and performance. We now have a final 
rule for CSP which includes suites of conservation enhancements, as 
CEAP suggested, to improve environmental performance. CSP remains 
available nationwide, as provided in the 2008 Farm Bill, and the second 
ranking period--now underway--is being conducted under the new rule.
Improve Agency Internal Controls and Increase Accountability
    The second goal is to improve agency internal controls and increase 
accountability. Since FY 2002, the amount of financial assistance NRCS 
administers has grown by 376 percent. To support this growth, staff 
year funding has increased as well. Funding for technical assistance 
(salaries and expenses) related to the farm bill programs has increased 
significantly, from $46 million in FY 2002 to $577 million in FY 2010. 
In addition, the number of staff years associated with farm bill 
programs has also increased from 431 in FY 2002 to 5,705 in FY 2010.
    However, since FY 2005, the number of FTEs providing technical 
assistance through the Conservation Technical Assistance Program has 
decreased 13 percent. Across all programs, the applied conservation 
practice acres per FTE increased by 32 percent. This trend requires us 
to undertake new streamlining, partnership and management initiatives 
to increase our efficiency, effectiveness and conservation results.
    Delivering science-based technical assistance to clients is the 
foundation for successfully carrying out NRCS's mission of helping 
people help the land. Our on-site assistance to help clients identify 
conservation objectives, inventory resource concerns and opportunities, 
analyze alternatives, and formulate treatments through conservation 
planning is unique. Provision of this technical assistance is 
documented in 1.6 million conservation plans and 30 million planned 
practices in our National Conservation Plan Database.
    Conservation planning is a sound approach for the consistent and 
effective delivery of financial assistance programs, helping to ensure 
that the public's investment in private lands conservation achieves 
desired environmental outcomes. The farm bill expanded NRCS's field 
operations to include new authorities and the development and 
administration of contracts and easements for financial assistance 
programs. NRCS now manages about 400,000 farm bill program contracts in 
its national ProTracts database. But our current business model and 
processes leave inadequate time for on-site planning, design, 
installation assistance and critical follow-up activities. In addition, 
NRCS's information technology tools need to be integrated to gain 
efficiencies.
    In January 2009, NRCS responded by formally initiating the 
Conservation Delivery Streamlining Initiative, to define and implement 
a more effective, efficient, and sustainable business model for 
delivering conservation assistance. Three overarching objectives were 
identified:

    1. Simplify Conservation Delivery--The new business model must make 
        the delivery of conservation programs easier for both customers 
        and employees.

    2. Streamline Business Processes--The new business model and 
        processes must increase efficiency through streamlined 
        processes, and be integrated across Agency business lines.

    3. Ensure Science-based Assistance--The new business model must 
        reinforce the continued delivery of technically-sound products 
        and services.

    As NRCS implements key parts of the Streamlining Initiative, we 
anticipate a future where technical field staffs will spend as much as 
75 percent of their conservation assistance time in the field, working 
one-on-one with customers, to deliver planning, application, and 
financial assistance in a way that emphasizes resource concerns--rather 
than programs.
    Pillars of the Conservation Delivery Streamlining Initiative 
consist of:

    1. Define, streamline, and integrate conservation assistance 
        processes across business lines. To ensure field staff can 
        focus their time on the Agency's core activities, NRCS will 
        more clearly define, streamline, and institutionalize sound 
        conservation assistance business processes.

    2. Prioritize and deploy information technology that effectively 
        supports and aligns with the delivery of conservation 
        assistance. NRCS will develop a single portal, called a 
        Conservation Desktop, which will allow field staff and partners 
        to access all the tools and data needed to deliver technical 
        and financial assistance through one application. This 
        integrated environment will eliminate duplicate data entry by 
        staff and increase the efficiency of our information technology 
        development and use. NRCS will fully integrate geospatial data 
        and services into its business processes and tools to reduce 
        administrative time and enhance the quality of conservation 
        plans. Mobile computing technologies will be institutionalized 
        for planners nationwide, making our work more efficient, 
        reducing the travel time from unnecessary trips, and improving 
        customer service.

    3. Provide field technical staff with natural resource science and 
        technology tools focused on conservation planning and practice 
        implementation. The foundation data and processes for assessing 
        resource concerns during planning is being redesigned to 
        simplify planning and client decision-making, and ensure NRCS 
        plans document estimated conservation benefits. This includes 
        restructuring the various science and technology tools used by 
        field staff nationwide to make them simpler, more consistent, 
        quicker to use, and accessible in both the office and the 
        field. The first of these tools to be updated will support 
        grazing, erosion calculations, and wildlife habitat 
        assessments. NRCS will also be integrating area-wide assessment 
        approaches into the Agency's conservation delivery processes, 
        and integrating conservation effects into NRCS' planning tools 
        to improve client decision-making, better describe outcomes, 
        streamline program ranking, and more efficiently support 
        environmental market programs.

    4. To implement programs through staffing and delivery approaches 
        designed around more efficient business processes. Alternative 
        staffing strategies to address financial assistance needs and 
        supporting information systems will be implemented. Emerging 
        technologies, such as electronic signatures and alternative 
        approaches for screening, ranking and funding program 
        applications will be tested and implemented to streamline 
        program delivery and simplify program participation for 
        clients.

    5. Establish tools and processes for interacting with clients that 
        are resource-centric, enhance customer service, and increase 
        NRCS' efficiency. A variety of new approaches for interacting 
        with clients will be implemented to enhance and customize the 
        Agency's services to its growingly-diverse clientele. The first 
        will be a web-based Client Gateway that will allow USDA program 
        participants to apply for assistance; view plans and contracts, 
        check on the status of payments from NRCS; digitally sign 
        documents; review upcoming work; and more at their convenience.

    Other management initiatives we have set in motion include:
    Strengthened Financial Management. NRCS continues to make internal 
changes based on the lessons learned though financial audits. We are 
working to develop and implement a Managerial Cost Accounting (MCA) 
model to measure and properly allocate costs that align with the 
strategic goals. MCA will be integrated into all aspects of NRCS 
operations to support financial reporting, workload and staffing 
management, budgeting and operational decision-making, and statutory 
fund allocation requirements.
    NRCS is committed to updating financial policies and procedures to 
provide its workforce with the necessary information to produce 
accurate, reliable, and timely financial information. All financial 
policies currently published in the General Manual will be reviewed and 
updated by the end of the fiscal year.
    Funding Allocation Reform. NRCS currently uses a complex automated 
process for allocating its financial and technical resources to the 
states. Efforts are in place to review and reform the Agency's 
allocation process to better align the dollars with resource 
conservation needs and concerns. By coordinating the development of 
conservation plans with participation in financial assistance programs, 
the Agency will be better positioned to identify future workload and 
the dollars needed to implement the conservation plans through 
mandatory financial assistance programs, such as EQIP. The information 
from conservation plans, along with refining our Activity-Based Costing 
data, workforce planning and workload analysis, will be the framework 
for a new allocation process.
    National Headquarters Realignment. NRCS National Headquarters was 
realigned in January 2010 to provide the infrastructure to achieve 
Agency priorities. The objectives of the realignment were to provide 
more timely and effective support to NRCS state and field offices; 
better maintenance and communication of policy and guidance; better 
aligned administrative functions and management services, and increased 
collaboration at all levels of the Agency to allow more time for state 
and field employees to work on conservation activities in the field.
Creating a Climate Where Private Lands Conservation Can Succeed
    The third goal is creating a climate there private lands 
conservation can succeed. An essential element of creating a climate 
for success is working effectively with diverse partners at all levels 
to implement farm bill conservation programs. This includes working 
successfully with our USDA sister agencies including the Forest 
Service, Rural Development, and the Farm Service Agency (FSA). Two 
programs we deliver jointly with FSA are of particular interest to this 
Subcommittee--the Conservation Reserve Program, including the 
Conservation Reserve Enhancement Program, and the Grassland Reserve 
Program.
    Conservation Reserve Program (CRP). CRP provides technical and 
financial assistance to eligible farmers and ranchers to address soil, 
water, and related natural resource concerns on their lands in an 
environmentally beneficial and cost-effective manner. CRP is 
administered by the Farm Service Agency (FSA), with NRCS providing land 
eligibility determinations, conservation planning, and practice 
implementation.
    NRCS and FSA have entered into a Memorandum of Agreement which 
outlines the responsibilities of NRCS and FSA with respect to CRP 
technical assistance (TA). Under this Agreement, FSA processes payments 
for landowners and NRCS is reimbursed for TA expenses.
    Grassland Reserve Program (GRP). The purpose of GRP is to assist 
landowners in conserving grazing uses and related conservation values 
by restoring and conserving eligible land through easements and rental 
contracts. The GRP statute authorizes the enrollment of an additional 
1.22 million acres of eligible land from FY 2009 through FY 2012. GRP 
is administered jointly by NRCS and FSA. NRCS administers the easement 
portion of GRP and provides technical assistance to landowners for both 
easements and long-term agreements and all conservation planning.
    NRCS and FSA have entered into a Memorandum of Understanding which 
outlines the responsibilities of NRCS and FSA with respect to the 
implementation of GRP. FSA processes GRP payments and NRCS reimburses 
FSA the actual personnel costs, overtime and travel related to 
assisting with GRP administration. FSA determines payment limitations 
for rental contracts and any applicable restoration agreements, 
assesses penalties and associated costs, makes payments, and maintains 
funding codes for easements and rental contracts to monitor the 60/40 
funding split required by the 2008 Farm Bill.
    A second vital set of partners is our Technical Service Providers 
(TSPs). The 2002 Farm Bill first authorized the use of TSPs by 
requiring USDA to allow producers to receive technical assistance from 
individuals other than NRCS staff. In other words, TSPs are force 
multipliers in putting conservation on the ground. Over the 6 years of 
the TSP Initiative, 56 percent of its funds have been obligated through 
EQIP. The major remaining distribution of funds is: CRP, 13 percent: 
CTA, 12 percent: Wetland Reserve Program (WRP), 11 percent: WHIP, four 
percent: Watershed Rehabilitation, two percent; and Emergency Watershed 
Protection (EWP), two percent. In FY 2009, NRCS partnered with the 
private sector, state agencies, soil and water conservation districts 
and nongovernmental organizations to provide $29 million in technical 
assistance through the TSP program.
    The 2008 Farm Bill amended the TSP provisions, requiring national 
standards for TSP certification. TSPs register, become certified and 
manage their TSP profiles through TechReg, an on-line support tool. 
TechReg also helps landowners locate and choose a certified registered 
TSP who can help them meet their conservation goals. NRCS can also 
obtain technical or support services directly through procurement 
contracts, contribution agreements, and cooperative agreements.
Assessing our National Resources
    Results of our latest National Resources Inventory (NRI), released 
this past April, underscore the wisdom of Congress in establishing an 
ongoing program of soil and water conservation on private lands 75 
years ago. The NRI shows that Congress' decision continues to pay 
dividends, as total cropland erosion declined about 43% between 1982 
and 2007. This achievement is testimony to the commitment of 
generations of landowners and operators to conserving our natural 
resource base.
    While that is worth celebrating, a second finding from the same 
report tells us the nation's working lands are now at risk from 
development. During the same 25 year period, the total acreage of 
developed land in the country increased by about 56%. This means that 
more than \1/3\ of all land that has ever been developed in the lower 
48 states during our nation's history was developed during the last 
quarter century.
    Of particular concern is that nearly 14 million acres of prime 
farmland were developed between 1982 and 2007. That represents the loss 
of nearly 4% of all prime farmland in the U.S.--or an area almost as 
large as West Virginia. Cropland acreage declined nearly 15%, but 
there's better news here. About half of this reduction is accounted for 
in enrollments of environmentally sensitive cropland in CRP, which NRCS 
helps to implement.
    We believe these results prove the work of NRCS is as important in 
2010 as it ever was--and likely growing in importance, as the amount of 
available farmland decreases and the demand for food increases. The 
United Nations predicts world food output must grow by 70% over the 
next 4 decades to feed an additional 2.3 billion people worldwide by 
2050. That will place additional pressures on our soil, air, and water 
resources.
    We must use knowledge gained from the NRI, CEAP, and other 
essential tools to prioritize our efforts where the conservation need 
is most critical and where the investments will do the most good.
    We must also be serious about keeping working lands working and 
must help agricultural producers stay on their land. We must maintain 
and build new alliances with partners to enable land owners to take 
full advantage of our easement programs, which reserve farmlands, 
ranchlands, grasslands and wetlands for current agricultural uses--as 
well as for future generations.
    Another avenue of support for producers is generating new revenue 
streams for them through environmental services markets. As Congress 
has directed, we must help farmers and ranchers gain recognition for 
all the environmental benefits working landowners provide to their 
fellow citizens, and pay them for them--benefits like clean air, clean 
and abundant supplies of water, carbon storage in fields and forests, 
and wildlife habitat that creates opportunities for hunting and 
fishing.
In Closing
    As NRCS works to streamline and modernize the delivery of services 
to meet the demands of today's customers, we are also helping to 
achieve the enduring objectives of a nation committed to both 
productive lands and a healthy environment. During FY 2009 over 48 
million acres of agricultural land had at least one conservation 
practice applied. Interest and demand for conservation assistance 
remains strong. Support for comprehensive planning, CTA and financial 
assistance provided through farm bills remains essential to our 
success, in 2010 and beyond.
    Thank you for inviting me to be here. I am now happy to take any 
questions.

    The Chairman. Thank you, Mr. White.
    Mr. Coppess.

 STATEMENT OF JONATHAN W. COPPESS, ADMINISTRATOR, FARM SERVICE 
                   AGENCY, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Coppess. Thank you, Chairman Holden, Ranking Member 
Goodlatte, and Members of the Subcommittee. I appreciate the 
opportunity to discuss implementation of conservation programs 
and the technical assistance that is required to do so.
    The Farm Service Agency implements several highly 
successful conservation programs. In particular, these include 
the Conservation Reserve Program, the Emergency Conservation 
Program, and the Grassland Preserve Program, which we 
administer jointly with NRCS. Soon we will also be 
administering the Voluntary Public Access Program authorized 
under the farm bill.
    Today, I would like to discuss briefly how FSA works with 
technical assistance providers in our major conservation 
programs. Much of our technical assistance is done in concert 
with NRCS, and we greatly appreciate their efforts as well as 
the efforts of our many conservation partners.
    The Conservation Reserve Program provides cost-share 
assistance and annual rental payments to farmers and ranchers 
to establish conservation covers, and a conservation plan is 
required for each CRP participant. FSA has an agreement within 
NRCS to provide conservation planning for CRP participants 
specifying responsibilities of each agency. FSA has a similar 
agreement with the Forest Service to provide conservation 
planning for CRP participants and with other Federal and state 
agencies to conduct monitoring, assessment, and evaluation of 
CRP practices.
    Beginning in 2006, FSA has, in certain cases, used private 
contractors to redirect technical assistance when NRCS 
experiences an especially high workload. Several states have 
implemented pilot programs using private-sector firms to 
develop conservation plans.
    The Conservation Reserve Enhancement Program is a component 
of CRP. It is a broad partnership between USDA, states, and 
private groups. As part of the CREP agreements, state 
agricultural and environmental agencies are required to 
contribute technical assistance resources for implementation. 
They also monitor outcomes. These agencies typically contribute 
about ten percent of the total project cost in the form of an 
in-kind technical assistance service.
    The Emergency Conservation Program provides emergency 
funding and technical assistance for producers to rehabilitate 
farmland damaged by natural disasters. Between six and seven 
percent of ECP funding is used for technical assistance. FSA 
provides technical assistance for certain practices, and has an 
agreement with NRCS to provide technical assistance for 
practices requiring greater conservation expertise. FSA also 
has an agreement with the Forest Service to provide technical 
assistance under ECP for hurricane disasters. In implementing 
ECP funding projects, FSA and NRCS staff work hand in hand at 
the local level.
    On the Grassland Reserve Program, we jointly administer: 
GRP is a voluntary conservation program that emphasizes support 
for working grazing operations and protection of grasslands. 
Applicants can apply for a rental contract or an easement with 
either NRCS or FSA. NRCS is responsible for administering the 
easement acquisition process, while we at FSA are responsible 
for rental contracts and payments.
    NRCS provides leadership on regulations and provides on-
the-ground technical assistance for both easements and rental 
contracts. FSA manages financial assistance funds, which 
includes making payments for rental contracts and easement 
acquisition. Both agencies collaborate on policy decisions and 
day-to-day program management.
    Finally, I would like to touch briefly on savings derived 
through FSA and NRCS coordination on programs. FSA and NRCS 
have significantly reduced technical assistance costs over the 
past 10 years. Through automation and some of the streamlining 
changes that Chief White has mentioned, we have developed 
collaboratively between the two agencies. The cost of general 
CRP sign-up activities were reduced by approximately 30 percent 
per contract, and the cost of continuous sign-up activities 
were reduced by approximately 18 percent per contract.
    The re-enrollment of expiring 2007 through 2010 CRP 
contracts offered additional opportunities for streamlining and 
cost savings. FSA worked with NRCS and agreed to make 
adjustments to the NRCS model estimates to reflect time savings 
on CRP contracts with forestry-only practices. This reduced 
technical assistance costs by 29 percent per contract.
    These are just a couple of examples of the way we have 
worked together to work on efficiencies and cost savings.
    In conclusion, technical assistance, as you mentioned, 
plays an incredibly vital role in our conservation programs. 
Both FSA and NRCS understand the nature of sound technical 
assistance for these programs. We will continue to work closely 
with NRCS as well as our other Federal and non-Federal partners 
to ensure that FSA program participants receive the highest 
quality technical assistance to meet program requirements.
    I thank you for the opportunity to testify and welcome your 
questions.
    [The prepared statement of Mr. Coppess follows:]

Prepared Statement of Jonathan W. Coppess, Administrator, Farm Service 
        Agency, U.S. Department of Agriculture, Washington, D.C.

    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to discuss implementation of conservation 
programs and the technical assistance required to place conservation 
practices on the ground.
    The Farm Service Agency (FSA) implements several highly successful 
conservation programs. The largest of the conservation programs, the 
Conservation Reserve Program (CRP), has resulted in more than 31 
million acres of grasses, trees, riparian buffers, filter strips, 
restored wetlands, and high-value wildlife habitat. The Emergency 
Conservation Program (ECP) provides emergency funding to farmers and 
ranchers to rehabilitate farmland damaged by natural disasters and for 
carrying out water conservation measures in periods of severe drought. 
FSA and the Natural Resources Conservation Service (NRCS) jointly 
administer the Grassland Reserve Program, which is a voluntary 
conservation program that emphasizes support for working grazing 
operations, enhancement of plant and animal biodiversity, and 
protection of grassland under threat of conversion to other uses.
    As soon as the interim rule is published FSA is prepared to begin 
administering the Voluntary Public Access and Habitat Incentives 
Program, a newly authorized 2008 Farm Bill program. This program will 
provide grants to states and tribal governments to encourage owners and 
operators of privately held farm, ranch, and forest land to voluntarily 
make their land available for public access for wildlife-dependent 
recreation, including hunting or fishing. The funding for this program 
is administered by state and tribal governments. We expect the interim 
regulation for this program to be published this summer, and also have 
scheduled several tribal consultation sessions across the United States 
beginning in August, to receive input from tribes before we draft the 
final rule.
    To implement our conservation programs, FSA relies on technical 
assistance from NRCS, the Forest Service, the Fish and Wildlife 
Service, the Department of Energy, State Forestry agencies, state 
agricultural, fish and wildlife and environmental departments, 
conservation districts, non-governmental organizations, and the private 
sector. These partners help us with numerous activities that fall under 
the umbrella of technical assistance, including eligibility 
determinations, conservation plan development, conservation practice 
development and implementation, outreach to farmers and ranchers, and 
monitoring the impacts of conservation programs.
    Today, I will discuss how FSA works with technical assistance 
providers in each of our major conservation programs. Much of our 
technical assistance interaction is with NRCS, and we greatly 
appreciate their efforts, as well as the efforts of our many other 
conservation partners.
Conservation Reserve Program (CRP)
    The Conservation Reserve Program provides cost share assistance and 
annual rental payments to farmers and ranchers to establish 
conservation covers. Numerous conservation practices are available to 
farmers and ranchers, including grasses, trees, filter strips, riparian 
buffers, wetland restoration, and high-value wildlife habitat. A 
conservation plan is required for each CRP participant.
    FSA has an agreement with NRCS to provide conservation planning for 
CRP participants, specifying the responsibilities of each agency. For 
instance, NRCS is responsible for certain technical eligibility 
determinations and for developing conservation plans, while FSA is 
responsible for compliance determinations and consultations with other 
Federal agencies, such as the U.S. Fish and Wildlife Service. The 
agreement also specifies reimbursement rates based on NRCS's Cost of 
Programs model. The current agreement was negotiated after the 2008 
Farm Bill and is in effect through 2012.
    Prior to the beginning of each fiscal year, FSA and NRCS meet to 
discuss anticipated needs for the coming year and develop a cost 
estimate. FSA reimbursed NRCS $62.3 million in Fiscal Year 2008 and 
$56.3 million in Fiscal Year 2009.
    FSA has a similar agreement with the Forest Service to provide 
conservation planning for participants installing tree practices under 
both the CRP and the Emergency Forestry Conservation Reserve Program. 
CCC funds are provided to the Forest Service, which distributes those 
funds to State Forestry agencies in the form of technical assistance 
grants. State Forestry employees provide technical assistance services. 
FSA is reimbursing the Forest Service for $1.9 million in both 2008 and 
2009.
    Beginning in 2006, FSA explored providing technical assistance 
through private sector vendors. Private sector vendors can be used to 
redirect technical assistance when NRCS experiences high workload and 
would have difficulty providing timely completion of CRP conservation 
plans. Under FSA authorization, Kansas, Nebraska, Washington, North 
Dakota and Minnesota have all implemented pilot programs using private 
sector firms to develop conservation plans. Though the scope of these 
projects has been limited, we generally do not find that the private 
sector plans cost less than equivalent plans developed by NRCS. We are, 
however, generally pleased with the quality and timing of the plans 
developed by these partners.
    Although the National Agricultural Statistics Service (NASS) is not 
one of our ``traditional'' technical service providers, I would like to 
mention their efforts. The 2008 Farm Bill provided direction for the 
Secretary, acting through NASS, to conduct an annual survey of cash 
rental rates. We have coordinated with NASS and will plan to use their 
statistically reliable cash rent data as a basis for establishing CRP 
rental rates.
Conservation Reserve Enhancement Program
    The Conservation Reserve Enhancement Program (CREP), a component of 
CRP, is a partnership among USDA, tribes, states and, in some cases, 
private groups. By combining CRP resources with state, tribal, and 
private programs, CREP provides farmers and ranchers with a sound 
financial package for conserving and enhancing natural resources.
    State agricultural and environmental agencies are required to 
contribute significant technical assistance resources for CREP 
development and implementation, including outreach, conservation 
planning, and engineering services. They also monitor CREP outcomes. 
State agricultural and environmental agencies typically contribute ten 
percent of the total project cost in the form of ``in kind'' technical 
assistance services.
Emergency Conservation Program
    The Emergency Conservation Program (ECP) provides emergency funding 
and technical assistance for farmers and ranchers to rehabilitate 
farmland damaged by natural disasters and for carrying out emergency 
water conservation measures in periods of severe drought. Funding for 
ECP is discretionary and is generally made available in supplemental 
appropriations acts. Between six and seven percent of ECP funding is 
used for technical assistance, or approximately $1 million annually.
    FSA provides technical assistance for certain ECP practices, 
including debris removal, fence restoration and grading and shaping of 
damaged land. FSA has an agreement with NRCS to provide technical 
assistance for practices requiring greater conservation expertise, 
including restoration of conservation structures and other 
installations as well as drought emergency measures. FSA also has an 
agreement with the Forest Service to provide technical assistance for 
ECP for hurricane disasters that affect tree stands.
    Timing of this assistance is critical to meet the oftentimes urgent 
needs of producers facing damage from disasters. FSA and NRCS staffs 
work hand in hand at the state and county level to provide efficient 
and timely service to producers. For instance, FSA and NRCS staffs in 
Tennessee are working at the state and county level to provide 
assistance to farmers affected by recent flooding.
Grassland Reserve Program
    FSA and NRCS jointly administer the Grassland Reserve Program 
(GRP). GRP is a voluntary conservation program that emphasizes support 
for working grazing operations, enhancement of plant and animal 
biodiversity, and protection of grassland. Applications may be filed 
for a rental contract or an easement with NRCS or FSA.
    Participants voluntarily limit future development and cropping uses 
of the land while retaining the right to conduct common grazing 
practices and operations related to the production of forage and 
seeding, subject to certain restrictions during nesting seasons.
    NRCS is responsible for administering the easement acquisition 
process, while FSA is responsible for rental contracts and payments. 
NRCS provides leadership on regulations and provides all on-the-ground 
technical assistance for both easements and rental contracts. FSA 
manages financial assistance funds, which includes making payments for 
rental contracts and easement acquisition. Both agencies collaborate on 
policy decisions and day-to-day program management.
Monitoring, Assessment, and Evaluation
    Monitoring, assessment, and evaluation is necessary both for CRP 
assessment and reporting, and for providing sound science essential for 
effectively administering CRP and other conservation programs. The need 
for monitoring, assessment, and evaluation of conservation programs has 
been recognized by Congress in the 2002 and 2008 Farm Bills, and the 
2008 Farm Bill includes language defining technical assistance to 
include ``. . . activities, processes, tools, and agency functions 
needed to support delivery of technical services such as . . . 
monitoring and effects analyses.''
     FSA uses Federal, state, university, and other organizations to 
conduct monitoring, assessment, and evaluation of the effects of 
conservation programs. The results are used to improve program 
delivery, target program resources, quantify program benefits, and 
communicate program accomplishments. Between 2003 and 2008, FSA used 
$2.25 million from multiple funding sources to identify, quantify and 
document environmental benefits generated by CRP. These analytical 
results have been used: to develop conservation initiatives using 
highly beneficial CRP practices; to develop environmental goals for the 
FSA strategic plan; and to guide CRP decisions, such as informing 
USDA's decision not to permit `early outs' from CRP contracts in 2008.
    CRP monitoring and evaluation activities are coordinated with, and 
complement, USDA's Conservation Effects and Assessment Program (CEAP). 
CEAP is a multi-agency, multi-year program tasked with ascertaining the 
effectiveness of conservation practices, such as those implemented 
under CRP, in providing environmental benefits.
Other Technical Assistance
    FSA also implements programs to review potential exposure to 
potential hazardous materials associated with the operation of former 
grain storage facilities or associated with foreclosed properties. FSA 
uses private sector engineering firms and agreements with the 
Department of Energy to use Argonne National laboratory to conduct 
groundwater site investigations and to develop remediation protocols.
Technical Assistance Savings and Coordination
    FSA and NRCS have significantly reduced technical assistance costs 
over the past 10 years. FSA, with assistance from NRCS, automated the 
environmental benefits index calculations for the CRP general sign-up 
in 2003. In addition, FSA and NRCS automated field-level information 
regarding soil erodibility and other features, allowing the automation 
of eligibility determinations and reducing costs. FSA and NRCS further 
streamlined the tasks necessary to implement technical assistance for 
CRP. Because of these automation and other streamlining changes, the 
costs of general sign-up activities were reduced by approximately 30 
percent per contract and the costs of continuous sign-up activities by 
approximately 18 percent per contract.
    The re-enrollment of expiring 2007-2010 CRP contracts offered 
additional opportunities for streamlining and cost savings. FSA and 
NRCS reviewed the tasks required for re-enrollment activities and 
agreed to implement changes that resulted in significant savings for 
all re-enrollment contracts. In addition, FSA worked with NRCS and 
agreed to make adjustments to NRCS model estimates to reflect time 
savings on CRP contracts with forestry-only practices. Technical 
assistance costs for these contracts were reduced by 29 percent per 
contract.
    Further, FSA and NRCS work together to facilitate implementation of 
their various program-related workload constraints. For example, FSA 
provides projections of potential CRP enrollment activities to NRCS to 
help NRCS plan for potential workload demand changes.
Conclusion
    Technical assistance is a vital component of effectively and 
efficiently placing conservation practices on the ground. Each form of 
technical assistance--including timely and efficient conservation plan 
development, broad outreach to current and potential program 
participants, and monitoring and assessment on conservation program 
impacts--helps conservation programs achieve their intended purpose. 
FSA works closely with Federal and non-Federal partners to ensure all 
FSA program participants receive high quality technical assistance to 
meet program requirements.

    The Chairman. Thank you, Mr. Coppess.
    Mr. White, as Mr. Goodlatte mentioned in his opening 
statement, he and I represent regions within the Chesapeake Bay 
Watershed. We just introduced a bill, H.R. 5509, that we 
believe builds on the success of the farm bill program and 
would bring some regulatory certainty for our farmers. We 
believe additional technical assistance and third-party 
providers will play an integral role in helping farmers comply 
with regulations. So it is important that the system is 
working.
    Can you tell us, are there particular areas or regions that 
have an overly complex system of delivering conservation? Are 
there areas or regions with a successful conservation delivery 
system that could be replicated and that we can learn from? And 
how is the agency working to make sure technical service 
providers are available to help provide assistance?
    Mr. White. Yes, sir. Mr. Holden, what you and Mr. Goodlatte 
have put in that bill is absolutely, in my view, vital. The 
concept of certainty is exactly what our producers need.
    When you look at the Chesapeake Bay and they talk about 
millions of tons of this and millions of tons of that, what 
does it mean to a producer? I can't get my arms around it. What 
we have to do is be able to give the producers the certainty 
that if they do these practices on their farms that helps the 
water quality, nobody is going to mess with them. And I just 
want to thank you and applaud both of you so much for doing 
that.
    Regarding different areas of the country, we are 
geographically challenged in some areas like in Alaska or maybe 
Guam. We have the northern tier of states where you have a 
limited amount of time you can work. So there are limiting 
factors out there. But, as we move across the country, we have 
the staff and the ability to effectively address those issues, 
sir.
    And as far as the emerging issues, we will have to find a 
way to accommodate them within the existing system.
    The Chairman. Thank you.
    Mr. Coppess, in your opening statement, you address a 
number of ways that NRCS and FSA are working together with 
limited resources and particularly NRCS staff shortages. Can 
both of you elaborate on and be more specific about how you are 
working together to make sure technical assistance is 
available?
    Mr. Coppess. Certainly, and thank you.
    The bulk of that work obviously happens at the field level. 
And we are quite proud of--I think both of us are quite proud 
of the service centers and the work that they do in the 
counties across the country where NRCS provides the technical 
assistance on CRP and the BCP program especially; how we sort 
out getting the sign-ups, the contracts through; and then 
working with NRCS very closely on technical assistance, on 
conservation plans in particular for CRP. I think it is 
probably one of the biggest workload areas that we see with 
them.
    The Chairman. Mr. White.
    Mr. White. I would just echo what Jonathan says. We do have 
a good working relationship. We have some defined roles that 
seem to be working well together. We get along well. I think 
from Maine to Hawaii most of our field offices get along, and I 
hope that we continue with that.
    To be more frank, some of this kind of bothers me a little 
bit, because I don't want folks trying to put a wedge between 
us. We have enough challenges and enough work out there, and we 
need to work together, sir.
    The Chairman. Thank you.
    Mr. Coppess, if you could just get back to me on the matter 
we talked about before the hearing started, the transferring of 
funding from one CREP program in western Pennsylvania to the 
lower Susquehanna CREP----
    Mr. Coppess. Absolutely.
    The Chairman.--and the concerns that producers have brought 
to my attention about rental rates.
    Mr. Coppess. We will look into it right away.
    The Chairman. Thank you.
    The chair recognizes the gentleman from Virginia, Mr. 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Gentlemen, welcome to both of you.
    Mr. White, I appreciate some of your comments regarding 
NRCS programs that are voluntary and incentive-based. We have 
worked hard to keep it that way, to keep the incentives there 
for farmers to do the right thing, because they have a lot of 
incentives on their own to do the right thing as well.
    And then you, just a moment ago in response to the 
Chairman's question with regard to our concerns about what is 
going on with the Chesapeake Bay, you said, ``If they do these 
things, nobody is going to mess with them.'' Would that that 
was the case. I absolutely agree with that principle, that if 
you do the right thing, nobody should mess with you. But we are 
confronted with those here in this Congress who think that they 
should mandate actions that will have an impact not only on 
those who ``aren't'' doing these things, but also on those who 
are and who have made tremendous progress for which they are 
not getting proper credit.
    The fact of the matter is that the phosphorous and nitrogen 
that are flowing into the Chesapeake Bay--at least the portion 
coming off from farms--has been reduced by half in the last few 
decades. And it is entirely because of responsible management 
on the part of farmers who have undertaken, both on their own 
and with the help of the NRCS, voluntary, incentive-based 
efforts to keep the Bay free and clear.
    The Chairman and I are committed to continuing to work in 
that direction and making sure that farmers not only can help 
to improve the health of the Chesapeake Bay, but also help the 
health of the Chesapeake Bay and the economy of their regions 
by staying in business, by keeping those farms in farmland 
rather than being developed for other things, which are 
probably the greater source of difficulties for the Bay, that 
dramatic population growth in the region.
    But in that regard, in terms of helping them, one of the 
things that I have noted is the number of certified technical 
service providers is a little over 1,100 today, and I believe 
that is nearly \1/2\ as many certified TSPs compared to 2004. 
What do you believe has contributed to the drop in TSPs, and 
how can this program be improved?
    Mr. White. One digression, sir, I wanted to let you know, 
last time you were here you kind of took me to the woodshed a 
little bit on this six percent CCPI. I want to let you know, I 
have met with our staff--I felt awful. I couldn't sleep for a 
couple of days--and we are going to manage that thing so we 
stay below that six percent. So I just wanted to let you know 
that.
    Mr. Goodlatte. Well, we appreciate that. That means more 
resources available to farmers, and that is a good goal.
    Mr. White. So the TSPs, I will just say, we could have done 
one heck of a better job. The registration requirements were 
cumbersome. We were having them do online training through 
AgLearn, and some of it wasn't appropriate to them. We would 
have a national agreement with, say, a group, and then there 
would be state-level requirements that were added to that.
    And we are trying to address that. We actually did a survey 
with the TSPs, and we found out the things that were wrong. We 
have tried to address a lot of them in the TSP final rule.
    And let me just talk about the state requirements.
    Mr. Goodlatte. So you are saying that you think with better 
management you can provide better services with fewer 
personnel.
    Mr. White. Yes, sir. Yes, sir, I do.
    We understand on the state-level requirements we need that 
better consistency. We have it now that if the state has an 
additional requirement it has to come to Washington and we have 
to approve it. And if it is not required by state law, they 
better have a good reason. You have a lot of folks coming after 
me that can address this with great specificity, but we hope to 
really improve that process, Mr. Goodlatte.
    Mr. Goodlatte. Thank you.
    Do you find that there is a cultural problem with NRCS 
officials who are suited to provide technical assistance, but 
may have difficulty providing program administration? And, if 
so, should this be corrected without hiring additional 
administrative employees?
    Mr. White. You know, when we talk about the integration of 
our systems, I don't know how you carve out, okay, this is 
piece X and this is piece Y. It has to be part of a seamless 
system. That is what we are working towards. As far as the 
administrative efforts and the technical efforts are blended 
into a seamless unit, that is what our streamlining is trying 
to do, and I think we can accomplish that.
    Mr. Goodlatte. Thank you. Great. And I hope you sleep 
better after this hearing than the last one. I hate to think I 
might be responsible for any sleepless nights.
    Mr. White. Well, sometimes you need a little incentive.
    Mr. Goodlatte. Right.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    We have three votes coming up. I think we have time for the 
gentlewoman from South Dakota for any questions.
    Ms. Herseth Sandlin. Well, thank you for the testimony. We 
appreciate your insights.
    I would like to talk just a little bit about some of what 
is going on in South Dakota, North Dakota, Minnesota. We have 
some wetlands issues, as you know; and we have a lot of 
producers in South Dakota who are seeking wetlands 
determinations. They are simply waiting for certification from 
NRCS.
    Unfortunately, it appears to me that NRCS needs some 
assistance in certifying these wetland determinations since 
only the conservation technical assistance accounts can be used 
to certify them. So, as it stands, those accounts are used to 
provide planning before wetland determinations in addition to 
salaries for over half of the NRCS employees in the state. And 
for this reason there just aren't enough funds in that account 
to allow states like South Dakota--again, others in our 
region--to properly address the wetland determinations in a 
timely manner. In eastern South Dakota alone, there are over 
2,000 determinations waiting for certification.
    So, Mr. White, what plans do you have to allow more 
technical assistance, or the agency more broadly, what the 
Secretary may have for NRCS to determine the wetlands? Is it 
possible to allow more flexibility with funds allocated to NRCS 
so that they are able to assess all of these determinations 
with other funds?
    And, finally, would be it possible to allow a special 
increase in conservation technical assistance accounts for 
states like South Dakota, North Dakota, and Minnesota, who have 
this lingering challenge?
    Mr. White. The answer is, yes, ma'am, we can do that. We 
have a provision in the President's budget request for extra 
money on what we are calling little soil and water action 
teams. I think the House approved $12.5 million.
    What we would do, Ms. Sandlin, you know how soil surveys 
are kind of done, where we would put a team of soil scientists 
in a county and they would actually work themselves out of a 
job, and then you would move them to another county and they 
would do the soil survey there. This is kind of what we are 
thinking, where we would put an agronomist, biologist, 
engineer--whatever is needed--to actually address that.
    I talked to the people in South Dakota, North Dakota, and 
Minnesota, that if this goes all the way through, that is 
probably where we would put some of these extra teams to just 
work on that. They wouldn't have to do anything else, do these 
wetland determinations for these producers, because we can't 
survive with a couple thousand backed up. So, ma'am, I hope to 
address that.
    Ms. Herseth Sandlin. Well, I appreciate that, and we look 
forward to working closely with you. You have some great folks 
in the office there in South Dakota that we work closely with, 
with my constituents who are wanting these determinations 
sooner rather than later.
    As Mr. Coppess knows, we have folks through his agency that 
are concerned about the calculation for the SURE payments and 
the delays that we have experienced there. This leads me to my 
final question for both of you, and that is, the functions that 
each of your agencies deliver and the reimbursement activity 
that this creates. Could either of you talk about the 
administrative burden that you believe may exist, and how we 
can find some efficiencies as it relates to how the 
reimbursement rates are calculated?
    Mr. Coppess. Well, thank you. And certainly, as you 
mentioned with SURE and quite a few programs, we have no 
shortage of struggles in trying to get some complex programs 
out. Administratively, we have done everything we can to try 
and alleviate some of those, but we bump up against various 
hurdles as we do.
    I think the basic concept that we go through in using NRCS 
on the technical service side, and then reimbursing through CCC 
funding and all that, we see a lot of that working and working 
quite well. One of the things that I have noticed since I have 
been at the agency, and one of the reasons why it is our top 
priority right now, is this modernization effort. Part of what 
we struggle with is trying to work through years and years of 
processes that have not been improved, and on very antiquated 
systems that do not allow us to necessarily communicate as 
efficiently and as well as we need to within NRCS, with RMA, 
with the other agencies that we work with.
    So as we go through this process over the next few years we 
are very much trying to clean that up and improve how we work, 
not just internally, and not just at the field level, but 
across the country and with other agencies. I think that we 
will see significant improvement on time at the countertop, on 
time for sign-up, on time from sign-up to payment, and every 
bit of that process.
    Ms. Herseth Sandlin. My time has almost expired. What is 
the timetable for the modernization effort to be completed, 
assuming you have all the resources you need?
    Mr. Coppess. Making the big assumption that we continue to 
get the funding we need to complete it, we are looking at final 
contract pieces in 2013, and a lot of the big modernization 
push being completed by 2014. That is the time-frame we are 
looking at. We are always looking to speed that up.
    One of the most important things about how we are operating 
this modernization effort is it is not going to be built in the 
dark and rolled out at one time. We are pushing very hard to 
take care of those things we can clean up now on the short 
term, get those out of the way, start making those improvements 
so that our customers see it, so that our field employees see 
it, that you all can see that this is progressing as we want 
to.
    So while the end date is never going to be as clear as we 
want it to be, the most important thing is that we make that 
progress as we go, and that we demonstrate that progress as we 
go.
    Ms. Herseth Sandlin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentlewoman.
    We have about 7 minutes, since it is the first vote of the 
day, I think we have time for the gentleman from Missouri's 
questions.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    My question is for Mr. White. Mr. White, you are a fellow 
Missourian. You know where I come from and the problems that we 
have with the Missouri River and the Mississippi River with 
regards to the Corps of Engineers and their dictates from the 
Fish and Wildlife to increase the habitat for the pallid 
sturgeon. They are digging these 20-30 deep chutes, 100 wide, 
300 long, 20-30 acres per mile, and they are dumping this soil 
in our River.
    Now, we had a letter to Secretary Vilsack to discuss this 
with him. And during a Committee hearing he sat in the chair 
between you and Mr. Coppess, and he made the commitment to work 
with us on the various issues we had. And this is extremely 
important. You are spending $80 million a year right now 
studying the hypoxia issue in the lower Mississippi River 
basin, and this is a part of it, and yet we are dumping soil in 
there.
    I have a copy of the letter; and, Mr. Chairman, I would 
like to enter it into the record.
    The Chairman. Without objection.
    [The document referred to is located on p. 67.]
    Mr. Luetkemeyer. He said in there that--despite his 
commitment he stated that, ``It is highly unlikely that the 
relatively insignificant temporary discharge of sediments and 
nutrients from the chute and backwater restorations has any 
significant bearing on the hypoxia issue in the Gulf of 
Mexico.''
    Mr. White, this doesn't make sense. Number one, he is not 
working with us. Number two, he is not recognizing the issue of 
the sediment that $80 million study is out there to work on. 
And, number three, if those things are not important, then why 
in the world are we fining our farmers who live along this, who 
allow some sediment inadvertently to drop into the river? Can 
you answer those questions, please?
    Mr. White. Well, if anyone dropped the ball on working with 
you it would be me, because I was at that hearing, and I should 
have followed up, sir. And I will make that commitment now.
    I think what we have in this particular instance, it 
strikes me that there is really kind of a conflict between a 
couple of different laws, the Endangered Species Act, which 
says you need the sediment in there for the birds that nest on 
the sandbars and some of the fish that live there, and, as you 
well know, under the Clean Water Act, you have to get a 404 
permit to dredge and fill or dump any sediment. And which one 
takes supremacy? USDA does not administer either one of those 
laws.
    So what I would commit to you, sir, is that--if we could 
meet and if I could get some specificity on how I can carry 
this issue forward for you and for the producers you represent 
to try and seek a resolution.
    Mr. Luetkemeyer. Well, what is your answer to the $80 
million study here that we are working on over the next 3 years 
with--let me get the agency here--well, it is with your group--
to work on this, and yet we are dumping sediment in there and 
the Secretary doesn't think it is important. Why are we 
spending $80 million if it is not important?
    Mr. White. Well, I think that any type of scientific 
knowledge advances us. And for that reason, particularly on 
something so critical as this that we have the actual science 
that can inform our subsequent decisions. I think that would be 
money well spent if it points us a way out of this or towards a 
solution.
    I understand your frustration with this, and I understand 
how, on the face of it, it doesn't seem to make sense that you 
would dump sediment at the same time you are trying to control 
sediment.
    Mr. Luetkemeyer. Well, you are fining my farmers who live 
along this who inadvertently or unintentionally dump small 
amounts. They are getting fined for it, yet the Corps is 
dumping 548 million tons. I mean, that is thousands of acres of 
soil that could be in production. They were digging slews, 
chutes for fish and birds and whatever here that doesn't make 
any sense.
    Mr. White. Right. Well, I know that if we look at the 
Missouri River a long time ago, it used to meander back and 
forth on about a mile floodplain. And the amount of sediment it 
carries now because we kind of channelized it a bit is, like, I 
don't know, 75 percent less than it used to carry, and because 
of the levees and whatnot, we have actually stopped some of 
that meandering. So I know that the contention is that they are 
only putting in a fraction of the sediment that the river would 
have taken prior to manipulation, and the study will help us 
find out better answers to all of these.
    Mr. Luetkemeyer. Over the last several years, their 
intention was to stop the influx or the putting into the river 
the sediment, to lower the sediment that is in there, and now 
we are going the other direction, sir.
    Mr. White. Yes, sir, I understand.
    Mr. Luetkemeyer. I apologize for running over here, but I 
appreciate and look forward to your discussion on the side with 
my staff and myself.
    Mr. Chairman, thank you very much.
    The Chairman. We will recess and return right after the 
votes. There are three votes.
    [Recess.]
    The Chairman. The Subcommittee will reconvene.
    The chair recognizes the gentlewoman from Pennsylvania.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    Thank you, Mr. White and Mr. Coppess, for joining us today. 
I wanted to ask you a bit about the efficiencies that you are 
trying to improve, the streamlining initiatives that you have.
    I had a constituent from my district who had contacted my 
office, and he basically was concerned that there was a number 
of duplications that were occurring, duplications in paperwork 
with the FSA and NRCS, and finding it very tedious and 
sometimes unnecessary.
    And so, just what actions is the NRCS undertaking as part 
of your streamlining initiative to simplify conservation 
deliveries? If you would just give me some information on that, 
Mr. White, I would appreciate it.
    Mr. White. Yes, ma'am. Part of this initiative is to--well, 
one of the things that would really help your client is, next 
year, when we implement this client gateway. By the end of next 
year we should have a pilot out there, where a producer at home 
can apply on one form without leaving their house. The same 
form would be available in the office for people who don't have 
Internet connectivity.
    But it would just be one form. That person would be able to 
see their documents, their contracts, their plans, and all 
kinds of stuff like that. I think that would be a huge 
advantage. And we do have one form now for applying for all 
conservation programs. And if we can get that online, it would 
be even better.
    Mrs. Dahlkemper. So that will be online soon, or not?
    Mr. White. The projections are we will roll the pilot out 
toward the end of 2011. There has to be a lot of IT work done 
between now and then.
    Mrs. Dahlkemper. What are the barriers to that? Obviously, 
some IT issues?
    Mr. White. Yes, ma'am. It is a programming issue. I think 
we have adequate funding; we are trying to fund the effort. 
But, essentially, it is mostly the diversity--we have a lot of 
stand-alone software that are wonderful, but the first place 
they have been integrated is at the field office.
    I will give you a specific example. The WIN-PST program 
tells us how pesticides migrate through every soil. So we can 
tell if there is a problem with high groundwater or something 
like that. So I am working on your conservation plan in 
something called Tool Kit. And I see that you use glyphosate on 
a five percent loam. Well, I have to get out of Tool Kit, go 
into WIN-PST, find out how glyphosate moves through, get that 
information, go back into Tool Kit and put it in. And that is 
the kind of stuff that we have to make seamless.
    Mrs. Dahlkemper. They can't talk to each other, basically.
    Mr. White. Yes, the first place they are being integrated 
is at the field office, and they should be integrated up here. 
And that is what this effort will do.
    Mrs. Dahlkemper. Okay. Are there any other barriers that 
you see to provide a more effective and efficient delivery of 
conservation?
    Mr. White. Well, probably, the standard answer from any Fed 
worth his or her salt would be to say ``I need more,'' but I am 
not saying ``more.'' I think we can manage this. I think I have 
seen enough where, if we can get these efficiencies done, we 
will be able to do the job, ma'am.
    Mrs. Dahlkemper. Mr. Coppess, do you have anything to add 
regarding that?
    Mr. Coppess. Well, thank you. And some of what Chief White 
was explaining sounds familiar with just different terms and 
different computer problems, or different software link-up 
problems. That is a big part of it.
    Our system is antiquated. You know, your accounting office 
is basically an island in the IT system, and it has no way to 
connect across counties. And so, many producers that have land 
in two counties, including my family, has to go from county to 
county. And, oftentimes, in the offices, we have them printing 
off from one printer, to get off one system, to take it over 
and do a sign-up on another computer to use the other system. 
So these things have just been sitting for too long without 
that modernization and that upgrade.
    And then around all of that are these forms and processes. 
And farmers are very candid in their feedback about what they 
feel are too many forms, too many signatures, too many things 
they have to go through. And a lot of that is just built up 
over time and over changes in programs and new programs being 
added in and new requirements.
    And so, what we want to do, as we go through this 
modernization effort, we want to take the opportunity that, as 
we clean up or improve our IT system, that we clean up 
everything around it, that we actually simplify these processes 
and this system so that we are not trying to modernize 
something that doesn't make sense when it is on paper.
    So it is a big process. Obviously, we need to have that 
kind of linkage with NRCS, in what we do, with RMA, with other 
agencies. And that is part of what is driving the way we are 
putting all of this together as we go through the system.
    Mrs. Dahlkemper. All right. Well, I thank you both for that 
answer, and my time has expired.
    The Chairman. The chair thanks the gentlewoman and 
recognizes the gentleman from Kansas.
    Mr. Moran. Mr. Chairman, thank you.
    Chief White, thank you for your presence here today.
    Mr. Coppess, nice to see you once again. I don't know that 
I have any questions about the timing of the CRP sign-up, but 
maybe you will have something else to report in that regard.
    Chief White, I was particularly pleased to hear you say 
that you had sleepless nights after being questioned by Mr. 
Goodlatte. That is encouraging to me, that someone is paying 
attention to the issues that we raise, and one of those I 
raised with you last year in my office. I very much appreciate 
our conversation. It was about the Agricultural Water 
Enhancement Program, AWEP. And we talked about the statutory 
requirements of the law that would give priority to water 
quality issues.
    In the first round of AWEP applications, Kansas was shut 
out, in my opinion, in large part because the priority was not 
given by NRCS, as required by law. You indicated that that was 
going to be corrected. And I assume, as far as I know, that is 
the case. Is that true?
    Mr. White. Yes, sir. I think you received about three of 
them this time around.
    Mr. Moran. That is encouraging to hear. Thank you.
    Mr. White. More sleepless nights.
    Mr. Moran. Good.
    The second part of my question, though, relates to another 
topic that we talked about, and that is about conversion of 
agricultural land--irrigation agricultural land to dryland 
farming. And the statute says that NRCS approved conservation 
activity for, ``the conversion of agricultural land from 
irrigated farming to dryland farming.''
    I am not aware that NRCS has yet approved conservation 
activity to carry out that--mandate that language. Is that 
true, and is there something in the works?
    Mr. White. Mr. Moran, I think that some of the AWEPs that 
we approved this year may deal with that very issue. I will 
have to check and make double-darn sure.
    But beyond that, we also were able to send some extra EQIP 
funding out to the Ogallala. And I will just have to see how 
exactly they used it, but it was for the water conservation in 
that particular area. And I will have to follow up with 
specifically what that was, sir.
    Mr. Moran. Okay. I appreciate that very much and look 
forward to continuing this dialogue.
    And then let me ask a question about EQIP. One of the 
things that troubled me in Senate comments in regard to EQIP 
was that we can take money out of EQIP and use it for spending 
in other areas. That was part of the conversation that took 
place in the Senate Agriculture and Nutrition Committee.
    And I have done at least checking in Kansas, and, from what 
I can tell, EQIP funding is over-subscribed, meaning that there 
are more applications than funds available.
    And so my question is, is NRCS on track to utilize all EQIP 
funds allocated in the farm bill? And if that is not the case, 
is there a process by which you can reallocate funds not spent 
elsewhere to states like Kansas that have pending applications?
    Mr. White. Generally, every year we have a backlog of EQIP. 
And we are on track to use all the appropriated funds. As you 
know, what is authorized is not necessarily what is 
appropriated. There is that gap there. But, yes, sir, we are on 
track to use it.
    Mr. Moran. So the suggestion, at least by a Senator, that 
we can use EQIP funds to pay for food and nutrition programs 
because there are excess funds in EQIP, there are no excess 
funds, is that true?
    Mr. White. Not of the appropriated amounts.
    Mr. Moran. Thank you for your testimony. I think that is 
the conclusion of my questions.
    Thanks, Mr. Chairman.
    The Chairman. I thank the gentleman and recognize the 
gentleman from North Carolina.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, Chief White and Mr. Coppess, for being with us 
today.
    This question I am going to ask has been touched on by 
several of my colleagues, and if you all could add to this, I 
would appreciate it. We have talked about how--and understand 
that our farmers are great conservationists, stewards of the 
land. But yet, there is still a lot of regulatory pressure 
being put upon the agriculture community.
    How, in our conservation programs, are you able to help the 
ag community deal and cope with and respond to, in an effective 
way, these regulatory pressures that are continually coming to 
them?
    And, Chief White, if you can go first, please.
    Mr. White. Yes, sir. And I will try to be brief.
    We have an actual statutory stipulation in the 
Environmental Quality Incentives Program that says one of the 
purposes of EQIP is to help producers meet or avoid regulation. 
And I don't mean avoid like hiding; I mean avoid like, there is 
not a problem here for you guys to even regulate. So that is 
one of the driving factors.
    We have tried to work with regulatory agencies to that end, 
like the sage-grouse initiative in the West. The sage-grouse is 
on the candidate list which could be listed as endangered 
species. We want to avoid having that bird even listed because 
of the impact it could have on our ranchers out there.
    So we are working with the Fish and Wildlife Service, and 
we are kind of mirroring what Mr. Holden and Mr. Goodlatte have 
conceptualized in their bill, the concept of certainty. So if a 
rancher does A, B, C, and D that help the sage-grouse, that 
person will not have to worry if the sage-grouse becomes listed 
under the Endangered Species Act. We meet regularly with the ag 
groups and the conservation groups. We are working with the EPA 
and Fish and Wildlife and all the other bodies to try and find 
ways that we can effectively use the conservation practices to 
help producers with these regulatory requirements.
    In California, in Mr. Costa's area, the air quality is just 
huge for these producers. So there is a way that we can help, 
sir, and we are actively engaged in that.
    Mr. Kissell. Okay.
    And Mr. Coppess?
    Mr. Coppess. Sure, thank you.
    In much the same way that Chief White was mentioning, under 
CRP, particularly the continuous sign-up authorizations and 
capabilities that we have, we have tried to maintain some 
flexibility and to try to move those around and do some of the 
same or similar-type issues with both sage-grouse, lesser 
prairie chicken, in some of these areas where they are in a 
threatened situation or endangered situation.
    But we can help farmers then, using the continuous sign-up 
capabilities, to get that habitat in place, to use CRP 
continuous to then improve habitats so that they have less of a 
problem to worry about, from the regulation side of it.
    I think we have looked at a myriad of things on using 
filter strips and runoff and waterways and those sort of 
things, and how we can continue to be flexible and maintain 
that flexibility under continuous sign-up.
    Of course, the general sign-up, when we get to it, 
hopefully in the near future, also allows us to take into 
consideration under the Environmental Benefits Index how we 
best target the limited acres and funding that we have to help 
the producer with the various issues that they face.
    And so, we continue to use that flexibility, to use all of 
our authority to try and help producers out on the ground where 
they need it most in these areas. I think, as you do that, sort 
of, the ounce of prevention helps a lot further down the line 
instead of trying to correct problems after they have become a 
problem, to try to prevent them from becoming a problem.
    Mr. Kissell. Thank you.
    Chief White, you had mentioned earlier in your testimony 
about some great success stories of resource conservation, 
maybe Upper Mississippi Basin, things like this.
    Sort of real quickly, because my time is running out, how 
did those come about? And how are we taking those lessons to 
other places?
    Mr. White. A lot of it is just hard work over the years, 
from the 1940s, the 1950s, the 1960s, the 1970s, the 1980s. Our 
data for the Upper Mississippi show that, if it were not for 
conservation practices, sediment would be 70 percent worse in 
our rivers. Actually, the number is 69 percent, to be precise.
    But it is the terraces, the buffers, the waterways, the 
conservation tillage that the men and women who own and operate 
that land have put on to conserve the resources, not just for 
us today but for sustainability so our kids have the bounty we 
have today.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Idaho.
    Mr. Minnick. No questions.
    The Chairman. The gentleman passes.
    The gentleman from California?
    Mr. Costa. Thank you very much, Mr. Chairman.
    I want to, first of all, thank Chief White and the folks 
there with the efforts that have been made recently with the 
Natural Resources Conservation Service, not only with the 
European grapevine moth and the funding for additional 
detection, but the eradication in recent weeks is very 
important.
    In addition to that, we appreciate the continuing support 
on, as you noted, the air quality issues that are a tremendous 
problem. With over 300 crops growing in one of the most 
productive agricultural regions in the entire country, 
nonetheless we, as a closed-in air basin, have tremendous air 
quality issues we have to deal with. The Nisei Farmers League, 
the Grape and Tree Fruit League, and the California Table Grape 
Commission, as well as our local ag commissioners, appreciate 
the partnership in working together.
    I have a couple of questions I want to go in, as we delve 
into these issues, Chief White. You know the drought and the 
air quality issues have created tremendous strain on the 
agriculture economy in our valley. It is my understanding that, 
as it relates to air quality specifically, the number of 
qualified participants--well, I know this--clearly outweigh the 
availability of resources, that there are still 521 high-
priority applications that remain unfunded.
    Is there any way to get to that backlog in Fiscal Year 
2010?
    Mr. White. There is, in any fiscal year, give and take. You 
know, some states will say, ``We don't need this much.'' Other 
states like Kansas say, ``Good gracious, send it our way.'' So 
between now and September, we will be doing stuff like that, 
and it is quite possible we will be able to get more funding 
out there.
    I know that--help me with the number, but what we did out 
there last year was the equivalent of removing, like, 153,000 
cars from the road every year, just in the air quality effort.
    Mr. Costa. Yes. No, it was significant.
    Mr. White. And if we can do something like that again, what 
I am hearing is that that air quality board might not even have 
to write ag as a part of those regulations they do out there. I 
don't know if that is true or not.
    Mr. Costa. On those 521 remaining high-priority projects 
that are completed, do you have sense of how many Tier 0 
tractors and engines remain in the valley? Have your folks come 
back to you with any numbers?
    Mr. White. No. I know, at one time, it used to be, like, 
2,000. When they had that sign-up last year, people, like, 
lined up around the building. I know, at one time, there was 
2,000. And these 500, I assume, would be the highest ranked, 
which would have probably those Tier 0 or maybe Tier 1.
    Mr. Costa. I guess what we are concerned about is, if 521 
applications from Fiscal Year 2010 end up having to be rolled 
into Fiscal Year 2011, will there be any funds left in Fiscal 
Year 2011 available for those additional applications for Tier 
0 or Tier 1?
    Mr. White. Yes, sir. When you look at 2011, the farm bill 
stipulates that $37 million is to be used under the 
Conservation Innovation Grants, subsection B for air quality. 
That is, sort of, the minimum. So that would be disbursed. 
California gets the bulk of that because of the regulatory 
requirements. But then, above and beyond that, if there are 
other EQIP funds, they would be eligible for that, as well, if 
we can----
    Mr. Costa. And, as you know, we have provided state 
funding, as well, to support that.
    Mr. White. Yes. You have state funding out there, and the 
producers. That is 50 percent of it, as well.
    Mr. Costa. Right. And we have gone from PM<INF>10</INF> to 
PM<INF>2.5</INF>. And, I mean, we are doing a tremendous amount 
to deal with the issue.
    Some have argued the USDA should not be engaged in such 
programs to help farmers meet these regulatory standards. What 
do you think is the USDA's role in supporting farmers who are 
trying to comply with air quality regulations, whether they be 
in California or elsewhere?
    Mr. White. How we can provide them the technical assistance 
and the financial wherewithal to meet those requirements. And 
specifically in your area, aside from just the Tier 0 
replacement effort, I know they have those--oh, they are kind 
of like radar, they go on the back of a sprayer, that can read 
where a tree is and turn the sprayer on and off. That is, like, 
a 40 percent reduction in the volatile organic compounds can 
come from that technology alone.
    So, as we look at new technology, we have to make it 
available to the producers at the local level.
    Mr. Costa. Well, we are going to need your continued 
support. We appreciate that. You know, some of us believe that 
the current set of conservation programs are very helpful, but, 
frankly, we need to do more. And I hope you concur.
    Mr. White. Yes, sir.
    Mr. Costa. My time has expired, but thank you very much, 
Mr. Chairman.
    The Chairman. The chair thanks the gentleman.
    Mr. Costa. And we will continue to work with the 
Subcommittee and with both NRCS as well as FSA to help farmers 
throughout the country.
    The Chairman. The chair thanks the gentleman.
    The gentleman from Kansas, Mr. Moran, had a follow-up 
question.
    Mr. Moran. Mr. Chairman, thank you for extending me this 
opportunity.
    Just, Mr. Coppess, anything to add in regard to that CRP 
sign-up date? Has anything happened since we last visited?
    Mr. Coppess. No, unfortunately, I have no new news on the 
general sign-up for CRP. We are currently--the final EIS is 
out, and we are currently in that no-action period where we are 
taking comments on the EIS. And so, again, we will move it as 
quickly as we can once those processes are completed.
    Mr. Moran. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks our witnesses for their 
testimony and answers today.
    And we would like to welcome our second panel: Mr. Steve 
Robinson, President of the National Association of Conservation 
Districts; Mr. John Lohr, Vice President, National Association 
of FSA County Office Employees; Mr. Ron Leathers, Public 
Finance Director, Pheasants Forever and Quail Forever; Dr. 
Scott Manley, Director of Conservation Programs, Ducks 
Unlimited; Dr. Robert Burns, Assistant Dean for Agriculture, 
Natural Resources, and Rural Development, the University of 
Tennessee; Mr. Steve Dlugosz--I hope I am pronouncing that 
right, sir--Certified Crop Advisor, Lead Agronomist, Harvest 
Land Cooperative, on behalf of the International Certified Crop 
Advisor Program and the American Society of Agronomy; Mr. 
William Braford, consulting forester, Bluechip Forestry, 
Natural Bridge Station, Virginia.
    When everyone is seated and, Mr. Robinson, when you are 
ready, you may begin.

        STATEMENT OF STEVE ROBINSON, PRESIDENT, NATIONAL
    ASSOCIATION OF CONSERVATION DISTRICTS, WASHINGTON, D.C.

    Mr. Robinson. Thank you, Mr. Chairman.
    Good morning. I am Steve Robinson. I am a producer and 
President of the National Association of Conservation 
Districts. I own and operate a 900 acre grain, soybean, and 
wheat family farm in Marysville, Ohio. And I have served as the 
local district supervisor of the Union County Soil and Water 
District since 1988.
    I also manage Robinson Excavating, Inc., a family-owned 
excavation business, where we specialize in ponds, waterways, 
rock chutes, and many other conservation practices.
    I am pleased to be here today on behalf of NACD to discuss 
conservation program administration and delivery.
    As a producer, I have had the opportunity to utilize farm 
bill programs and assistance. Conservation practices on my farm 
include nine water and sediment control structures, three 
waterways, rock chutes, subsurface drainage, a wooded wetland, 
builder strips, the use of no-till and strip-till on corn. And, 
in addition to these conservation practices, I have 200 acres 
enrolled in the Conservation Reserve Enhancement Program.
    For many of the conservation activities on my land, such as 
the multiple water and sediment control basins I have installed 
throughout my farm, I have not received any financial 
assistance. However, the technical assistance provided by NRCS 
has provided me with the necessary information and tools to 
install these important conservation measures based on good 
science.
    As a contractor, I have seen firsthand how technical 
assistance helps landowners install conservation practices that 
reduce soil erosion and improve water quality. My work gives me 
the opportunity to see the results of technical assistance, 
from the conservation plan to the completed project on the 
ground. NACD's top priority is to encourage landowners to adopt 
conservation practices that provide countless public benefits 
such as clean air, clean water, healthy soils, and wildlife 
habitat.
    Technical assistance delivery is the most critical element 
to conservation program participation and conservation practice 
adoption. However, as I talk with conservation district 
officials across the country, the constant message is there is 
not enough technical assistance funding to meet landowners' 
needs and demands.
    Insufficient technical assistance is the main barrier to 
conservation practice adoption. While we recognize there has 
been an increased investment in conservation programs, this has 
come without an increase in staff needed to deliver additional 
assistance.
    For example, the Maryland Soil Conservation Districts have 
identified a shortfall of 96 staff needed to meet the increased 
workload resulting from the Chesapeake Bay TMDL. These 
positions are critical to the adoption and implementation of 
conservation efforts that will help achieve and improve water 
quality in the Chesapeake Bay watershed.
    District and NRCS professionals can help these producers 
implement best management practices and mitigate regulatory 
burdens. The bottom line is that we support full funding for 
NRCS to deliver farm bill conservation programs, and meet the 
growing demand and need for technical assistance in concert 
with conservation districts, TSPs, and other partners.
    In this rather complex environment, we should examine all 
potential improvements to effective, efficient conservation 
technical assistance delivery. We would like to see full 
accounting of staffing and technology needs required to fully 
implement farm bill conservation programs and accomplish our 
national and local conservation goals.
    We seek the most direct and efficient structure for 
conservation program delivery. For that reason, we support the 
current consolidated conservation delivery with NRCS, and we 
will measure all ideas by these standards.
    We at NACD have formed a Farm Bill Task Force to, in part, 
examine technical assistance requirements. And we will be 
taking a close look at the question of how to improve technical 
assistance delivery to farmers and ranchers. As you begin the 
work of writing the 2012 Farm Bill, we hope to closely work 
with your Committee to address this issue, and to ensure that 
there are appropriate funding mechanisms for technical 
assistance delivery.
    Conservation districts are uniquely positioned to work with 
the NRCS, TSP, and others to expand technical assistance 
capacity. As we broaden and strengthen the traditional 
conservation partnership, conservation districts are already 
leveraging Federal funding to accelerate conservation 
application on the ground.
    The general public expects clean air, clean water, healthy 
soils, and abundant wildlife habitat. As a nation, we need to 
be fully committed to provide the necessary tools and 
assistance to landowners to achieve these essential public 
goals. This investment, along with appropriate conservation 
incentives, will allow landowners to implement conservation 
strategies and make the necessary changes to the landscape to 
accomplish these vital goals.
    The bottom line is that producers need quality technical 
assistance to maximize the effectiveness of the financial 
assistance they receive. Even without financial help, many 
producers still rely on technical help to ensure that they are 
putting quality practices on the land. It is the combination of 
the two that makes America's conservation delivery system 
effective and efficient.
    Thank you, Mr. Chairman, for the opportunity to testify 
today on behalf of the conservation districts from around the 
country.
    [The prepared statement of Mr. Robinson follows:]

 Prepared Statement of Steve Robinson, President, National Association 
              of Conservation Districts, Washington, D.C.

    Good morning. I am Steve Robinson, a producer and President of the 
National Association of Conservation Districts. I own and operate a 900 
acre corn, soybean and wheat family farm in Marysville, Ohio, and have 
served as a district supervisor for the Union County Soil and Water 
Conservation District since 1988. I also manage Robinson Excavating, 
Inc., a family-owned excavation business specializing in ponds, 
waterways, rock chutes and wetlands. I am pleased to be here today on 
behalf of the National Association of Conservation Districts (NACD) to 
discuss conservation program administration and delivery.
    Across the United States, nearly 3,000 conservation districts are 
helping local people conserve land, water, forests, wildlife and 
related natural resources. We share a single mission: to coordinate 
assistance from all available sources--public and private, local, state 
and Federal--in an effort to develop locally-driven solutions to 
natural resource concerns. More than 17,000 officials serve in elected 
or appointed positions on conservation districts' governing boards. 
Working directly with more than 2.3 million cooperating land managers 
and local communities nationwide, our efforts touch more than 1.6 
billion acres of private land. We support voluntary, incentive-based 
programs that provide a range of options, providing both financial and 
technical assistance to guide landowners in the adoption of 
conservation practices, improving soil, air and water quality, 
providing habitat and enhanced land.
    Established under state law, conservation districts are local units 
of state government charged with carrying out programs to protect and 
manage natural resources at the local level. To assist in Federal 
conservation programs implementation, our members work with the U.S. 
Department of Agriculture's Natural Resources Conservation Service 
(NRCS) and the Farm Service Agency (FSA), as well as other Federal 
agencies and state and county programs.
    Among other things, conservation districts help:

  <bullet> implement farm conservation practices to keep soil and 
        nutrients in the fields;

  <bullet> conserve and restore wetlands, which purify water and 
        provide habitat for birds, fish and numerous other animals;

  <bullet> protect groundwater resources;

  <bullet> plant trees and other land cover to hold soil in place, 
        clean the air, provide cover for wildlife and beautify 
        neighborhoods;

  <bullet> assist local communities with stormwater management, 
        reducing runoff and keeping sediment out of streams and lakes;

  <bullet> help developers and homeowners manage their land in an 
        environmentally-sensitive manner; and

  <bullet> reach out to communities and schools to teach the value of 
        natural resources and encourage conservation efforts.

    As a producer, I have had the opportunity to utilize farm bill 
programs and assistance. Conservation practices on my farm include nine 
water and sediment control structures, three waterways with rock 
chutes, surface drainage, a wooded wetland, filter strips and use of 
no-tillage and strip tillage on corn. In addition to these conservation 
practices, I have 200 acres enrolled in the Conservation Reserve 
Enhancement Program (CREP).
    For many of the conservation activities on my land, such as the 
multiple Water and Sediment Control Basins I installed throughout my 
farm, I have not received any financial assistance. However, the 
technical assistance provided by NRCS has provided me with the 
necessary information and tools to install these important conservation 
measures based on good science.
    As an excavator, I have seen first-hand how technical assistance 
helps farmers install conservation practices that reduce soil erosion 
and improve water quality. My work gives me the opportunity to see the 
results of technical assistance from the conservation plan to the 
completed on-the-ground project.
    In many ways, farm bill conservation programs and policies help 
keep me on the farm. While I get some support from commodity programs, 
the conservation tools--both technical and financial--have helped me 
and other producers avoid regulation and allowed me to continue farming 
in an ever-changing environment.
    Technical assistance is the backbone of Federal conservation 
programs, enabling local NRCS field staff and districts to work with 
landowners and state and local agencies to address local resource 
concerns. Technical assistance is utilized to work with landowners on 
all elements of conservation plans, from design and layout to 
implementation. It is designed to help landowners understand the need 
for and benefits of conservation practices and to outline necessary 
steps or actions for farm bill conservation program participation. 
Technical assistance is also utilized for conservation practice 
evaluation and maintenance. Once a conservation system is established, 
it must be maintained to ensure continued benefits.
    Funding for technical assistance allows NRCS, conservation district 
employees and technical service providers (TSPs) to meet face-to-face 
with landowners on their operations, and help them design strategies to 
address specific resource needs. Through these discussions, a 
comprehensive conservation plan can be developed and financial 
assistance programs such as EQIP or other programs can be utilized to 
help meet the goals of the conservation plans. We are pleased to see a 
new emphasis by NRCS to streamline procedures, use newer technologies, 
and encourage more technical assistance delivered on the farm or ranch.
    NACD's top priority is to encourage landowners to adopt 
conservation practices that provide countless public benefits of clean 
air, clean water, healthy soils and wildlife habitat. We are pleased 
with the overall commitment provided for conservation programs in the 
2008 Farm Bill.
    Technical assistance delivery is the most critical element to 
conservation program participation and conservation practice adoption. 
However, as I talk with district officials across the country, the 
consistent message is that there is not enough technical assistance 
funding to meet landowners' needs and demands.
    For example, Maryland Soil Conservation Districts have identified a 
shortfall of 96 staff needed to meet the increased workload resulting 
from the Chesapeake Bay Total Maximum Daily Load (TMDL). These 
positions are critical to the adoption and implementation of 
conservation efforts that will help achieve improved water quality in 
the Chesapeake Bay watershed.
    Across the country, landowners are seeking information on how to 
best manage their land. Demand continues to increase for additional 
technical assistance to help interested landowners develop appropriate 
conservation plans and practices regardless of the size of the tract of 
land, land use type, or use of financial assistance. Many landowners 
are ineligible for conservation programs, while others find the 
application process complicated, time consuming, and sometimes 
prohibitive to participation. It is important to reach all lands in a 
watershed to achieve local and national goals for the area.
    Insufficient technical assistance is the main barrier to 
conservation practice adoption. While we recognize there has been an 
increased investment in conservation programs, this has come without a 
correlating increase in staff needed to deliver additional assistance. 
More technical dollars are needed as program funding increases. 
Increasing technical assistance is necessary to realize the full return 
on our conservation investment.
    In addition to more boots on the ground, paperwork burdens continue 
to be a concern. Improved efficiencies and asset allocation need to be 
achieved to allow technical personnel more time in the field. 
Streamlining applications, reducing paperwork requirements and 
increasing computer program compatibility could ease the burdens on 
field office staff while also benefiting producers during the 
application process.
    We support NRCS Chief White's conservation delivery streamlining 
initiative to reduce duplication of data entry, simplify conservation 
delivery, and streamline business processes to achieve greater 
efficiency and allow field staff to spend more time in the field with 
customers delivering conservation assistance.
    The bottom line is that we support full funding for NRCS to deliver 
farm bill conservation programs and meet the growing demand and need 
for technical assistance in concert with conservation districts, TSPs 
and other partners. In this rather complex environment, we should 
examine all potential improvements to effective, efficient conservation 
technical assistance delivery. We would like to see a full accounting 
of staffing and technology needs required to fully implement farm bill 
conservation provisions and accomplish our national and local 
conservation goals. We seek the most direct and efficient structure for 
conservation program delivery and for that reason we support the 
current structure of consolidated conservation delivery within NRCS. We 
will measure all ideas by these standards.
    NACD has formed a farm bill task force to in part examine technical 
assistance requirements and we will look closely at the question of how 
to improve technical assistance delivery to farmers and ranchers. As 
you begin the work of writing the 2012 Farm Bill, we hope to work 
closely with the Committee to address this issue and ensure that there 
is an appropriate funding mechanism for technical assistance delivery.
    Conservation districts are uniquely positioned to work with NRCS, 
TSPs and others to expand technical assistance capacity. As we broaden 
and strengthen the traditional conservation partnership, these local 
advocates are already leveraging Federal funding to accelerate 
conservation application on the ground.
    Conservation districts have technical staff capable of providing 
quality technical assistance and are well-equipped to receive and 
utilize any new Federal funds for technical assistance to assist local 
producers and program participants to put conservation practices on the 
landscape.
    Another growing issue as land continues to be fragmented and urban 
and suburban areas continue to encroach on rural lands is that of small 
acreage landowners. There is little to no technical assistance 
available for this quickly growing group. Small acreage landowners 
frequently are not eligible for Federal assistance programs, or rank 
low due to the scale of their operation. As consumers seek more 
locally-grown foods, it is imperative that these small acreage farmers 
receive conservation technical assistance to meet their natural 
resource concerns. Conservation districts have identified small acreage 
resource issues through their locally led conservation efforts, but 
assistance remains limited.
    With the growing threat of regulations, such as EPA's new pesticide 
permitting requirements under the Clean Water Act and the establishment 
of TMDLs in the Chesapeake Bay and other watersheds, private landowners 
will have an even tougher time navigating an already difficult maze of 
permits, regulations and bureaucracy. Landowners will be left with the 
enforcement and the financial burden of compliance without guidance or 
technology to do so.
    Technical assistance is an essential ingredient to help these 
landowners navigate through the complex maze of Federal bureaucracy. 
Because they are known and trusted by local farmers and ranchers, 
conservation districts are frequently the liaison between the landowner 
and Federal and state agencies. Districts and NRCS professionals can 
help these producers implement best management practices and mitigate 
regulatory burdens.
    The public expects clean air, clean water, healthy soils and 
abundant wildlife habitat. As a nation we need to be fully committed to 
providing the necessary tools and assistance to landowners to achieve 
these essential public goals. This investment--along with appropriate 
conservation incentives--will allow landowners to implement 
conservation strategies and make the necessary changes to the landscape 
to accomplish these vital goals.
    The technical assistance provided by NRCS field staff, along with 
the resources provided by conservation districts and state conservation 
agencies, is critical to the success of conservation in the United 
States. The bottom line is that producers need quality technical 
assistance to maximize the effectiveness of the financial assistance 
they receive. Even without financial help, many producers still rely on 
technical help to ensure that they are putting quality practices on the 
land. It is the combination of the two that makes America's 
conservation delivery system efficient and effective.
    Thank you for the opportunity to testify today on behalf of 
conservation districts across the country.

    The Chairman. Thank you, Mr. Robinson.
    Mr. Lohr, before you begin, what county in Pennsylvania is 
Norvelt located in?
    Mr. Lohr. That is Westmoreland County.
    The Chairman. Westmoreland County, okay. Okay, sir.

STATEMENT OF JOHN R. LOHR, VICE PRESIDENT, NATIONAL ASSOCIATION 
  OF FARM SERVICE AGENCY COUNTY OFFICE EMPLOYEES, NORVELT, PA

    Mr. Lohr. Mr. Chairman and Members of the Subcommittee, my 
name is John Lohr, and I appreciate the opportunity to testify 
before your Committee today.
    I have worked for the U.S. Department of Agriculture's Farm 
Service Agency and its predecessor, the Agricultural 
Stabilization and Conservation Service, for my entire adult 
life, beginning as a part-time ASCS field assistant after high 
school. Since 1978, I have been the FSA County Executive 
Director at the Greensburg, Pennsylvania, service center.
    I am here today representing NASCOE, the National 
Association of Farm Service Agency County Office Employees. 
Also, our national President, Myron Stroup of Kansas, is here, 
sitting behind me. NASCOE is the organization that represents 
all county-level employees of the Farm Service Agency, and we 
are here today because we believe that USDA can administer and 
deliver conservation programs in a more efficient and effective 
manner.
    Before the USDA reorganization in the mid-1990s, FSA's 
predecessor, the Agricultural Stabilization and Conservation 
Service, administered all USDA conservation programs. In fact, 
the root of the county committee system is centered on the 
administration of conservation programs created by the 
Agricultural Adjustment Act of 1938. Today, FSA staff and 
county committees are still responsible for the largest USDA 
conservation initiative, the Conservation Reserve Program.
    This morning, I will explain a few of the reasons why 
having FSA administer conservation programs makes sense for 
producers and ranchers, as well as the American taxpayer.
    With regard to program eligibility, both FSA and NRCS use 
the same forms. It is redundant to have both agencies gathering 
eligibility information. As for processing the application, FSA 
maintains all records pertaining to the farm or ranch. At 
present, either the producer or an NRCS employee makes numerous 
visits or inquiries to the FSA office to gather the data to 
complete a conservation application.
    FSA also has extensive experience issuing payments and has 
the software and training to make the payments in a timely 
manner. The availability of all producer and farm eligibility 
records in one location allows for faster and easier 
resolutions when payment problems occur.
    Since it is necessary for the NRCS staff to make frequent 
farm or ranch visits, their offices are unattended on many 
occasions. Each business day, every FSA office is continuously 
staffed to service all program applicants. Allowing the FSA to 
administer conservation programs would eliminate producer 
frustration when they make trips or initiate phone calls to 
NRCS only to find no staff in that office.
    Additionally, the success of the current Conservation 
Reserve Program demonstrates that NRCS and FSA can work 
together, with FSA handling program administration and with 
NRCS responsible for the technical aspects of the program.
    Our proposal allows USDA to do more work without additional 
resources. If FSA is responsible for conservation 
administration, NRCS staff will have more time to spend with 
farmers and ranchers, educating them about conservation 
programs and ensuring the programs work as Congress intended.
    Under the NASCOE proposal today, all phases of conservation 
programs defined as administrative, like applications, contract 
maintenance, and payments, would be the responsibility of FSA. 
NRCS would be responsible for all phases of conservation 
programs defined as technical, like conservation plan 
development, on-site determinations, and contract compliance.
    These assignments would allow each agency to utilize their 
abilities and resources in the most effective and productive 
manner. FSA has consistently been able to deliver programs with 
a low average administrative cost. FSA would bring the same 
level of delivery cost and efficiency to conservation program 
administration.
    Both FSA and NRCS are upgrading their technology and 
business processes, FSA through the Modernize and Innovate the 
Delivery of Agricultural Systems project, the MIDAS project, 
and NRCS through the Conservation Delivery Streamlining 
Initiative. Having FSA administer conservation programs would 
go a long way toward assisting NRCS in reaching these two 
streamlining goals: reducing field staff administrative 
workloads by 80 percent and enabling their field staff to spend 
75 percent of their time in the field providing assistance to 
farmers and ranchers. With these two technology and business 
upgrades under way, now is the time to make IT changes to 
enhance FSA's administrative and NRCS's technical capabilities.
    In summary, NASCOE supports FSA being responsible for all 
conservation program administration. We believe that allowing 
NRCS personnel more time for producer technical assistance and 
program education will ensure that Federal conservation 
programs will be more cost-effective and provide a better USDA 
service to our farmers and ranchers.
    Thank you very much for allowing me to testify today.
    [The prepared statement of Mr. Lohr follows:]

     Prepared Statement of John R. Lohr, Vice President, National 
Association of Farm Service Agency County Office Employees, Norvelt, PA

    Mr. Chairman and Members of the Subcommittee, my name is John Lohr, 
and I appreciate the opportunity to testify before your Committee 
today.
    I was born and raised on our family's dairy farm in Westmoreland 
County, Pennsylvania. I have worked for the U.S. Department of 
Agriculture's Farm Service Agency and its predecessor the Agricultural 
Stabilization and Conservation Service (ASCS) for my entire adult life, 
beginning as a part-time ASCS field assistant after high school in 
1968. Since 1978, I have been the Farm Service Agency County Executive 
Director in my home county and today also cover Fayette County from a 
consolidated office in Greensburg, Pennsylvania. I am here today 
representing the National Association of Farm Service Agency County 
Office Employees (NASCOE). I am pleased that our national President, 
Mr. Myron Stroup of Kansas, is also here today.
    The National Association of Farm Service Agency County Office 
Employees (NASCOE) is an organization that represents the county level 
employees of the Farm Service Agency of the United States Department of 
Agriculture (USDA). NASCOE was originally chartered in 1959. FSA 
employees are in contact with virtually every producer in the United 
States, and NASCOE is proud to represent all county office employees, 
85% of whom are association members.
    Mr. Chairman and Members of the Subcommittee, we are here today 
because we believe that the USDA can administer and deliver 
conservation programs in a more effective and efficient manner. With 
today's Federal budget situation, Federal employees will continue to be 
required to do more with less for the near future. Natural Resource and 
Conservation Service employees in the field serve American agriculture 
well, but what has become increasingly evident to Farm Service Agency 
(FSA) county office employees is that there are many workload 
duplications by FSA and NRCS field staff. NASCOE members at the field 
office level regularly relate to us that NRCS employees indicate they 
prefer to work at what they do best, the technical field work, and that 
FSA is better equipped and ready to handle conservation program 
administration.
    Please recall that before the USDA reorganization in the mid 
1990's, FSA's predecessor, the Agricultural Stabilization and 
Conservation Service (ASCS), administered all USDA's conservation 
programs. In fact, the root of the county committee system is centered 
on the administration of conservation programs created by the 
Agricultural Adjustment Act of 1938. Today FSA staff and locally 
elected county committees are still responsible for the largest USDA 
conservation initiatives, the Conservation Reserve Program and the 
Emergency Conservation Program.
    This morning I will explain just a few of the reasons why having 
FSA administer conservation programs makes sense for producers and 
ranchers as well as the American taxpayer.
    With regard to program eligibility, both FSA and NRCS use the same 
forms. It is redundant to have both agencies gather the eligibility 
information. FSA is required to load all the data and maintain the 
forms. FSA already keeps farm and producer eligibility records for both 
agencies. FSA field office personnel have experience and training in 
completing eligibility forms so it is more cost-effective for FSA to be 
the office to initiate the application and determine eligibility. In 
addition, it is much more efficient to have eligibility completed prior 
to the applicant's discussion with NRCS on the technical practice 
determinations.
    As for processing the application, FSA maintains all records 
pertaining to the farm or ranch. FSA county office staff creates and 
updates farm records, the Common Land Unit, acreage reports, etc. If 
FSA has the responsibility for conservation administration, producers 
would visit the FSA office to initiate the conservation program 
application and have access to their farm's data. At present, either 
the producer or an NRCS employee makes numerous visits and inquiries to 
the FSA county office to gather and/or update the data to complete the 
application. Allowing the FSA office to handle the application process 
would save time and eliminate confusion for both the producer and the 
office staff.
    FSA has extensive experience issuing payments and has the software 
training to make the payments in a timely manner. The availability of 
all eligibility, producer and farm records in one location allows for 
faster and easier resolutions when payment issuance problems arise.
    Since it is necessary for the NRCS staff to make frequent farm or 
ranch visits, their office is unattended on many occasions. Each 
business day, every FSA office is continuously staffed to serve program 
applicants. Allowing the FSA to administer conservation programs would 
eliminate frustration when producers make trips or initiate phone calls 
to the NRCS office only to find no one available to assist them.
    The Conservation Reserve Program (CRP) currently allows the FSA 
office to take the application, determine payment eligibility, generate 
and approve the contract, and make cost share and annual rental 
payments with NRCS making technical determinations. The success of the 
CRP demonstrates that NRCS and FSA can work well together with FSA 
handling the program administration and with NRCS responsible for the 
technical aspects of programs.
    Our proposal, Mr. Chairman and Members of the Subcommittee, allows 
USDA to do more work without additional resources. If FSA is 
responsible for conservation administration, NRCS staff will have more 
time to spend with farmers and ranchers educating them about 
conservation programs and assuring the programs work as Congress 
intended.
    Under the NASCOE proposal today, all phases of conservation 
programs defined as administrative, applications, contract maintenance, 
payments, etc., would be the responsibility of FSA. NRCS would be 
responsible for all phases of conservation programs defined as 
technical, i.e., conservation plan development, on-site determinations 
and contract compliance.
    These assignments allow each agency to utilize their abilities and 
resources in the most efficient and productive manner. FSA has 
consistently been able to deliver farm programs with a low average 
administrative cost. FSA would bring this same level of delivery cost 
and efficiency to conservation program administration.
    Both FSA and NRCS are in the process of upgrading their technology 
and business processes, FSA through the Modernize and Innovate the 
Delivery of Agricultural Systems (MIDAS) project and NRCS through the 
Conservation Delivery Streamlining Initiative. Having FSA administer 
conservation programs would go a long way towards assisting NRCS in 
reaching its Streamlining Initiative goals of reducing field staff 
administrative workloads by 80%. It would also enable their field staff 
to reach the goal of spending 75% of their time in the field providing 
conservation assistance to farmers and ranchers. NRCS has indicated 
concern with the administrative burden on field office technical staff 
from expanded roles for contract development and management. NRCS's 
Streamlining Initiative encourages a move to a ``natural resource 
centric view'' concentrating on identifying and solving resource 
problems and moving away from a ``financial assistance centric view.''
    The NRCS Streamlining Initiative highlighted as one of its top 
objectives the implementation of programs through alternative staffing 
and delivery approaches designed around more efficient business 
processes to minimize the non-technical workload on field staff.
    Now is the time to make the IT changes to enhance FSA's 
administrative and NRCS's technical capabilities. For example, FSA and 
NRCS use different GIS software programs, ArcGIS and Toolkit, 
respectively. This is not practical. It is extremely inefficient to 
develop and maintain two USDA systems to administer farm and 
conservation programs. We can no longer afford these inefficiencies.
    In summary, NASCOE supports FSA being responsible for all 
conservation program administration. We believe that allowing NRCS 
field personnel more time for producer technical assistance and program 
education will assure that Federal agricultural programs will be more 
cost efficient and provide a better USDA service to our farmers and 
ranchers. Finally, with our current budget situation, allowing FSA to 
administer these programs assures the American taxpayer that USDA is 
being the best steward possible with the funds we have been entrusted.
    Thank you for allowing me to present testimony today.

    The Chairman. Thank you, Mr. Lohr.
    Mr. Leathers?

 STATEMENT OF RON LEATHERS, PUBLIC FINANCE DIRECTOR, PHEASANTS 
                FOREVER, INC.; GOVERNMENT GRANTS
            COORDINATOR, QUAIL FOREVER, ST. PAUL, MN

    Mr. Leathers. Mr. Chairman, Members of the Subcommittee, 
thank you for the opportunity to come here and talk to you 
today. My name is Ron Leathers. I am the Public Finance 
Director for Pheasants Forever, and I am here representing the 
700 chapters and the 119,000 members of Pheasants and Quail 
Forever.
    We are here to talk about our Farm Bill Biologist Program. 
The Farm Bill Biologist Program is a unique partnership between 
the state fish and wildlife agencies, Pheasants Forever, and 
USDA that uses the third-party technical assistance provisions 
of the farm bill. And I would like to thank the Committee for 
that opportunity to work jointly to deliver technical 
assistance on the landscape.
    Pheasants Forever's program is incredibly efficient and 
effective. Using the power of partnerships, we are able to 
deliver conservation to landowners as efficiently and 
effectively as any program we have seen. Our State Fish and 
Wildlife agencies and Pheasants Forever are passionate about 
this opportunity. To deliver habitat is our mission and the 
state fish and wildlife agencies' mission. In fact, we are so 
efficient we are able to deliver $3 to $5 non-Federal dollars 
for every Federal dollar that is invested into this program.
    Our program started in 2003 in Representative Herseth 
Sandlin's State of South Dakota with four farm bill biologists. 
I was one of those farm bill biologists in 2003. At that time, 
the program was funded solely by South Dakota Game, Fish, and 
Parks and Pheasants Forever. In 2004, we were able to bring in 
a contribution agreement with NRCS to help fund additional 
bodies, and, in 2004, we expanded the program into Nebraska. 
Since that time, we have added 62 biologists in 11 states.
    New opportunities present themselves each week, and we look 
to take advantage of those opportunities. Mr. Chairman, as we 
spoke about earlier, we are looking to put some positions in 
Pennsylvania to help sell the Pennsylvania CREPs. And we were 
encouraged to hear that the amendments to the CREP program are 
moving forward.
    Our farm bill biologists work as an integrated component of 
the USDA field offices, specifically the NRCS field office, but 
they work with FSA staff, as well, to implement the CRP and the 
various programs FSA delivers.
    We are addressing landowner needs by holding landowner 
workshops to encourage landowner participation in programs, 
both generally, talking to the landowners that walk through the 
door, and in targeted specific landscape resource needs. Farm 
bill biologists have conducted landowner forums to help 
landowners understand the specific programs, and this will be a 
critical step as we move forward with the next general CRP 
sign-up. All of our farm biologists will hold these landowner 
forums to help landowners understand the program, to help 
landowners understand the EBI, and to help landowners deliver a 
competitive bid.
    Administratively, the process has been relatively 
straightforward, and I would like to thank the Committee and 
NRCS for putting this into place. Our administrative team 
tracks expenses, invoices the partners, and puts the positions 
in place. This relative straightforwardness has helped to keep 
our administrative costs low, and, again, we appreciate that 
for our partners.
    Before I wrap up, Mr. Chairman, I would like to ask for the 
Committee's assistance in continuing to provide CTA fund 
availability. Conservation technical assistance funds are what 
fund the contribution agreements that keep our bodies in the 
field offices working with the landowners. We have willing non-
Federal partners in several states, but limited CTA funds are 
limiting our program's ability to grow.
    Again, our partnership efforts result in incredible cost-
effectiveness, providing conservation technical assistance to 
our landowners. Our joint biologists are doing some outstanding 
conservation work, but the availability of CTA funds is 
limiting our capacity to expand the program.
    Mr. Chairman, thank you again for the opportunity to 
address the Committee and for your leadership in this area. I 
would be happy to address any questions the Committee has.
    [The prepared statement of Mr. Leathers follows:]

Prepared Statement of Ron Leathers, Public Finance Director,, Pheasants 
Forever, Inc.; Government Grants Coordinator, Quail Forever, St. Paul, 
                                   MN

    Mr. Chairman, Members of the Committee, my name is Ron Leathers. I 
am the Public Finance Director for Pheasants Forever and I reside in 
Blaine, MN. I am a professional wildlife biologist with expertise in 
wildlife and Farm Bill Conservation Program delivery. My primary 
responsibilities as Pheasants Forever's Public Finance Director are to 
oversee administration of funding partnerships with public entities and 
to develop organizational capacity for new partnership development.
    I am here today representing the 700 nationwide chapters of 
Pheasants and Quail Forever. These chapters complete on average more 
than 25,000 individual projects annually with conservation minded 
farmers and ranchers on 500,000 acres. The vast majority of these 
projects is completed on private lands and involves grassland 
establishment and management. Projects involve the establishment of 
nesting, brood rearing, and winter cover for pheasants, quail, and a 
wide array of wildlife.
    Collectively, our members and supporters represent a sizable cross-
section of our nations' citizenry, and we appreciate the increased role 
and importance of conservation in agriculture and its role in private 
land stewardship that has led to consensus and partnerships among 
government and private interests, including farm and commodity groups, 
individual farmers and ranchers, and hunters and anglers.
    It is our view that the conservation titles of recent farm bills 
represent the most comprehensive array of conservation programs ever 
enacted in conjunctions with Federal farm legislation and we recognize 
and appreciate the strong support from you Mr. Chairman and your 
Subcommittee in providing this authorization. I'd like to offer a few 
thoughts about Pheasants Forever's efforts to implement the 
conservation programs of the farm bill and to share some of the 
individual program success stories that we have benefited from.
Program Background
    Pheasants Forever's Farm Bill Biologist program began in 2003 with 
the placement of four wildlife biologists in Natural Resources 
Conservation Service county service centers throughout eastern South 
Dakota. At that time, the program was funded solely by South Dakota 
Game, Fish, and Parks. In 2004, South Dakota NRCS was able to direct 
funding toward the partnership using the conservation technical 
assistance provisions of the 2002 Farm Bill, resulting in the hiring of 
two additional Farm Bill Biologists.
    From its beginnings as a four employee, three-party partnership in 
South Dakota, the Farm Bill Biologist program has grown to its current 
level of 62 biologists in 11 states funded by 42 separate entities (see 
map below). Much of this growth has occurred in the past 2 years as PF 
began to recognize the overall value of this partnership to the 
organization's mission delivery and began to direct additional 
resources toward capacity and program infrastructure development. New 
partnership opportunities emerge weekly, and Pheasants Forever 
anticipates growth to continue at the current pace for the next 2-3 
years.

              Farm Bill Biologist Program Summary By State
------------------------------------------------------------------------
                                                   Total
                         Year       Number of    Producer/
       State          Implemented   Biologists   Landowner      Acres
                                                  Contacts
------------------------------------------------------------------------
      South Dakota           2003            7        9,659      458,021
          Nebraska           2004           15        7,486      641,226
         Minnesota           2004            5        4,802       21,407
              Ohio           2005            7        6,959      102,473
          Missouri           2005           --          348       29,360
         Wisconsin           2007            5        2,470       13,045
      North Dakota           2008            3          847       43,186
              Iowa           2009            5          170        3,752
          Illinois           2010            5
            Kansas   2010 (April)            5
          Colorado     2010 (May)            3
             Idaho    2010 (July)            2
                    ----------------------------------------------------
  Total............                         62       32,741    1,312,470
------------------------------------------------------------------------

                                                             <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                             
Nebraska Farm Bill Wildlife Biologist Program Summary
    The Nebraska Farm Bill Biologist partnership began in October 2004 
and has had a significant impact on Nebraska's natural resources since 
that time. The partnership is implemented with the Natural Resources 
Conservation Service, Nebraska Game & Parks Commission and Pheasants 
Forever, Inc. This partnership was formed with six Farm Bill Wildlife 
Biologists working with private landowners across the state to deliver 
conservation programs. Since 2004, the program has expanded to include 
nine biologists and is anticipated to grow by an additional five 
biologists by the end of 2010.
    From October 2004 to September 2009, the partnership impacted over 
290,123 acres. A key to the success of the partnership is the ability 
of the biologist to not only work with landowners to encourage 
enrollment in conservation programs, but to also guide landowners 
through every step in the contract enrollment, approval and completion 
process. In the partnership history, biologists have allocated their 
time spent delivering USDA conservation programs in the following 
breakdown:

  <bullet> Conservation Reserve Program (CRP) = 42.3%.

  <bullet> Wildlife Habitat Incentives Program (WHIP) = 24.1%.

  <bullet> Wetlands Reserve Program (WRP) = 16.9%.

  <bullet> Conservation Stewardship Program (CSP) = 9.5%.

  <bullet> Environmental Quality Incentives Program (EQIP) = 6.6%.

  <bullet> Grasslands Reserve Program (GRP) = 0.6%.

    The Farm Bill Biologist partnership may best be described as a 
`one-stop shopping' location for landowners to both learn about and 
enroll in conservation programs. The success of this partnership is 
indicated by many numbers and results, but perhaps the best indicator 
of success is the fact that landowners in the state typically have 
about a 2 month waiting period to be able to meet with a biologist. 
Another example of the partnerships' success is that its biologists are 
primarily responsible for the great successes experienced in fully 
allocating all the available Continuous CRP acres in the state for CP33 
and CP38. In fact, both programs have a substantial waiting list of 
landowners waiting for additional acres to be allocated to the state.
    In addition to these traditional activities, the Nebraska 
partnership biologists conduct many other activities that promote USDA 
conservation programs and their delivery. Some of those additional 
activities include:

  <bullet> Conducting 12 to 15 `Landowner Habitat Tours' across the 
        state each year. These tours to local sites allow landowners to 
        see firsthand the results and benefits of USDA conservation 
        programs on their neighbors lands.

  <bullet> Conducting eight to 12 landowner `Prescribed Burn Workshops' 
        across the state each year. These workshops help landowners 
        understand the value of prescribed burning and how to conduct a 
        safe and effective prescribed burn using USDA conservation 
        programs as a resource.

  <bullet> Formed six local `Prescribed Burn Associations' across the 
        state. A local prescribed burn association can best be 
        described as `neighbors helping neighbors' conduct burns in a 
        method that provides training, manpower and equipment.

  <bullet> Conducting ten to 15 `Landowner Conservation Program 
        Information Meetings' across the state each year. These forums 
        offer landowners the opportunities to learn how USDA 
        conservation programs can work in their farming and ranching 
        operation. These forums will become increasingly important and 
        increase in frequency when a general CRP sign-up is announced.
Minnesota Farm Bill Biologist Program
    In Minnesota, five FBB's are funded through state and local 
dollars. 70% state funding is leverage by 30% from a combination of 
local Soil and Water Conservation Districts, Pheasants Forever 
chapters, and other private groups including Lake Associations, 
Watershed Districts, and local Sportsmen's groups. The majority of work 
is preformed on the Continuous Conservation Reserve Program (CCRP), 
Wetlands Reserve Program, and MN's Reinvest in Minnesota (RIM) program. 
The lack of Federal funding is a limitation to further expansion of the 
MN program.
Wisconsin Farm Bill Biologist Program
    In Wisconsin, FBB's work in cooperation with the NRCS, U.S. Fish 
and Wildlife Service, FSA, and the Wisconsin Department of Natural 
Resources. Priority programs in WI include the Wetlands Reserve Program 
(WRP) as well as the Emergency Watershed Protection Program-Floodplain 
Easement (EWPP-FPE). Both of these programs are permanent conservation 
easements designed to restore and protect drained and degraded wetland 
habitats. In 2010, WRP funding supported 27 projects on 2,778 acres. Of 
the $9.5 million allocated to WI, $3 million was an additional request 
by the state due to strong landowner interest and backlog of 
applications.
Ohio Farm Bill Biologist Program
    In Ohio, FBB's assisted with the 2nd CRP--State Acres For wildlife 
Enhancement (SAFE) proposal, and have assisted with statewide USDA 
trainings/workshops. Staff assisted in changing statewide standards and 
specifications for CRP seed mixes to increase wildlife and pollinator 
diversity.
South Dakota Farm Bill Biologist Program
    Since 2003, South Dakota partners have increased the number of 
positions from four to seven located throughout eastern South Dakota. 
The Farm Bill Biologist in Moody County signed up the nation's first 
CRP State Acres For wildlife Enhancement (SAFE) contract and Pheasants 
Forever Farm Bill Biologists played a critical role in program 
promotion and sign-up for the SAFE program, enabling the state to fully 
expend its original allocation of SAFE acres within the first 2 weeks 
of the sign-up.
Illinois, Kansas, Colorado, and Idaho FBB Programs
    In each of these states FBB programs have been implemented in 2010. 
Staff will be working on FSA's Conservation Reserve Program and the 
entire suite of NRCS conservation programs. State wildlife agencies are 
valuable partners in many of the partnerships. It is expected that 
FBB's in these states will provide assistance to landowners 
participating in the upcoming CRP general sign-up. Conducting landowner 
forums to provide information on how to submit competitive bids for CRP 
will be a priority in all states FBB programs.
Program Administration
    Program implementation involves distinct management and 
administrative functions. Pheasants Forever's program implementation 
team includes a coordinator with responsibilities for partner 
coordination and new partner development, a manager with supervisory 
and mentoring responsibilities, and an administrative team with 
responsibility for project accounting, reporting, and HR.
    Farm Bill Biologist Program administration is provided by Pheasants 
Forever's Grant Department. The department is responsible for all 
centralized financial and accounting functions. Grant administrators 
track program payroll and monthly expenses, distribute expenses among 
various funding agreements, invoice partners, submit progress and 
financial reports, and conduct regular budgeting and cash flow 
analyses.
    Administrative Areas of Concern
          Administratively, implementation of the NRCS Contribution 
        Agreements is a relatively straight-forward process. Pheasants 
        Forever appreciates the efforts of the Committee and NRCS to 
        address concerns we have raised previously related to year-to-
        year program stability. We offer the following areas of concern 
        and ask the Committee and NRCS's assistance in addressing them.

                1. Increased Funding for Conservation Technical 
                Assistance

                  NRCS funding for Pheasants Forever's Farm Bill 
                Biologist program typically comes from either direct 
                program technical assistance funds, or general 
                conservation technical assistance funding. Both sources 
                are important to meeting the needs and desires of the 
                nation's agricultural producers.
                  Conservation technical assistance funding in 
                contribution agreements provides the Farm Bill 
                Biologist the opportunity to holistically evaluate the 
                resource needs and landowner desires for the property--
                independent of program availability. This initial 
                habitat planning process helps to ensure that the 
                biologist is addressing all resource needs instead of 
                focusing on those needs that can be efficiently 
                addressed by a single program.
                  Increased technical assistance funding provides not 
                only the opportunity to address the full suite of 
                resource needs for a specific property, but also helps 
                to provide the best value for the taxpayer. Pheasants 
                Forever's Farm Bill Biologist Program provides $3 to $5 
                in non-Federal funding for every $1 in Federal 
                investment.

                2. Cash-flow

                  At current staffing levels, the budget for Pheasants 
                Forever's Farm Bill Biologist program exceeds 
                $3,500,000 annually. Although the grant department is 
                extremely efficient at invoicing partners--invoices go 
                out within 15 days of receiving monthly expense 
                reports--Pheasants Forever carries in excess of 
                $100,000 in federally reimbursable expenses associated 
                with the program at any given time.
                  Cash flow has become a primary factor limiting 
                program growth. Without advance funding from partners, 
                the organization is unable to outlay the necessary cash 
                to meet payroll and monthly expense needs of the 
                program. For all new partnerships, Pheasants Forever 
                requires sufficient advances from partners to ensure 
                neutral cash flow. Two potential options that could be 
                explored to address the cash-flow concern for Federal 
                funds include:

                        <bullet> Provide a cash advance option in 
                        Contribution Agreements.
                          Allowing cash advances equal to the estimated 
                        expense for a 60 day
                          window would ensure neutral cash flow, 
                        reducing the burden on part-
                          ners and allowing continued program 
                        expansion.

                        <bullet> Provide for pre-contracted hourly 
                        rates in Contribution
                          Agreements. Providing an option for pre-
                        contracted billable rates in
                          Contribution Agreements would help expedite 
                        the invoice process and
                          reduce the Federal portion of out of pocket 
                        expense incurred by
                          Pheasants Forever.

                3. Allowability of administrative expenses

                  Pheasants Forever's annual direct program 
                implementation expenses exceed $300,000. All 
                implementation expense burden to date has been born by 
                non-Federal partners--much of this from the state fish 
                and wildlife agencies and Pheasants Forever chapters 
                who have supported not only the administrative expense 
                associated with their portion of the agreement, but the 
                administrative expense associated with the Federal 
                share as well. Allowability of administrative expenses 
                in NRCS contribution agreements has not been 
                sufficiently clarified and in the absence of clarity, 
                has been denied. However it is critical to the 
                program's stability that administrative expenses 
                associated with the Federal share of the program are 
                born by the Federal agreement.

    As Pheasants Forever pushes toward a decade of partnership on the 
Farm Bill Biologist Program we ask that the Committee and NRCS continue 
to pursue flexible opportunities to work with Pheasants Forever and all 
your non-Federal partners to maximize ``on the ground'' benefits of 
Farm Bill conservation programs in this cost-effective manner.
    Mr. Chairman, I would also like to take this opportunity to address 
two additional related and important issues. First, the final rules for 
the Conservation Reserve Programs have not yet been published. These 
rules are important to the overall implementation of the program and a 
necessity prior to the upcoming general sign-up. Final rules will 
implement many important changes from the 2008 Farm Bill including the 
updating of cropping history requirements for CRP eligibility. It is 
imperative that rules are published soon and that information 
concerning eligibility and the Environmental Benefits Index be made 
available in order to ensure an open and successful general sign-up. 
Secondly, we are still awaiting implementation of the ``Open Fields'' 
or voluntary public access provisions of the farm bill. In this case 
$50 million in funding is available for 2010-2012 and we are losing 
valuable time as we wait for rules to be published. Any assistance the 
Committee can provide in these areas would be much appreciated.
    Thank you for the opportunity to testify here today.

    The Chairman. Thank you.
    Dr. Manley?

        STATEMENT OF SCOTT W. MANLEY, Ph.D., DIRECTOR OF
  CONSERVATION PROGRAMS, DUCKS UNLIMITED, INC., RIDGELAND, MS

    Dr. Manley. Thank you all very much for having Ducks 
Unlimited at the table here today to talk about the 
conservation title of the farm bill. Just having a seat at this 
table is definitely very important to us, and we appreciate it 
very much.
    Ducks Unlimited thinks that the farm bill is really the 
most important piece of legislation in giving us a safe and 
abundant food supply in this country, for sustainable 
landscapes, and for agriculture and natural resources. It is 
one very important piece of legislation, to say the least.
    Ducks Unlimited is a not-for-profit wetlands and waterfowl 
conservation group. We span Canada, the U.S., and Mexico. We 
have over a million supporters across these three countries. I 
am one of a team of directors for Ducks Unlimited whose 
responsibility is to get our conservation programs delivered on 
the ground.
    I live in the South Jackson, Mississippi, and I primarily 
oversee those 15 states of the Southeast, so there may be a 
little southern flair to my comments here this morning.
    The most important thing really is that Ducks Unlimited 
thinks the current farm bill is actually very solid and 
successful, and we have talked about a lot of the challenges 
here today. I want to talk about some of the great things about 
this farm bill that we have today.
    I think it has a great balance between what we call working 
lands conservation and restoration of natural communities. It 
is just as much about working with the ag producers and 
livestock ranchers as it is about putting wetlands and 
grasslands back on the landscape.
    One of the great examples of a working lands program, of 
course, is EQIP. Ducks Unlimited is involved in water 
conservation practices with EQIP and rice farmers down in Texas 
and other parts of the country. And then another example is 
Ducks Unlimited's involvement in delivering the Wetland Reserve 
Program, which we did in a very large way leading up to the 
2008 Farm Bill.
    Again, the great thing about the farm bill today is it is a 
great balance between what we call, Farm the Best--Restore the 
Rest. It is very positive.
    The landscape initiatives that Chief White mentioned 
earlier, Ducks Unlimited also thinks they are extremely 
important, very effective. The Ag Water Enhancement Program, 
the Mississippi River Basin Initiative, these landscape 
initiatives are definitely targeted at resource concerns and 
landowner needs, and have been very effective as we move 
forward.
    Probably the thing that I think has been the most effective 
in moving the farm bill and conservation programs forward is 
really the state and local governance of programs. You know, 
each state and each locale within a state has different 
socioeconomic needs, different landscape issues. Every place is 
unique. And if you allow the states and the locales to mold or 
shape the rules of these programs to meet their issues and 
needs, that is much more effective than an umbrella of rules at 
a national level that just doesn't fit all cases and scenarios. 
So that state and local governance of programs is extremely 
important.
    Certainly, there are still challenges to the farm bill as 
we have it today. And we have heard it repeatedly within this 
group here, we have heard it repeatedly from the floor, that 
the technical assistance funds are not adequate to move all of 
the great programs forward. These are technical assistance 
funds that can be used for both the FSA and the NRCS and for 
partnerships like Mr. Leathers and I have talked about, 
partnerships where Ducks Unlimited or Pheasants Forever or 
other groups help you get your programs delivered. Diversifying 
this capacity through partnerships and through additional TA 
funds will be the answer to getting these great programs on the 
ground in the future.
    I would like to give you a quick proof of the power of 
partnerships. Up to the 2008 Farm Bill, there were 2 million 
acres of WRP, Wetland Reserve Program, delivered in the whole 
country. Half of that was delivered in the Southeast states. 
And in almost every state you had an NGO or you had a state 
conservation group that was partnering with the NRCS to get 
that done. That is over half of the WRP acres.
    The last thing is the very positive state and local 
governance of programs is also one of the biggest challenges. 
So I would like to see as much of the rules, regulations, 
specifications that go with the delivery of these programs to 
be left up to the states and locales, because that is where we 
can make these things work in the future.
    So, with that, I would like to close and just thank you for 
a seat at the table here today. And I will defer over to Dr. 
Burns. Thank you.
    [The prepared statement of Dr. Manley follows:]

Prepared Statement of Scott W. Manley, Ph.D., Director of Conservation 
             Programs, Ducks Unlimited, Inc., Ridgeland, MS

    Ducks Unlimited, Inc. (DU) is pleased to testify before the House 
Agriculture Committee on the successes of the ongoing Conservation 
Title of the Food, Conservation, and Energy Act 2008 (i.e., Farm Bill). 
We also appreciate the opportunity to provide general recommendations 
for improved conservation delivery in the upcoming 2012 Farm Bill. The 
farm bill is the most important legislation in assuring a safe and 
abundant food supply for citizens of the United States and for 
conserving our precious natural resources on which the strength of this 
country has been built. We commend Congress for its focus on ensuring 
the long-term strength and viability of this important legislation.
    Ducks Unlimited is a nonprofit wetlands and wildlife conservation 
organization with affiliates in both Canada and Mexico. I am one of a 
team of Conservation Directors for DU with responsibility of building 
and delivering on-the-ground programs to improve wildlife, water and 
soil resources. In particular, I work in our Southern Region, which 
covers 15 south-central states from Kansas to New Mexico east to the 
Atlantic Coast. Our region hosts some of the most productive lands in 
the United States for both agriculture and wildlife, including the 
Lower Mississippi Valley, Gulf Coastal Prairies, and the Southern Great 
Plains. It is in these fertile regions of the country that great 
examples of farm bill successes and challenges are demonstrated.
    Highlights of Success:

    1. Balance of Working Lands and Restored Natural Lands--The current 
        farm bill has what I believe to be a good balance in programs 
        that conserve wildlife, water, and soil resources on working 
        production lands and programs that restore natural communities 
        such as wetlands, grasslands, and forest. A prime example of a 
        working lands program would include the Environmental Quality 
        Incentives Program (EQIP) while an example of a restoration 
        program would be the Wetlands Reserve Program (WRP). Together, 
        these programs give landowners choices to address conservation 
        issues in light of what the land needs and in consideration of 
        what works in their agribusiness operations. Simply put, it 
        promotes DU's shared philosophy of ``Farm the Best--Restore the 
        Rest.''

    2. Landscape Initiatives--Other highlights of success from the 2008 
        Farm Bill are the various landscape initiatives to address 
        targeted resource concerns. Examples include the Agriculture 
        Water Enhancement Program which allows producer and 
        conservation groups to address aquifer depletion concerns 
        throughout the southern region. Another example is the 
        Mississippi River Basin Initiative (MRBI), encompassing the 
        floodplain throughout the Upper and Lower Mississippi Valley, 
        to address soil and nutrient loss leading to the hypoxia issue 
        in the Gulf of Mexico. DU will be working with several partners 
        to deliver an MRBI project in the Illinois River watershed this 
        coming year. This particular project will help restore and 
        enhance critical waterfowl and wildlife habitat while also 
        reducing nutrient runoff that would end up flowing into the 
        Gulf of Mexico.

    And as we are aware, given the current human and ecological tragedy 
        involving the Deepwater Horizon spill, the fragile ecosystems 
        of the Gulf Coast will need additional resources to protect and 
        restore these essential marshes, not just for the millions of 
        migratory birds and other wildlife that depend upon them for 
        their survival, but for the people and communities that depend 
        upon them for their own economic survival. DU, working with 
        partners like the NRCS and the National Fish and Wildlife 
        Foundation, are responding. Working with these partners, DU 
        will focus on restoring and enhancing upwards of 20,000 acres 
        of wetland habitat on lands adjacent to or near Gulf Coast 
        marshes, in particular the Chenier Plain of Southeast Texas and 
        Southwest Louisiana.

    These initiatives are invaluable in addressing specific resource 
        concerns that if left unchecked, would be devastating to 
        agricultural and wildlife resources, and also impact citizens 
        across the United States in the future.

    3. The level of future interest in WRP enrollment in several 
        regions of the country, particularly the Great Plains and 
        Intermountain West, will hinge on the ability of NRCS to 
        implement a WREP reserved rights program that most importantly 
        is supported by working ranchers. WREP represents an 
        outstanding opportunity to achieve wetland conservation through 
        partnerships between ranchers and the wildlife community. 
        Reserving the grazing rights to the landowner with a reduced 
        easement payment will be critical to protecting and restoring 
        areas critical to wetland dependent wildlife. We commend NRCS 
        for its efforts thus far in implementing this and look forward 
        to working with them to make WREP a success.

    4. State and Local Governance of Programs--In large part, the 
        various conservation programs in the 2008 Farm Bill are 
        governed and administered at the state and local levels. This 
        is critical to success, as resource needs, sociodemographics, 
        and economics of states and locales differ. These differences 
        can be an asset to programs given one has flexibility in 
        program implementation and administration. Conversely, the 
        differences can render a program ineffective with no 
        flexibility. A good example of success is the current state 
        governance over the appraisal process of easements values in 
        WRP. Each state is given latitude to develop values with 
        various appraisal techniques and offer easement purchases at 
        various prices across a state. This is great progress compared 
        to past practices of individual and complicated appraisals on 
        an easement by easement basis and has in part contributed to 
        the resurgence of this popular conservation program. Another 
        example of success is EQIP, where the various locales within a 
        state are responsible for developing practices that address 
        resource concerns, and applying those practices to conserve 
        natural resources.

    Challenges to Address:

    1. Capacities to Deliver--There are challenges remaining that if 
        addressed in the 2012 Farm Bill, would set the stage for this 
        country to make unprecedented strides in agricultural 
        conservation. One of the most important challenges is lack of 
        capacity to deliver conservation practices and programs on the 
        land. Overall, the actual conservation programs have ample 
        funding for practices (what we call Financial Assistance), but 
        do not have ample funding to administer and apply the practices 
        on the ground (Technical Assistance). This FA:TA balance is not 
        sufficient to help the people help their land. This is 
        evidenced by backlogs of conservation program applications and 
        unobligated FA funds at the end of the Federal fiscal year. We 
        believe a balance in funding must be restored.

    2. Diversifying Capacity to Deliver--Once a balance is restored, 
        one must diversify sources of increased capacity. Certainly 
        adding staff within various USDA offices (e.g., Natural 
        Resources Conservation Service) is needed. But also, bringing 
        various conservation partners into the mix, including DU and 
        others, adds capacity and diversity. Partnerships and partner 
        organizations need the same technical assistance funding as do 
        our various agencies, as at the end of the day even a not-for-
        profit must break even and be a not-for-loss. These partnership 
        organizations have the knowledge, skills, abilities, 
        experience, positive attitude, and landowner/producer trust to 
        make farm bill programs a success. Providing the avenues and 
        funding to diversify capacity to deliver programs is crucial to 
        helping people help the land.

    3. Benefits of Partnerships--The following example demonstrates the 
        need to form conservation partnerships to deliver farm bill 
        programs. Through 2008 just over 2 million acres of wetlands 
        were protected and restored across the United States under WRP. 
        Just over half (1.1 M acres) were within the 15 states of DU's 
        Southern Region. Partnerships, either with Ducks Unlimited or 
        the state conservation agencies (e.g., Missouri), were present 
        in nearly every one of those 15 states. The states with 
        partnerships accounted for a significant portion (1.0 M acres) 
        of accomplishments leading to the 2008 Farm Bill. Capacity and 
        progress afforded by conservation partnerships cannot be 
        underestimated.

    4. Administrative Flexibility--Beyond limitations imposed by 
        capacity to deliver, the other main challenge to success is the 
        need for more administrative flexibility within states and 
        locales. The very thing that has led to program success (state 
        and local governance) can still at times be limiting. Examples 
        include state's preclusions on rulings regarding WRP 7 year 
        ownership rule and Conservation Reserve Program county caps 
        blocking enrollments. We believe that to all degrees possible, 
        the states should be able to assess resource needs, 
        sociodemographics, and economics and make decisions to foster 
        success of programs. In the end, we must position ourselves and 
        our programs for conservation success.

    On behalf of Ducks Unlimited, I want to thank you all for the 
opportunity to address the successes of the 2008 Farm Bill and provide 
general recommendations for improved conservation delivery in the 
future. We are truly committed to conservation of wildlife, water, and 
other natural resources, and believe in the motto--``Farm the Best--
Restore the Rest.'' The farm bill is the most important legislation in 
assuring a safe and abundant food supply for citizens of the United 
States and for conserving our precious natural resources--especially 
the land that is the very foundation of both agricultural and wildlife 
productivity--on which the strength of this country has been built. We 
commend Congress for its focus on ensuring the long-term strength and 
viability of this important Act.

    The Chairman. All right. Thank you.
    Dr. Burns?

  STATEMENT OF ROBERT T. BURNS, Ph.D., P.E., ASSISTANT DEAN, 
               AGRICULTURE, NATURAL RESOURCES AND
   RESOURCE DEVELOPMENT & PROFESSOR, UNIVERSITY OF TENNESSEE 
                    EXTENSION, KNOXVILLE, TN

    Dr. Burns. Thank you for the opportunity to be part of the 
discussion today.
    For the past 7 years, I have led a national program that 
certified technical service providers in the comprehensive 
nutrient management area. So my comments today will really be 
focused on opportunities we have to improve the efficiency of 
program delivery using TSPs.
    I would like to start by noting that I think NRCS should be 
commended for their excellent work with conservation 
programming. It is of critical importance.
    Two points that I would like to bring up today, though, are 
the need for increased policy consistency by NRCS at the 
Federal, state, and local levels in regard to TSP programming, 
and, second, there is a need for increased follow-up of actual 
plan implementation after the planning stage. And this is 
especially true with technical service providers.
    One of the suggestions that I would make is that NRCS 
should implement a national certification policy review 
committee that reviews deviations from the national policy by 
state NRCS offices. The current farm bill indicates that NRCS 
should establish a national certification policy in regards to 
qualifying third-party TSPs. But, in practice--there is such a 
national policy, but, in reality, it is not enforced at the 
state NRCS level. Many state NRCS offices have established 
either different or additional certification criteria that do 
not follow the national policy.
    In the years that I ran the national certification program, 
we made an effort to track these states that varied and 
differed and didn't recognize the national certifications. In 
May of this year, I came up with a list of a dozen such states 
that deviate from the national policy.
    Of even greater concern is the fact that NRCS, at the 
national level, has not historically tracked or approved any of 
these deviations that are occurring. So what is going on at the 
state level is really unknown at the national TSP level. In 
fact, the national TSP coordinator would call our program and 
ask us if we knew what was going on in some of these states.
    As you can imagine, as a TSP, this is very frustrating 
because you gain a national certification and then find it is 
not national in nature. So, specifically, I think NRCS should 
implement its current national TSP certification policy and 
effectively ensure that state NRCS offices comply. In addition, 
this national TSP certification policy review committee I 
believe that should be established tracks the state NRCS TSP 
policy in a timely manner, and either approves or disapproves 
these deviations.
    Second, I would like to suggest that TSP qualification 
requirements should be streamlined to reduce the time burden 
required of TSPs to gain and maintain certification.
    Because of these inconsistencies in policy, TSPs face 
different criteria in many different situations. They face an 
ever-changing set of certification requirements to remain 
qualified to receive USDA funds for their efforts. In many 
cases, TSPs are required to meet redundant qualification 
requirements and training in different states, many times 
states in the same region, to work within each of those states.
    This current lack of NRCS policy oversight at the national 
level in regards to TSP certification at the state level 
results in different offices developing different policies for 
the same programs. It has resulted in many qualified third-
party consultants electing to either not serve as TSPs, or 
electing to stop maintaining their TSP certification as the 
certification requirements become too burdensome. Again, I 
think a national review committee to look at this and try to 
streamline these could be very helpful.
    Third, I believe that clear and specific standards for 
conservation programming and technical assistance should be 
established to ensure similar-quality deliverables are being 
provided by NRCS employees and TSPs. Specifically, when working 
with comprehensive nutrient management planning and preparation 
across the U.S., it has become very apparent to me that the 
quality of CNMPs being prepared by both NRCS employees and 
third-party TSPs vary considerably. While there is a large 
variation in the quality of the plans being done by both NRCS 
and TSPs, it is my experience that generally the quality of the 
CNMPs prepared by TSPs are higher than those that are prepared 
by NRCS employees.
    The current national NRCS CNMP guidance is essentially a 
listing of components that should be included in the CNMP with 
no specific guidance on how they should be prepared. So, at the 
national level, NRCS should establish clear and specific 
conservation program assistance examples to meet the minimum 
quality requirements across the nation, so that people can see 
what that is and we can meet that quality requirement 
regardless of where we are.
    And, finally, to close, I would like to comment about 
improved follow-up and assistance with conservation planning 
implementation. Conservation planning is just that; it is 
planning. To implement those plans, we have to go back with 
follow-up. NRCS does a good job of that, in my opinion, because 
they are there on the ground in the counties. The technical 
service provider system, however, provides no funds for those 
consultants to do follow-up. And so, many times, without those 
funds, the follow-up may or may not happen. And it is very 
necessary, because if the plan is not applied, then we have not 
made any positive benefit from a conservation standpoint.
    Thank you for your time.
    [The prepared statement of Dr. Burns follows:]

  Prepared Statement of Robert T. Burns, Ph.D., P.E., Assistant Dean,
 Agriculture, Natural Resources and Resource Development & Professor, 
        University of Tennessee Extension Service, Knoxville, TN

Comments on USDA-NRCS Technical Assistance Delivery to U.S. Farmers
Overview of NRCS Conservation Program Technical Assistance Delivery
    The conservation program technical assistance provided by USDA-NRCS 
to U.S. farmers has been and continues to be of critical importance to 
protecting the United States' soil, water, air, plant and wildlife 
resources. In addition, the assistance provided by USDA-NRCS has played 
a critical role in helping U.S. farming remain economically viable 
while increasing environmental sustainability. The Natural Resources 
Conservation Service (NRCS) should be commended for their excellent 
work in delivering conservation programming to U.S. farmers both past 
and present.
    For most of its history, the NRCS has primarily depended on NRCS 
employees (with some assistance from state and county Resource 
Conservation & Development organizations) to deliver conservation 
program delivery to farmers. Beginning around 2000, the NRCS 
implemented a new approach that began the use of third party technical 
service providers (TSPs) to also provide conservation program delivery 
to farmers. Under the current program structure, farmers can elect to 
receive conservation program technical assistance from either 
Conservation District (county level) NRCS employees or independent 
TSPs.
    The third party TSP program has been operational for a decade now. 
In many ways it has been successful, but it has also faced many 
challenges, some of which continue to limit the effectiveness of the 
program. I have been involved in assisting NRCS with Conservation 
Program technical assistance delivery for the past decade. Specifically 
I have worked with NRCS on Comprehensive Nutrient Management Planning 
(CNMP) delivery. I have led state and national programs that certified 
third party TSPs for USDA in the CNMP area, as well as provided CNMP 
training to NRCS employees.
    While I commend NRCS on their excellent work regarding CNMP 
implementation, and other conservation programs, I respectfully offer 
the following observations and suggestions that I believe could be of 
assistance in further improving the effectiveness of USDA-NRCS 
conservation program delivery.
Suggestions for Improved Delivery of Conservation Programming Technical 
        Assistance
Increased Consistency Needed Between NRCS Policy at the National, State 
        and County Levels
    The current interpretation and implementation of NRCS conservation 
program delivery could be improved by reducing NRCS policy 
inconsistencies at the national, state and county levels. Because of 
these existing policy inconsistencies, third party TSPs encounter 
different certification and qualification requirements in different 
areas, the standards and format of conservation programming 
deliverables varies by location, and the type and quality of assistance 
that farmers receive is highly variable by location.
NRCS Should Implement a National Certification Policy Review Committee 
        That Reviews Deviations from the National Policy by State NRCS 
        Offices
    The current farm bill indicates that NRCS should establish a 
national certification policy in regards to qualifying third party TSPs 
to be eligible to receive USDA funds for providing conservation 
practice technical assistance. While a national certification policy 
does exist, in reality it is not enforced at the state NRCS office 
level. Many state NRCS offices have established either different or 
additional certification criteria that do not follow the national 
policy. The result is that TSPs must follow the state NRCS policies if 
they wish to work in these states. The number of state NRCS office that 
have developed policies that do not comply with the national policy has 
increased over the past few years. From 2003 to 2010, I led a TSP CNMP 
Certification program that was recognized as meeting the national USDA 
CNMP certification requirements under a Memorandum of Understanding 
(MOU) with NRCS. As a service to TSPs, my team tracked states where the 
state NRCS policy was in conflict with the national NRCS policy. Over 
the past few years, the number of states that do not follow the 
national NRCS policy has continued to increase. By 2009, a dozen states 
did not follow the national NRCS CNMP certification policy. Of a 
greater concern, is the fact that NRCS at the national level does not 
track or approve the deviations from national policy that are occurring 
at the state level. In October, 2009 the USDA-NRCS developed new TSP 
Certification requirements for the CNMP areas that are documented 
within NRCS's ``General Manual Title 190 Part 405.11''. These new 
requirements replaced the ``General Manual Title 180 Part 490.10'' 
requirements. The new NRCS Title 190 Part 405.11 policy states that 
``in addition to the general requirements, the State Conservationist 
will establish certification requirements specific to elements of a 
CNMP.'' I believe that the wording in the new Title 190 Part 405.11 
policy could result in even more state NRCS offices developing policies 
in conflict with the national NRCS certification policy.
    The lack of adherence to the national NRCS policy by at least a 
dozen state NRCS offices, coupled with a new policy that provide the 
state NRCS offices more latitude in deviating from the national NRCS 
CNMP certification policy (without any tracking or approval at the 
national level) makes it unrealistic for any third party group to offer 
a workable national TSP certification program for TSPs at this time.

    The NRCS should implement its current national TSP certification 
policy and effectively ensure that state NRCS offices comply. In 
addition, a national TSP Certification Policy Review Committee should 
be established that tracks state NRCS TSP policy, and in a timely 
manner reviews and either approves or disapproves any deviations from 
the national policy requested by state NRCS offices.
TSP Qualification Requirements Should be Streamlined to Reduce the Time 
        Burden Required of TSPs to Gain and Maintain Certification
    Due to the lack of uniformly implemented national TSP certification 
requirements, and a lack of oversight of state NRCS TSP certification 
and qualification requirements at the national NRCS level, TSPs 
currently face an ever changing set of certification requirements to 
remain qualified to receive USDA funds for their efforts. In many 
cases, TSPs are required to meet redundant qualification requirements 
and trainings in different states (many times states within the same 
region) to work in each state. The current lack of meaningful state 
NRCS policy oversight by NRCS at the national level in regards to TSP 
certification results in each state NRCS office developing independent 
(and many times duplicative) requirements. The current environment is 
one where state NRCS offices continue to add new requirements such that 
qualified and certified TSPs must continually spend unrealistic amounts 
of time and money to maintain the ability to serve as TSPs. This has 
resulted in many qualified third-party consultants electing to either 
not serve as a TSPs, or electing to stop maintenance of their TSP 
certification as the certification requirements become too burdensome.
    In addition, the current NRCS certification policies assume that 
all TSPs have equal skill and experience and the current system 
requires that all TSPs complete all certification steps regardless of 
experience. A more flexible certification policy that allowed TSPs with 
higher experience levels decreased requirements would help streamline 
the TSP certification process without sacrificing the quality of 
deliverables.

    A national NRCS TSP Certification Policy Review Committee should be 
established that is charged with reviewing both national and state NRCS 
TSP certification policy, with the goal of reducing unnecessary or 
duplicative TSP certification requirements.
Clear and Specific Standards for Conservation Programming Technical 
        Assistance Should be Established to Ensure Similar Quality 
        Deliverables are being Provided by NRCS Employees and TSPs
    In working with CNMP preparation across the United States, it has 
become very apparent to me that the quality of CNMPs being prepared by 
both NRCS employees and third party TSPs vary considerably. While there 
is a large variation in the quality of plans being prepared by 
different NRCS employees and different TSPs, it is my experience that 
generally the quality of CNMPs prepared by TSPs is higher than that of 
CNMPs being prepared by NRCS employees.
    The current national NRCS CNMP guidance is essentially a listing of 
the components that should be included in a CNMP, with no specific 
guidance on how these components should be prepared. While it is true 
that every state is unique, the basic components that should be 
included in a CNMP are national in nature. All farmers, regardless of 
location, deserve to be provided the highest quality conservation 
program technical assistance that can be provided by USDA. This is true 
whether the assistance is provided by NRCS employees or third party 
TSPs.

    The national level NRCS should establish clear and specific 
conservation program assistance examples that meet the minimum quality 
requirements across the nation. Specifically, meaningful example CNMPs 
should be established for beef, dairy, swine, layer and broiler 
enterprises that establish minimum content and quality levels.
Improved Follow-up and Assistance with Conservation Planning 
        Implementation
    Technical assistance with conservation programs, whether provided 
by NRCS employees or third party TSPs, is planning assistance. Many 
times there is a disconnect between preparing the plan and implementing 
the plan at the farm level that is never bridged. In my opinion this is 
a larger issue for conservation planning assistance provided by TSPs 
for the simple reason that no funds are currently provided to TSPs for 
continued plan follow-up.
Funds Should be Made Available to Cover the Cost of Follow-up by TSPs 
        to Assist Producers With Planned Conservation Programming 
        Implementation
    Conservation planning assistance that is not implemented, or not 
implemented correctly fails to provide the planned conservation 
benefits. In many cases TSPs develop plans that are not implemented at 
all, or not implemented as planned on the farm. Continued interaction 
and follow-up by the plan provider and the farmer increases the 
probability that conservation planning assistance will be implemented 
in an effective and timely manner. Currently TSPs are not provided with 
funds to complete meaningful post planning follow-up regarding plan 
implementation.

    Funds should be made available to cover the cost of providing 
extended follow-up assistance with conservation planning implementation 
to farmers who have received conservation planning technical 
assistance.

    The Chairman. Thank you.
    Mr. Dlugosz?

  STATEMENT OF STEVE DLUGOSZ, CERTIFIED CROP ADVISOR AND LEAD 
   AGRONOMIST, HARVEST LAND CO-OP, MADISON, WI; ON BEHALF OF 
                  INTERNATIONAL CERTIFIED CROP
            ADVISER PROGRAM; AND AMERICAN SOCIETY OF
                            AGRONOMY

    Mr. Dlugosz. Good afternoon. My name is Steve Dlugosz. I am 
a Certified Crop Advisor from Indiana, and it is a pleasure 
being here. I represent the Certified Crop Advisor Program and 
the American Society of Agronomy.
    I think it is kind of providential I am following Dr. Burns 
here. Many of my comments will be of a similar thread as I go 
through my testimony.
    Currently, there are approximately 13,000 certified crop 
advisors in the United States and Canada, with new programs 
actually beginning in India and Argentina. The qualifications 
required to become certified includes two comprehensive exams, 
education, experience, and signing a code of ethics. We 
maintain our certification through continuing education hours, 
of which we require 40 over 2 years.
    CCAs are committed to working with their grower customers 
in adopting best management practices that are both 
economically and environmentally sound. The CCA is considered a 
business partner with the grower. Both of us have a lot to gain 
and a lot to lose, depending on how the recommendations are 
made.
    CCAs are currently recognized by NRCS as technical service 
providers in nutrient management, pest management, and tillage 
practices. CCAs are also recognized by the Risk Management 
Agency as agricultural experts related to crop insurance 
claims.
    I actually represent a large percentage of the current TSPs 
that are practicing, and an even larger pool of potential TSPs 
for somewhere down the road.
    I would like to share with you two areas of concern that we 
have expressed by CCAs who are currently TSPs: number one, the 
ability and knowledge of the county-based staff as it relates 
to production agriculture; and, number two, the inconsistency 
of paperwork and requirements between states and counties.
    Bottom line, the relationship at the county level between 
CCAs and that local NRCS staff is critical to the success of 
the TSP program. Unfortunately, there is a wide disparity 
between some county offices. Some DCs are very receptive to the 
concept and work closely with their CCA to implement the 
program. In those counties, more nutrient management plans were 
adopted and implemented.
    In one example, it went as far as the DC actually asking 
the CCA to help promote and sell the program to other growers. 
As a result, they had more plans, and all of the participating 
farmers have EQIP contracts. Unfortunately, in the neighboring 
county, the exact opposite was true.
    We always know there will be a degree of difference between 
individuals and how they perform their job functions, but the 
degree of difference that exists today is far too wide to be 
effective.
    We would like to propose a two-part solution. First, to 
improve the ability of local NRCS staff at the county level and 
gain consistency between states and counties, NRCS should 
require that all agronomy-focused staff become certified crop 
advisors or certified professional agronomists. NRCS already 
requires professional certification or licensing for engineers, 
land surveyors, and other professional staff, so this would be 
very consistent to include the current agronomy staff. We 
believe it would help to improve the overall performance and 
delivery of conservation practices.
    The second part of the solution would be to allow county-
based personnel to cross county lines, so if you have someone 
who is very motivated and highly active in this area, they 
could move freely between counties and get those programs 
going. Currently, we are limited to where we live and where we 
work.
    The other area I mentioned was the inconsistency of 
paperwork requirements. There appears to be a gap between 
paperwork required between states and even between counties 
within states, as reported by many of our CCAs who are TSPs. A 
potential solution would be to standardize the paperwork across 
county and state lines. We would suggest bringing together a 
group of CCAs who have experience being a TSP, bringing 
together some NRCS personnel who also have experience in TSP, 
and let them work together to design a standard set of 
documents and forms. It would save time and money in the long 
term.
    In summary, the relationship between the CCA and county 
NRCS staff is very critical to the successful delivery of 
conservation practices on the ground. CCAs have a longstanding 
and trusted business relationship with the farmer. CCAs know 
and understand crop production practices. There is a great 
potential to expand conservation through this partnership 
approach, and ASA and ICCA are willing and able to be partners 
with USDA to do so.
    We appreciate the time to speak today. Thank you.
    [The prepared statement of Mr. Dlugosz follows:]

 Prepared Statement of Steve Dlugosz, Certified Crop Adviser and Lead 
Agronomist, Harvest Land Co-op, Madison, WI; on Behalf of International 
    Certified Crop Adviser Program; and American Society of Agronomy

    The International Certified Crop Adviser (ICCA) Program is a 
voluntary professional certification program of the American Society of 
Agronomy (ASA). Of the many individuals starting the certification 
process, only 62% are successful and become Certified Crop Advisers. 
Currently there are approximately 13,000 Certified Crop Advisers (CCAs) 
throughout the United States and Canada, with new programs beginning in 
India and Argentina.
    A CCA provides both agronomic advice and information as well as, in 
many cases, agronomic inputs to growers. Being a CCA separates us from 
those who simply supply (sell) crop production inputs, as we provide 
services and make recommendations for the appropriate inputs. Over 85% 
of the CCAs work for an Ag Retail or Farm Cooperative type business, 
while others may have their own business providing only services, or 
work for USDA NRCS, Cooperative Extension, or state/local government 
agencies.

    Qualifications required to become and remain a CCA:

    1. Exams:

    Pass two comprehensive exams covering four primary competency 
        areas:

      a. nutrient management.

      b. soil and water management.

      c. integrated pest management.

      d. crop management.

    2. Education and Experience:

      a. Bachelors of Science (BS) degree in Agronomy or a closely 
            related field with at least 2 years of experience; or

      b. Associates Degree (2 years) in Agriculture with minimum of 
            fifteen credits in agronomy related course work with 3 
            years of experience; or

      c. A degree that does not relate to agronomy or no degree post 
            high school with at least 4 years of experience.

    3. Ethics:

    Every CCA must sign and agree to uphold the CCA Code of Ethics, 
        pledging to do what is in the best interests of the land owner. 
        Violation of this code could lead to de-certification.

    4. Maintenance:

    To maintain their certification, a CCA must earn forty hours of 
        continuing education every 2 years. There must be at least 5 
        hours in each of the four primary competency areas: nutrient 
        management; soil and water management; integrated pest 
        management; and crop management.

    A CCA is committed to working with their grower customers in 
adopting the best management practices that are both economically and 
environmentally sound. A CCA is considered a business partner to the 
grower because both have a lot to gain or lose based on the 
recommendations that are made. A large producer survey conducted by 
Purdue University's Center for Food and Agriculture Business indicated 
that farmers ranked honesty and technological competence as the top two 
characteristics of their suppliers. The ICCA Program strives to ensure 
that CCAs meet both requirements through the code of ethics and 
continuing education standards.
    CCAs are recognized by USDA-NRCS as Technical Service Providers 
(TSP) in nutrient management, pest management and residue management or 
tillage practices. There are 1,220 TSPs throughout the United States; 
of those, 353 TSPs (29% of the total) identify as CCAs. (numbers 
provided by NRCS). CCAs are also recognized by the Risk Management 
Agency (RMA) as agricultural experts related to crop insurance claims.

    For a CCA to become and maintain a TSP standing:

    1. A CCA registers with USDA-NRCS through their online TechReg 
        site. A CCA must provide their CCA number which is verified by 
        ASA. The categories that the CCA plans to work under are self 
        identified during the registration process. The MOU that ASA 
        ICCA signed with USDA-NRCS requires that the CCA maintain their 
        CCA status and register with NRCS every 3 years.

    2. Depending on the state's interpretation of the TSP rules, the 
        state NRCS office may require the CCA to complete additional 
        training. However, this is not supposed to be the case since 
        the 2008 Farm Bill standardized the registration process.

    3. Maintenance requires registering every 3 years and keeping their 
        CCA designation active.

    Early on in the TSP Program, there were approximately 2,200 TSPs 
throughout the U.S., 51% of which were CCAs. As the program matured, 
rules were changed and states enacted state-specific requirements, in 
essence ignoring the MOU standards. This led to many of the CCAs 
dropping out of the TSP program and a precipitous decline in the number 
of private sector CCAs involved.
    The ICCA Program and ASA have worked with USDA NRCS to evaluate the 
TSP system and have proposed changes for the future. Those changes were 
developed by a group of CCAs and NRCS staff with experience working 
directly with the program. The new system was `pilot tested' in eight 
states. Although the volume was low, the overall recommendation was to 
implement the new system nationally. Unfortunately, to date, that has 
not been done.

    Experiences from the field:

    Overall, in the beginning of the TSP Program, CCAs viewed it as a 
business opportunity to become ``more partnered with the grower'' and 
more completely serve their customer base. It was viewed as a way to 
get better nutrient management planning and quicker adoption of new 
technologies done in a way that might increase farm revenue or avoid 
increased production costs. As time progressed it became more of a 
challenge than it was worth, yielding a high drop-out rate by private 
sector CCAs. There have been changes made to the system that have 
helped improve it. Not-to-exceed rates were discontinued and payments 
were supposed to take into account local market conditions, while 
farmers were allowed to select the TSP.
County Level Technical Assistance
    The relationship between CCAs and local county office NRCS staff is 
critical to the success of the TSP Program. Unfortunately, there is a 
wide disparity between NRCS county offices as far as the ability and 
understanding of the local staff. Some District Conservationists (DC) 
were very receptive to the concept and worked closely with CCAs to 
implement the program. In those counties, more nutrient management 
plans were adopted and implemented. In one example, it went as far as 
the DC asking the CCA to help ``sell'' nutrient management planning to 
farmers. This resulted in more plans and all participating farmers 
having EQIP contracts. In a neighboring county, the DC was not in favor 
of having TSPs. They were very defensive and dismissive to the point of 
discouraging involvement by CCAs, resulting in a very low 
implementation rate of nutrient management plans by farmers.
    There will always be a degree of difference between individuals in 
how they perform their job functions, but the degree that exists today 
is far too wide to be appropriate. It is exaggerated by the lack of 
agricultural background and knowledge at the county position level. The 
skill or knowledge level is also typically based on traditional NRCS 
practice work, specifically engineering related practices. There is, at 
times, a component of engineering that is required such as storage 
structures or earth moving, but nutrient management planning is not 
only engineering focused. The land application of manure does not 
require an engineer. It requires a Certified Crop Adviser, Certified 
Professional Agronomist or Certified Professional Soil Scientist who 
understands agronomic production practices. The same can be said for 
pest management planning.
    One of the original goals of TSP was to take advantage of the 
private sector professional in the field that already had the 
relationship with the farmer and understood what production practices 
were in place so there would be quicker adoption of new practices to 
improve conservation implementation. Farmers know and trust their CCAs. 
They have a long standing business relationship with them. Farmers do 
not on average want the government telling them what to do or in many 
cases even know what they are doing. The CCA is more knowledgeable and 
understands agronomic production practices better. For example, a DC 
told the grower that they needed to lime their fields but the nutrient 
management plan developed by a CCA based on soil sampling 
recommendations did not call for lime. Lime was not needed based on the 
science but lime is considered a soil amendment and lime payments are 
based on ``traditions''. The CCA argued that based on the science lime 
was not needed and would be a waste of money. The DC would not release 
the payments to the farmer until the farmer applied lime.
    Solutions: There are two parts. First, to improve the ability of 
local NRCS staff at the county and state levels and gain consistency 
between states and counties, requires that all agronomy focused staff 
become Certified Crop Advisers or Certified Professional Agronomists. 
The ICCA Program first qualifies a person through examination and 
credential review. Then they grow their knowledge and skills through 
the continuing education requirements. NRCS already requires 
professional certification or licensing for engineers, land surveyors 
and other professional staff. Why not include agronomy and soils 
focused staff? It would help improve the overall performance and 
delivery of conservation practices. The second part to the solution 
would be to allow county based personnel to cross county lines so if 
there is a highly interested and talented individual in nutrient 
management planning for example, allow them to work in multiple 
counties and focus on their strengths.
    Finding qualified agronomy professionals is a challenge for 
everyone in agriculture today. There is a growing demand for the 
professionals but fewer students are taking up the study. ASA is 
currently working with other scientific associations and industry 
organizations to try to attract more individuals to the profession.
Inconsistency on Paperwork Requirements
    There appears to be a gap between what paperwork is required 
between states and between counties within states as reported by TSPs 
who are CCAs.
    Solution: Standardize the paperwork across county and state lines. 
Bring together a group of CCAs who have experience of being a TSP and 
have them work with local NRCS employees who also have experience 
working with TSPs to design a standard set of documents and forms.
Summary:
    The relationship between the CCA TSP and the local county level 
NRCS staff is very critical to the successful delivery of conservation 
practices on the ground. A positive and mutually supportive 
relationship yields a higher adoption rate of practices on the farm 
which ultimately should lead to improved environmental conditions in 
that local area. NRCS should capitalize on the existing MOU they have 
with ASA to fully implement the TSP program and fully engage the CCAs 
working in the private sector. CCAs have a long standing and trusted 
business relationship with the farmer. CCAs know and understand plant 
and soil-based production agriculture. NRCS should utilize CCAs to 
expand their delivery of technical assistance and the adoption rate of 
conservation practices. At the same time, by requiring professional 
certification for all staff that deliver or evaluate technical 
assistance, NRCS will increase their internal capabilities and 
expertise. This is not a new concept for NRCS since they already 
require it of other non-agronomy or soil science related staff. There 
is great potential to expand conservation through this partnership 
approach and ASA and the ICCA Program are ready and willing to partner 
further with USDA to do so.
    Thank you for the opportunity to speak with you today.

    The Chairman. Thank you.
    Mr. Braford?

          STATEMENT OF WILLIAM L. BRAFORD, CONSULTING
          FORESTER, BLUECHIP FORESTRY, NATURAL BRIDGE
           STATION, VA; ON BEHALF OF AMERICAN FOREST
                           FOUNDATION

    Mr. Braford. Chairman Holden, Ranking Member Goodlatte, 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today to discuss my experiences with the 
administration and delivery of the USDA conservation programs, 
specifically focusing on delivery to America's over ten million 
family forest owners.
    My name is Bill Braford. I am a consulting forester and a 
certified forester with the Society of American Foresters. I am 
retired from the Virginia Department of Forestry and working 
with my father as a beef cattle farmer and doing forestry 
consulting at the same time. In addition to some of my 
experiences, I am one of the only two consulting foresters in 
Virginia who are currently registered as a technical service 
provider through the USDA's Natural Resources Conservation 
Service.
    Today, I would like to focus my testimony on three key 
areas that I think are of great importance to the delivery of 
the conservation programs to family forest owners: first of 
all, the potential impact of conservation programs on family 
forest owners in Virginia and throughout the U.S.; second, the 
capacity for conservation program delivery to family forest 
owners in Virginia; and, last, the NRCS Technical Service 
Provider program as it relates to forestry assistance.
    As far as the impact, I would kind of like to give an 
illustration. When I started with the Virginia Department of 
Forestry around about 1975, there were some bark beetle 
problems, and a lot of the landowners that I found myself 
servicing had just done a lot of harvesting. At that time, I 
was concerned because there wasn't any cost share. But the 
forestry incentive program developed by the USDA came along, 
and those amounted to a lot of good work.
    As a matter of fact, if you go back to 1974, those trees 
have grown. They have been thinned once or twice. They are now 
35 years old. Those trees, being higher-quality pine, in 
eastern Virginia, are servicing some sawmills. Mr. Ken Morgan 
in Red Oak, Virginia, has put a lot of investment in 
infrastructure in the last 4 years, in spite of the recession, 
adding jobs. And these trees are going to be what he needs to 
keep his mill going, especially with this economic situation.
    Second, if you look at the capacity for conservation 
programs delivery to family forest owners in Virginia, if I 
kind of go back to my career as a service forester, we were 
trying to get 50 forest management plans per year. I found it 
difficult to do that. For one thing, with all the other 
programs that were going, it seemed like the forest management 
plan was the most difficult for me to do. I found it very 
helpful when I had another forester come in and just take on 
that specific program. That seemed to work well, and I think 
the same thing applies to technical service providers and 
consultant foresters.
    We also had the Forest Stewardship Program for the last 4 
or 5 years that paid consultant foresters to do forest 
management plans. That seemed to work quite well and served the 
same purposes I had needed when I was a county forester.
    From the technical services provider program, I found it 
was somewhat difficult to go through the process. I was very 
impressed with all of the Internet information. That gave me 
pretty good experience, but it took a lot of time. I think 
maybe that is the reason we only have two out of about 150 
consultants that actually have signed up as a technical service 
provider.
    I guess I am at the end of my part of it. But I would like 
to summarize by saying that, number one, I think forestry is a 
long-term investment that needs to be looked at. If we have the 
ebb and flow of different incentive programs, we are likely to 
end up with low reforestation in a period of 10 years, which 
could have results 30, 40 years from now.
    Second, I am excited about the partnership between, not 
only TSPs and the agencies, but all the agencies working 
together. For example, the American Forest Foundation has put 
together a brochure that explains some of the USDA farm bill 
programs, which I found quite helpful.
    And last, I might suggest that, due to the complexity of 
the TSP program, maybe we could jump-start that program with 
some type of different cost share, maybe a little bit more 
streamlined with more involvement of consultant foresters.
    Thank you. I would be happy to answer questions.
    [The prepared statement of Mr. Braford follows:]

Prepared Statement of William L. Braford, Consulting Forester, Bluechip 
  Forestry, Natural Bridge Station, VA; on Behalf of American Forest 
                               Foundation

    Chairman Holden, Ranking Member Goodlatte, Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss my experiences with the administration and delivery of the 
USDA conservation programs, specifically focusing on delivery to 
America's over ten million family forest owners.
    My name is Bill Braford and I'm a consulting forester certified by 
the Society of American Foresters, an American Tree Farm System 
inspecting forester, and a tree and beef cattle farmer, based in 
Natural Bridge, Virginia. I've been a consulting forester for almost 8 
years now, having retired from the Virginia Department of Forestry 
(DOF) in 2002. At DOF, I served in numerous positions including as a 
service forester, a supervising forester, and as a forest water quality 
specialist, so I have extensive experience working with family forest 
owners.
    In addition to this experience, I am one of only two consulting 
foresters in Virginia who are registered as Technical Service Providers 
through USDA's Natural Resources Conservation Service.
    Today, I'd like to focus my testimony on three key areas that are 
of great importance to the delivery of the conservation programs to 
family forest owners:

    (1) The potential impact of conservation programs on family forest 
        owners in Virginia and throughout the U.S.

    (2) Capacity for conservation program delivery to family forest 
        owners in Virginia.

    (3) The NRCS Technical Service Provider program as it relates to 
        forestry assistance.
Potential Impact of Conservation Programs on Family Forests
    The Commonwealth of Virginia is blessed with tremendous forest 
resources, over 63% of which are owned by roughly 373,000 families and 
individuals, not corporations or the Federal or state government. 
Annually, Virginia's forests provide over $27.5 billion in economic 
benefits to the state, including $23 billion from the forest products 
industry alone.
    Many of the Commonwealth's family forest owners are just like 
farmers, some produce timber or other products, but most are interested 
in passing their land on in their family and having a place to hunt and 
fish and enjoy. Virginia family forest owners hold an average of 75 
acres of forest.
    Given the extensive family forest ownership in Virginia, there is 
great potential to utilize the USDA conservation programs to accomplish 
conservation goals and address the pressing challenges facing our 
forests.
    As required in the 2008 Farm Bill's forestry title, the Virginia 
Department of Forestry just completed an assessment and strategy around 
the Commonwealth's forest resources--Federal, state, and privately-
owned.
    The DOF identified a number of challenges for Virginia's forests in 
the coming years, including increasing wildfire threats, encroaching 
development placing pressure on forest owners to convert their forest 
to non-forest uses, sustainable management of forests as new markets 
emerge, and declines in reforestation rates.
    Landowners that I work with are primarily interested in maintaining 
healthy forests that provide for future income along with other 
benefits such as wildlife habitat and just good shade to walk under on 
a hot summer day. Landowners in my area have stands of hardwoods that 
are nearing maturity and that are beginning to slow in growth. 
Landowners ``east of the Blue Ridge Mountains'' have both pine and 
hardwood forests. The pine component in eastern Virginia is mostly 
planted loblolly pine. The hardwoods develop naturally following timber 
harvests. The actual harvest of timber is forestry's primary tool for 
managing forests whether for wildlife, forest health or immediate 
income. Both long term and short term forest management planning are 
crucial in forest management. In 1975 I helped landowners in eastern 
Virginia reforest their cutover lands with the Forestry Incentives 
Program (FIP). These trees have been thinned once or twice and are now 
nearing maturity. Some have been harvested and replaced with younger 
trees. Conservation programs that provide some type of cost share have 
proven to be critical to offset the long term horizons in forestry 
investments. These programs need to be constant over time to maintain a 
good distribution of forest types and age classes. Healthy, growing 
forests are less vulnerable to insect and disease attacks.
    As a forester with experience working in both the public and 
private sectors, I've seen the ebb and flow of conservation assistance 
for family forest owners and the challenges it presents to implementing 
these programs and helping landowners. I was excited to see the 
improvements this Committee made in the farm bill, to provide family 
forest owners with access to the various conservation programs, just 
like farmers. This has great potential, given that farm bill program 
dollars are often more stable than relying on state program budgets.
    In fact, mostly with the effort of DOF and the NRCS in the state, 
great progress has been made in implementing these programs. In the 
first year of implementation, the Farm Bill Conservation Programs 
provided roughly $3.4 million in funding for forest projects in the 
state and enrolled 23,000 acres of forests in the Conservation 
Stewardship Program. Nationally, over $143 million in EQIP funding 
alone, was spent on forestry practices.
    Even with all this progress, I see a significant challenge ahead, 
in terms of delivery of these programs: the necessary capacity to truly 
serve family forest owners throughout the state does not exist in the 
Federal or state government agencies.
Capacity for Conservation Program Delivery in Virginia and Nationwide
    As a consulting forester, I have learned how much landowners value 
the ability to have a resource professional walk with them on their 
property and help them achieve their vision for their forest. Federal, 
state and private sectors all have important roles in providing the 
infrastructure that delivers technical assistance to forest landowners.
    Even as great progress has been made in implementing and delivering 
conservation programs to forest owners in the state, this progress is 
limited by the capacity in the Federal and state agencies. The task of 
providing assistance to the over 300,000 forest owners in Virginia, let 
alone the over ten million nationwide, is daunting to say the least. 
Most of the assistance that's been delivered so far has come through 
the DOF, which is facing severe budget challenges.
    Nationally, both the U.S. Forest Service and the National 
Association of State Foresters have expressed concern over the lack of 
capacity to fully serve America's family forest owners, so they can 
continue to provide the values and benefits we all gain from their 
forests.
    In my view, the needed growth in capacity will have to come from 
non-governmental organizations and the private sector--through 
consulting foresters like myself. It will not come from larger agencies 
or more state and Federal programs because of both limited funding and 
the political limits on the number of government personnel.
    There are roughly 150 consulting foresters in Virginia, many of 
whom are interested in helping deliver the conservation programs to 
forest owners, if they are able to at least break even on this.
    An additional challenge for delivery of conservation programs to 
forest owners is the current lack of outreach on the program 
opportunities to forest owners in Virginia. While NRCS, DOF, and 
Extension have done some outreach, they simply do not have the capacity 
to engage significant numbers and make them aware of the opportunities. 
Engaging the consulting forester community in a meaningful way on this 
enables a win-win for the consultant and the agencies.
    Another challenge I see is the relative complication of these 
programs for forest owners. While the programs may also be complicated 
for farmers and ranchers, I think this issue is compounded by the fact 
that there are not many within the agencies that understand the 
programs and how they apply to forests, making it even more difficult 
for the landowner.
    With my TSP certification, I have begun to talk with landowners 
about the program opportunities. At this point, only two owners have 
been interested in developing forest management plans, which are funded 
through the Environmental Quality Incentives Program. These landowners 
were interested in developing a management plan because they wanted to 
get started on a plan to improve their forest. They also were very 
interested in getting started with a cost-share program, both to 
complete the plan and implement recommendations such as tree planting. 
I contracted with one of these landowners, to develop a management plan 
on about 15 acres of their forest. I was able to combine the initial 
visit with the field work which required about 5 hours. The parcels I 
examined were part of a subdivision of similar-sized wooded lots. The 
land was gently rolling with an oak-hickory forest type. The landowner 
specifically wanted a plan that would help improve wildlife habitat, 
maintain forest health, and improve the productive capacity of the 
forest.
    The office process, completing all the required paperwork and 
details for the program, took me much more time than the field visit. 
Currently, I have had no additional request for forest management 
plans. I had anticipated additional work to justify my TSP processing 
time.
    I did have an opportunity to sign up another landowner who was 
interested in managing his forest for timber, wildlife and recreation 
as well as qualifying for land use taxation. After suggesting the NRCS 
EQIP cost-share funding for the development of his forest management 
plan, we mutually decided that the process was too complex. I completed 
the plan for him with a bill for my time. He did not apply for cost 
share and I'm not aware of any practices he's completed to implement 
the plan.
The NRCS Technical Service Provider Program As It Relates to Forestry 
        Assistance
    One of the keys to successfully engaging the private sector in 
delivering conservation programs is the NRCS's Technical Service 
Provider (TSP) Program. It is my understanding that this program was 
designed to engage the private sector, consulting foresters like me, in 
delivery of the conservation programs.
    Well, I'm here today as one of only two consulting foresters in the 
Virginia that is a TSP--meaning landowners who wish to use a consultant 
to participate in the program, have only two foresters that they can 
engage. I may be efficient, but I certainly can't service the hundreds 
of thousands of landowners that could use some of the assistance under 
the programs. I also know the other consultant who is a TSP and he 
would face the same limitations.
    The lack of consulting foresters that are participating in the TSP 
program is not for lack of interest. There are significant challenges 
with the Program that are evidenced by my experiences with becoming a 
TSP.
    I've had experience with these kinds of programs in the past, and 
have seen them work successfully. For example, Virginia has utilized 
the U.S. Forest Service's Forest Stewardship Program in the past to 
provide cost-share assistance to landowners who wanted forest 
stewardship plans written by consultant foresters. Consultant foresters 
and DOF provided the outreach. Many consulting foresters were trained 
to write stewardship plans and the direct contract funding seemed to 
work.
    For training and qualification as a Technical Service Provider with 
NRCS, the process was much more involved. After a visit to the Farm 
Service Agency office, an address conflict and a few phone calls I 
successfully created and activated USDA eAuthentication account during 
November 2009. Several times each week I logged onto the TechReg 
website and navigated to the various resources pages including the USDA 
AgLearn site (usually in 2 hour sessions). I finally completed all of 
the online training in February 2010. Some of the TSP orientation 
training was good.
    Certified foresters (who already have extensive training and 
expertise) should not have to go through the forest management 
training. It was a good snow-covered winter to go through the process 
but I don't think I would have invested the time during a normal 
Virginia Winter. When I first signed up I was surprised to find out how 
little information there was about the Forest Management Plan 106 
practice at the local NRCS offices. I fear that the outreach is not 
there because of the lack of TSP's and the TSP's are not there because 
of the lack of outreach (and the lack of potential for appropriate 
compensation).
    Even as the TSP program faces significant challenges, I've heard 
from several national forester organizations that NRCS Chief Dave White 
has pledged his support and commitment to making the TSP program work 
for consultants, so TSPs become a viable option for landowners. He has 
instituted a streamlining team to improve the certification process and 
make the TSP program more workable and he has established two more 
positions on the TSP staff to help improve this program.
    In a survey of consulting foresters that have gone through the TSP 
process, it took an average of 48 hours over a 4 month period to 
complete certification with current computer access and requirements. 
One hundred percent of the respondents rated the process as difficult 
to very difficult. Remember, this is all non-billable time to a 
consultant. Most consultants agree that some orientation to the 
conservation program requirements is very appropriate and are willing 
to attend a day long workshop or similar orientation that is time 
efficient.
    I think it would be very appropriate for NRCS to rely on the 
existing, very credible forester certification programs provided by 
organizations like the Society of American Foresters or the Association 
of Consulting Foresters for verifying a forester's qualifications. 
Currently, while NRCS has MOUs with these organizations, there is no 
streamlined process for foresters who are already proven to be 
exceptionally qualified foresters.
    Another issue is the payment rates for TSPs. While it is 
technically correct that a resource professional can charge more than 
what is listed on the ``Not-to-exceed rate'' for services posted on the 
Internet-based TechReg website, this is impractical. In reality, the 
landowner who sees these rates feels that this is the maximum rate 
anyone should ever have to pay for such services, as stated by the 
government. We need to look for another way of expressing the cap on 
the maximum government contribution for services.
    Payments funneled through the landowner as reimbursements make the 
landowner sometimes unable to fund the work. Contracting directly with 
NRCS would provide a more direct and responsive mechanism for 
participation by both the TSP and the landowner. We suggest that NRCS 
continue to explore expansion of bundling services through cooperative 
agreements and requests-for-proposals. Larger consulting firms might be 
attracted to provide technical assistance through such requests.
    There have been other problematic issues with the TSP program as 
well throughout the country. In some cases, states encouraged foresters 
to become certified, which they did, only to decide later that they 
would not offer forestry practices, leaving the consultant hanging 
after investing time and resources.
    While there are many challenges with the current TSP program, I 
don't believe they are insurmountable. Consulting foresters truly do 
want to help landowners accomplish conservation objectives on their 
land and manage their land sustainably and are willing to work hard 
alongside Federal and state employees to make it happen.
    In conclusion, I hope I've provided the Committee today with some 
valuable insights regarding the current delivery of the conservation 
programs to Virginia's family forest owners, based on my experiences 
and the experiences of others with whom I have spoken. The 2008 Farm 
Bill provided tremendous opportunities for improved conservation on 
family forest lands, in addition to agricultural lands. It's no 
surprise that this significant shift in direction of the programs has 
led to some bottlenecks and issues with respect to program delivery.
    Successful implementation and delivery to family forest owners is 
possible, if improvements are made to engage the nation's consulting 
foresters, who stand ready and willing to assist in this important 
effort.
    Thank you for the opportunity to testify. I look forward to 
answering any questions you may have.

    The Chairman. Thank you.
    Mr. Lohr, you said your proposal would allow NRCS employees 
to spend 75 percent of the time in the field. How much time do 
you think they spend in the field now compared to the office?
    Mr. Lohr. It is probably, in my situation, observing my 
office in Greensburg, it is probably close to that now. But, 
again, I would have no way to measure that exactly.
    The Chairman. Okay.
    Mr. Leathers, you said you come across new opportunities 
every week. Do you care to expand on what those opportunities 
are and what can we do to help you take advantage of them?
    Mr. Leathers. Mr. Chairman, thank you for the question.
    You know, various partners have come to us and asked us to 
help with their initiatives. For example, the Pennsylvania Game 
Commission came to us to ask for help with the two CREP 
initiatives.
    As we move forward with those programs, what is important 
is just that we have available CTA funding so NRCS can come on 
as a partner in those states, as well.
    The Chairman. When you talk about the Pennsylvania 
situation, that is moving money from the western CREP to the 
Lower Susquehanna?
    Mr. Leathers. I believe so. There are two different CREP 
initiatives, sir, and we are looking for the amendment that 
fully funds the Susquehanna, yes, and the Delaware CREP.
    The Chairman. Yes. I am familiar with that. I also just 
want to mention, I do have producers concerned about what that 
will do to rental prices, too. So we have to be careful and 
take a good look at that.
    Director Manley, do you care to address any new 
opportunities that you have come across that we can help you 
with?
    Dr. Manley. I think as we move into this implementation of 
the 2008 Farm Bill, if we could--we have a staff that has all 
the engineers, biologists, administrative folks. I mean, we can 
turnkey big blocks of conservation delivery for you guys.
    I think if there was a way that the funding, both FA and TA 
funding, and projects could be bundled and assigned to us in 
large blocks to make big differences for the state NRCS 
offices, that those administrative barriers could be removed 
where we could be used in that degree.
    The Chairman. Dr. Burns, you talked about the 
inconsistencies at the national, state, and local level. You 
talked about it a great deal, but you mentioned six states. Can 
you elaborate--I don't think you mentioned the name of the 
states, but six states. Is that the model we should be 
following? Can you elaborate on that?
    Dr. Burns. I mentioned about a dozen states that are 
currently not following the national certification.
    And I guess it is important to realize that, first, NRCS is 
not in the certification process. They have looked to third-
party groups, such as the CCAs, such as universities, to 
actually certify and educate and qualify the technical service 
providers to do this work.
    The situation in the environment now with this lack of 
consistency is that it is very difficult to actually operate a 
national certification program because it is not national. In 
fact, the decision was made at Iowa State University, the 
program that I led, we closed it at the end of June of this 
year. We ended the program because we said we cannot serve a 
national audience because the national certification is not 
being enforced or followed.
    So that is why I think the recommendation that there 
actually be some more emphasis put on the policy at the 
national level, that it be enforced, it be followed, that a 
committee be established to look at what is going on in the 
states. Chief White mentioned that they are looking hard now as 
new requirements come, but it is important to recognize there 
is already a lot of water over the bridge and many, many states 
that don't operate following that national policy.
    And all states are unique, but if they want to have groups 
do this certification and not do it themselves, they are going 
to have to give us an environment that we can function within. 
Because we receive no funding from NRCS of any form to do this 
certification; it is a fee-based program. So when our program 
does not have enough value for the TSPs to come to, because it 
doesn't work in enough states anymore, then we can't draw the 
numbers to continue it.
    The Chairman. Thank you.
    The gentleman from Virginia, Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Braford, welcome. We are delighted to have you from the 
beautiful Rock Ridge County area, and we appreciate your being 
willing to come to Washington and testify for us.
    As I am sure you are aware, Virginia's forest industry is 
struggling, especially due to the recent Franklin International 
Paper Mill being shut down. Also, many smaller facilities in my 
district are going through some very tough times.
    What impact does the loss of these mills have on Virginia's 
forest owners and their ability to keep their forests healthy?
    Mr. Braford. Well, it is just a matter of markets. They 
need to have the outlook of knowing that their forest can be a 
profitable investment. I think that the need for incentives to 
invest, reinvest in the future is at a, kind of, a question 
mark right now. So, incentives can continue with that long-term 
investment.
    Mr. Goodlatte. The further they have to look to find 
markets for their wood, the further they have to ship it, the 
less attractive that investment is and the less resources they 
have available to maintain a healthy forest. Is that correct?
    Mr. Braford. That is correct.
    Mr. Goodlatte. And how can the conservation programs that 
we have been talking about here today, which can provide some 
resources to help improve forest management, fill some of the 
void left by the loss of markets?
    Mr. Braford. I guess I could pretty much repeat the other 
parties. The main thing would be to invest, with the idea that 
they will gain profits in the long term. Forestry has the 
disadvantage of being longer-term than agriculture.
    Mr. Goodlatte. And based on your testimony and experiences, 
it appears that you are not hearing a lot of demand for the 
conservation programs from forest owners in Virginia. This 
could be because Virginia forest owners don't have a need for 
the programs. But, based on my experience, talking with my 
constituents, they have their share of management challenges, 
like gypsy moth infestations and wildfire risks and complying 
with state water quality requirements.
    Why do you think landowners are not eager to participate in 
these programs?
    Mr. Braford. Well, I think the participation is there when 
they need it. The bad part is that, when insects and disease 
happen after the fact, then they need to react proactively. And 
when they have to do salvage cuts, then that is less than 
ideal.
    I think that some of the loggers are actually taking 
advantage of some of these conservation programs on BMPs. And 
so we may not see the activity from the landowners, but it is 
there in the third party, because they are working with loggers 
on those same conservation items.
    Mr. Goodlatte. You mentioned that you are both a forester 
for the tree farm program and a tree farmer yourself. And I 
know these programs have had success in reaching out to 
Virginia's landowners and encouraging forest conservation and 
good management, with the support of the Virginia Forestry 
Association.
    Do you think there are opportunities for the NRCS to 
partner more with organizations like this to do the landowner 
outreach and assistance in Virginia?
    Mr. Braford. I do. The experience I have had as a TSP is a 
good indication that we need more than just promotion from the 
NRCS. For example, I have only had one request for a forest 
management plan. I think, with the cooperation of consultant 
foresters of Virginia Tech, Virginia Department of Forestry, 
which is actually quite good right now, is essential for 
outreach.
    Mr. Goodlatte. Thank you.
    Mr. Chairman, let me just throw out one more question to 
whoever on the panel would like to respond to this.
    In the next farm bill, we may have to make some very tough 
choices on program funding. Can an improved TSP program help 
save administration costs, but still increase on-the-ground 
conservation? Can we make these programs work more efficiently 
and save some money and still do more good?
    Mr. Dlugosz. I guess I would weigh in. The certified crop 
advisors, we have 13,000 certified crop advisors currently out 
there. Not all of them, this is not necessarily their area of 
expertise, but just name whatever percent you want, that is a 
lot of people.
    I think if we could kind of empower those people, kind of 
encourage them to clean a few details up, that might be a 
pretty good pool that exists right now. And they are anxious to 
help add value to the farm.
    Mr. Goodlatte. Anyone else? Dr. Manley?
    Dr. Manley. Yes, sir, I would like to add that, just with 
the same budget that you may have today, if we were to be able 
to allow the flexibility of the financial assistance funds and 
TA assistance funds to make sure that no funds overall were 
left on the table at the end of a fiscal year, that type of 
flexibility would make a big difference in many states.
    Mr. Goodlatte. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The chair thanks the gentleman and recognizes 
the gentleman from Kansas, Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you again.
    Mr. Lohr, you have a suggestion in your testimony that farm 
and conservation programs can be delivered more effectively and 
efficiently. Perhaps my thought arises in response to Mr. 
Goodlatte's question. I am interested in hearing more about 
that suggestion.
    First, how does your suggestion translate into savings for 
the Federal Government?
    And then, second, if you are a producer, a farmer, or a 
rancher, how will the way that you sign up for those farm 
programs change? In other words, would you walk me through the 
process that a farmer would sign up for the program, how would 
it be different than how we do that today?
    And, third, can any of this be done with the current 
computer system that USDA has in place?
    Mr. Lohr. I will try working from number three backwards, 
and maybe you can prompt me with the other ones as I get there.
    The current IT system in place, as was mentioned earlier, 
is an antiquated system. And we feel that the MIDAS project and 
the NRCS's streamlining initiative are critical in getting that 
done.
    I go back 30 years in this business and saw this work in 
the first half of my career with conservation programs, where 
NRCS was the technical agency and FSA was the administrative 
agency in those situations. And we believe that that can work 
again.
    The software platform or the IT platform is basically the 
same. We are on the same computer network and system. So some 
software enhancements would be necessary to make that kind of 
thing work. Our staff is already trained, as is NRCS, in GIS 
software. Unfortunately, we have different platforms. They have 
Tool Kit; we have ArcGIS. So that needs some work. So that 
would be probably my response for the third question.
    Could you prompt me on the second?
    Mr. Moran. Yes. The other two questions related to what 
savings could government expect, the Federal Government expect, 
from your proposal?
    Mr. Lohr. Well, we did some searching for numbers that 
shows that, in Fiscal Year 2009, the salary and expense 
appropriation for FSA was a little over $1 billion, and we 
delivered almost $17 billion in farm program benefits. And that 
works out to be a little less than 7 cents on the dollar to 
deliver programs, and we feel we would bring that efficiency to 
the table.
    Additionally, we just see so much redundancy out there in 
terms of program application. Producers really need to 
determine early on if they are going to be eligible from the 
standpoint of actively engaged in agriculture, conservation 
compliance, adjusted gross income. And we think we can bring 
that to the table also, in terms of producers making 
applications and determining early if they are going to qualify 
for these programs.
    Mr. Moran. The final question was about how it would affect 
a farmer. Would the process for sign-up, participation, would 
it be different?
    Mr. Lohr. Sure, it is going to be different. We hope that 
the automation will help with that.
    It has been mentioned here about online capabilities. 
Unfortunately, the real world out there shows that many farmers 
don't have that capability. They are still going to have to 
visit our offices to make those applications. And, as I 
presented in my testimony, we feel that we have the staff in 
the office continuously to service the farmer and help them 
make those applications.
    NRCS needs to be in the field, and we feel we can provide a 
better service to clients.
    Mr. Moran. Mr. Robinson, do you have any response or 
commentary upon what Mr. Lohr had to say?
    Mr. Robinson. Well, from the conservation districts 
standpoint, we want what is best for conversation on the 
ground. If you will allow me, I will answer it from a producer 
standpoint. And I realize, I am the only one sitting at the 
table that is a producer.
    My experience has been that, to go in--and I did have the 
opportunity at one point, a couple years ago, that I had two 
projects. One went through NRCS, one went through FSA. I 
constructed them at the same exact time, went through both 
processes at the same time.
    I felt, as a producer, the NRCS process was a little more 
streamlined, a little easier. When I turned in the bills, the 
check came quicker than through the FSA process. Not to say 
that something hasn't changed in the last 2 years in the 
computer world, but that was my experience at that time.
    Mr. Moran. Thank you all for your testimony. I appreciate 
being able to hear what you have to say.
    And I thank the Chairman and the Ranking Member for their 
courtesy today.
    The Chairman. The chair thanks the gentleman.
    And I would like to thank our witnesses for their testimony 
today.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and written responses from the witnesses to 
any question posed by a Member.
    This hearing of the Subcommittee on Conservation, Credit, 
Energy, and Research is adjourned. Thank you.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
      
   Submitted Letter by Hon. Blaine Luetkemeyer, a Representative in 
                         Congress from Missouri
June 16, 2010

Hon. Blaine Luetkemeyer,
Member,
U.S. House of Representatives,
Washington, D.C.

    Dear Congressman Luetkemeyer:

    Thank you for your letter of April 28, 2010, regarding the U.S. 
Army Corps of Engineers (USACE) construction of shallow water habitat 
for the pallid sturgeon in the Missouri River and the possible threats 
to the river ecosystem.
    The U.S. Fish and Wildlife Service's 2003 Amendment to the ``2000 
Biological Opinion of the Operation of the Missouri River Main Stem 
Reservoir System, Operation and Maintenance of the Missouri River Bank 
Stabilization and Navigation Project, and Operation of the Kansas River 
Reservoir System'' requires the USACE to construct 20 to 30 acres of 
shallow water habitat per river mile in the lower reaches of the 
Missouri River as part of the recovery efforts for endangered species. 
The primary means of accomplishing this habitat restoration is through 
the construction of chutes and backwater habitat, which results in the 
intentional discharge of the dredged sediment directly into the river.
    Prior to human intervention, the Missouri River was an 
uncontrolled, active river meandering from bluff to bluff and 
constantly cutting new channels resulting in tremendous quantities of 
river-borne sediment from the channel and bank erosion. However, 
alteration of the main stem of the Missouri River has reduced sediment 
delivery to the Gulf of Mexico by limiting the natural erosion 
processes. This has caused a chain effect of impacts, including the 
Federal listing of three species (Pallid Sturgeon, Piping Plover, and 
Least Tern) and a significant loss of coastal wetlands. The value of 
this sediment, if deposited correctly, in forming coastal wetlands that 
act as ``shock absorbers'' during hurricanes is now widely recognized. 
It is highly unlikely that the relatively insignificant temporary 
discharge of sediments and nutrients from chute and backwater 
restorations has had any significant bearing on the hypoxia issue in 
the Gulf of Mexico, especially considering that it is the significant 
reduction in the transport of sediment that appears to be the root 
cause in the degradation of coastal wetlands.
    The proportion of discharged sediment to sediment already in the 
stream is also an important consideration. A recent chute restoration 
project involved the dredging and discharge of 350,000 cubic yards of 
sediment. The 10 year daily average suspended sediment load at Nebraska 
City was approximately 200,000 cubic yards per day, so the discharged 
sediment was equivalent to only 1.5 days of sediment discharge. 
Therefore, sediment discharged into the river from chute restoration 
projects is a small fraction of the total yearly sediment carried by 
the river. Moreover, sediment discharges from restoration activities 
are a one-time event, so the short-term impact is likely well worth the 
long-term gain in shallow water aquatic habitat for a wide array of 
fish and wildlife species.
    Again, thank you for writing. I appreciate your concern and assure 
you that the Department of Agriculture is working to protect the 
natural resources in the Missouri River Basin. If I can be of further 
assistance, please do not hesitate to contact me.
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Thomas J. Vilsack,Secretary,
U.S. Department of Agriculture.
                                 ______
                                 
      Submitted Statement by Jennifer Mock Schaeffer, Agriculture 
 Conservation Policy Analyst, Association of Fish and Wildlife Agencies

    Mr. Chairman and Members of the Committee, my name is Jennifer Mock 
Schaeffer and I am the Agriculture Conservation Policy Analyst for the 
Association of Fish and Wildlife Agencies. I am a professional wildlife 
biologist with a B.S. in Agriculture and an M.S. in Range and Wildlife 
Management. One of my responsibilities is to work with the state fish 
and wildlife agencies to enhance delivery of biological technical 
assistance available to USDA and to America's farmers, ranchers and 
forest land owners. The purpose of my testimony is to provide more 
insight into the diversity, depth and roles that state fish and 
wildlife agencies play with their conservation partners in delivering 
biological technical assistance to USDA and its clients.
    The Association of Fish and Wildlife Agencies (Association) 
represents the state fish and wildlife agencies' interests in fish and 
wildlife management including the Farm Bill. The Association's mission 
is to protect state authority and support provincial and territorial 
authority for fish and wildlife conservation; promote sound resource 
management; and strengthen Federal, state, territorial and private 
cooperation in conserving fish, wildlife and their habitats in the 
public interest based on scientific principles. The Association 
represents and assists all 50 states and territories in working toward 
the accomplishment of their individual fish and wildlife goals and 
objectives.
    Mr. Chairman we appreciate and thank you and the Subcommittee for 
your strong support of the comprehensive array of conservation programs 
as demonstrated through reauthorization. The health, perpetuation and 
prosperity of our nation's fish and wildlife resources depend 
substantially on these conservation programs and their effective 
delivery on the ground.
    Because approximately 70 percent of the land in the US is privately 
owned, the Farm Bill is the single most important piece of legislation 
for fish and wildlife habitat conservation on private lands. U.S. 
Department of Agriculture (USDA) conservation programs have broad-
reaching affects on fish and wildlife populations and conservation of 
their habitats. Many state fish and wildlife agencies have specialized 
divisions that focus on delivering biological technical assistance on 
private lands to help meet landowners' and operators' conservation 
goals and objectives while also enhancing habitat for public trust 
wildlife resources. Some of these private lands divisions in the 
Midwest and Southeast date back to the 1970's and have a long history 
of successfully working with private landowners and USDA, while other 
private lands programs were initiated more recently in the 1990's. 
Regardless of how long state fish and wildlife agencies' private lands 
divisions have been working with USDA and landowners, they continue to 
grow in emphasis and demand. Through state fish and wildlife agencies' 
conservation efforts in partnership with conservation non-governmental 
organizations (NGOs) and USDA, implementation of past and current farm 
bill conservation programs has resulted in significant fish and 
wildlife conservation benefits provided through landscape level 
conservation actions.
    Since FY 2002, the amount of financial assistance the Natural 
Resources Conservation Service (NRCS) provides has grown by 376 percent 
and the emphasis on wildlife habitat within the conservation title has 
grown significantly. Since FY 2005, the number of NRCS full time 
employees (FTEs) providing technical assistance through the 
Conservation Technical Assistance (CTA) Program has unfortunately 
decreased 13 percent, and the number of NRCS biologists has declined by 
about 21% in the last 2.5 years. Together this means that there are 
fewer people on the ground to deliver biological technical assistance 
at a time when demand for such assistance continues to grow, and it is 
pivotal to delivering financial assistance into the hands of producers. 
This has increased the workload on NRCS staff and required more diverse 
fish and wildlife expertise than ever before. These trends have caused 
NRCS to stretch its technical staff to provide assistance outside of 
their areas of expertise and to look for alternative solutions to a 
shortage in technical staff. We currently see a snowball affect 
occurring--every year more contracts are signed, more landowners are 
enrolled, and more practices are planned but implementation, 
compliance, and restoration activities are not keeping pace. We believe 
NRCS is approaching an insurmountable workload that continues to 
accumulate from past enrollments because there is not enough boots on 
the ground providing the technical assistance needed for follow-through 
and project completion. Unfortunately, this means projects are not 
completed, contracts fall through and the funds this Subcommittee 
fought so hard for during the reauthorization becomes de-obligated and 
sent to the US Treasury instead of farmers, ranchers and private forest 
landowners. There are too many natural resource challenges across the 
country for this trend to continue and the only way we see to reverse 
the aforementioned ``snowball affect'' and avoid a critical tipping 
point is by increasing the technical assistance boots on the ground.
    As a result, many state fish and wildlife agencies with their 
nongovernmental conservation partners are sharing the increased 
workload and providing much needed biological technical expertise to 
USDA and landowners/operators. Currently, we believe there are more 
partner biologists working in NRCS offices than there are NRCS 
biologists, helping to deliver biological technical assistance and to 
relieve some of the workload. Delivering biological technical 
assistance on private lands is critical to helping state fish and 
wildlife agencies conserve their public trust wildlife resources and 
meet their conservation objectives, which is why they are dedicating 
staff capacity to working with USDA and their clients. The services 
that state fish and wildlife agency private lands divisions and partner 
biologists provide to landowners/operators and USDA range from 
conducting field tours/days, wildlife habitat and initiative workshops, 
and landowner and USDA training sessions on conservation planning, data 
entry, compliance checks, application and practice assistance, and 
inspections, to name a few.
    As these difficult economic times continue with state budgets being 
cut 10-60% on top of hiring freezes, FTE caps, and ongoing unfilled 
vacancies, it is becoming increasingly difficult for some states to 
meet Federal match requirements. For some states the funds they are 
able to contribute to help pay for USDA biological technical assistance 
is dwindling, but states continue to shoulder a growing workload even 
though NRCS does not have the funds needed to fully reimburse 
cooperators for USDA work performed. This trend will continue at the 
expense of state fish and wildlife agency budgets unless steps are 
taken to provide more technical assistance funding to deliver 
conservation programs.
    To compensate for the decline of state budgets and continue 
priority work with USDA, state fish and wildlife agencies have 
increased the number and diversity of conservation partnerships to 
provide the biological technical assistance that USDA needs and that 
landowners and operators want and deserve. Collaborative efforts to 
deliver biological technical assistance continue to grow between state 
fish and wildlife agencies and organizations such as Pheasants Forever, 
Ducks Unlimited, Rocky Mountain Bird Observatory, conservation 
districts, Intermountain West Joint Venture, and Playa Lakes Joint 
Venture, to name a few. Together we assemble the resources to put 
``partner biologists'' in USDA service centers and local FSA and NRCS 
offices. The arrangements for partner biologists vary greatly from 
state to state regarding who pays for salary, benefits, travel, 
supervision, hiring, and training, but often partner biologists are 
supervised by the state fish and wildlife agency and work in an NRCS 
office. By pooling our financial resources and expertise, these 
``partner biologists'' provide valuable knowledge, expertise, and 
resources to private landowners participating in voluntary, incentive-
based farm bill conservation programs that are essential to achieving 
local, state, regional and national fish and wildlife conservation 
objectives. Without all of the partners involved, many producers' 
biological technical assistance needs would go unmet. Together we 
leverage our diverse but specialized expertise to the benefit of USDA, 
producers and the wildlife resources we manage. Ultimately, the tax 
payer benefits from the leveraged funds that partners bring to USDA 
because it makes technical assistance funds go farther. Annually and 
collectively the state fish and wildlife agencies alone contribute 
millions of dollars and thousands of hours to delivering biological 
technical assistance because there is growing evidence that utilizing 
partner biologists results in more wildlife habitat on the ground and 
higher quality wildlife habitat long term.
    Partner biologists accelerate private land benefits through farm 
bill programs by bringing specialized fish and wildlife knowledge and 
habitat management skills to numerous tasks and duties: conservation 
planning; outreach, education, marketing the fish and wildlife aspects 
of conservation programs and benefits of practices to farmers, 
ranchers, and other private landowners; facilitating timely 
implementation of planning, contracting, and practice implementation 
follow-through necessary to bring habitat projects to fruition; and 
being locally involved and thereby maintaining landowner trust.
    We believe Conservation Technical Assistance (CTA) funds are needed 
for holistic conservation planning, so whole farm operations and their 
conservation objectives can be addressed from a landscape perspective 
and not just through the lens of one particular conservation program. 
In addition to more CTA funds, more flexibility between the amount of 
financial assistance and technical assistance in program funds is 
desperately needed. Some restoration activities such as wetlands and 
in-stream work require more intensive planning, permitting, engineering 
and expertise which have a higher cost of technical assistance. Because 
inadequate technical assistance funds are provided through CTA and 
conservation programs to complete these integral and vital components 
of restoration, contracts sit idle or become de-obligated, work goes 
undone and the backlog of restoration activities continues to grow.
    State fish and wildlife agencies work directly with USDA to put 
partner biologists on the ground to effectively and efficiently deliver 
conservation programs and biological technical assistance. These states 
include Arizona, Idaho, Iowa, Missouri, Florida, Kentucky, Maryland, 
North Carolina, South Carolina, Tennessee, Texas, Utah, Washington, and 
Wyoming. Specific examples of these partner biologists and their work 
are provided below.
    North Carolina_North Carolina Wildlife Resources Division has co-
located 3 biologists in NRCS offices since January 2005, and they 
primarily provide advice and guidance on WHIP, EQIP, CRP, WRP and 
occasionally other programs. These co-located biologists are directly 
involved in technical guidance on 10,000-15,000 acres of contracts each 
year.
    Missouri_Missouri Department of Conservation (MDC) has had a strong 
private land presence since its inception. By the 1970's there were 12 
state Field Service Agents who were dedicated to private land efforts 
throughout the state, working closely with USDA at that time. In 1981, 
MDC started an expanded private land pilot program, one aspect of which 
was the very first ``area biologist'' position. That was expanded to 
two positions by 1983, and by the close of the pilot period (1986) 
resulted in direction to place an area biologist in each of the NRCS 
area offices. The old Field Service Agent position (now renamed) also 
remained.
    The value of the area biologist concept was quickly realized when 
USDA rolled out CRP in 1986. Area Biologists also provided critical 
assistance in implementing Swampbuster provisions of the farm bill, as 
well as WRP. 1992 the first agreement with NRCS was crafted, and in 
1993, MDC agreed to provide a Wetland Biologist at the NRCS state 
office to assist with efforts to apply WRP and EWRP (1993 flood). 
Initially conceived as a temporary position, it soon developed into a 
permanent position. In 1995 the Wetland Emphasis Team (WET) concept was 
developed, most with converted area biologists, and four WETs were 
added in the state. This also coincided with a decrease in the number 
of area offices in Missouri.
    The Private Land Division was created within MDC in 1999. This 
effort resulted in multiple benefits:

  <ctr-circle> Expanded the old ``Field Service Agent'' concept from 12 
        statewide to its current staffing of 49 Private Land 
        Conservationists, dedicated to working with private landowners 
        on fish/forest/wildlife conservation.

  <ctr-circle> 3 Community Conservationists--working on urban planning 
        issues.

  <ctr-circle> 4 WET biologists focused on WRP and CRP wetland 
        projects.

  <ctr-circle> 4 Area Biologists working on farm bill and fish/forest/
        wildlife planning with USDA.

  <ctr-circle> 1 Private Land Program Biologist, who supervises the WET 
        biologists and provides farm bill assistance to NRCS state 
        office staff.

  <ctr-circle> 1 Private Land Programs Supervisor.

    The MDC-USDA partnership for delivering biological technical 
assistance has provided tremendous return on our investment and here 
are some of our accomplishments:

  <ctr-circle> 135,000 acres of WRP (5th highest in the nation), and 
        poised to add another 9,200 acres this year. Pioneered the 
        macrotopography concept in restoration.

  <ctr-circle> 1.4 million acres of CRP, including 26,000 acres of 
        CREP. MO has the 3rd highest allocation of CP33 acres in the 
        nation (currently enrolled 31,218 as of 3/31/10).

  <ctr-circle> MO has just received another $1 million of EQIP funding 
        aimed specifically at forestry resources, bringing the total 
        forestry pool this year to $2.2 million, which is one of the 
        highest in the nation. Not counting FY10, MO has averaged $1.27 
        million encumbered on fish/forest/wildlife practices FY06-FY09.

  <ctr-circle> For WHIP, MO has encumbered an average of $907,000 FY06-
        FY09.

  <ctr-circle> MDC has spent about $3 million on cost-share through 
        CREP ($2 million) and general CRP to promote the use of native 
        grasses.

    In Missouri, 93% of the state is in the hand of private landowners. 
They are the stewards in charge of the vast majority of Missouri's 
fish, forest and wildlife resources. As a group they have also 
indicated an overwhelming interest in the proper management and 
conservation of those resources--and have inundated MDC with requests 
for assistance in managing the natural resources on their property. 
USDA farm bill programs provide a vital resource to enable them to meet 
their personal goals for the management of these resources. The MDC has 
partnered with USDA for over 28 years to jointly tackle the effort of 
providing technical assistance to Missouri's private landowners on 
fish/forest/wildlife management.
    Texas_Texas Parks and Wildlife Department (TPWD) has had a liaison 
position with Texas NRCS from 1998-2009. Placement of the single TPWD 
farm bill coordinator in the state NRCS office led to an increase in 
wildlife focused farm bill program modifications originating in Texas 
that have been adopted by other states. This includes the creation of 6 
EQIP Wildlife Resource Areas targeting at-risk species and amounting to 
over 600,000 acres of habitat restoration worth over $11 million in 
landowner Financial Assistance from 2003-2009. These EQIP focus areas 
were created and informed through workshops with landowners and have 
been well accepted as evidenced by their enrollment and participation.

                                       Texas EQIP Wildlife Resource Areas
----------------------------------------------------------------------------------------------------------------
                                              No. of        Contract                    Avg.  $/     Avg.  Cost/
                  Area                      Contracts        Acres           $$         Contract        Acre
----------------------------------------------------------------------------------------------------------------
   Attwater's Prairie Chicken/Bobwhite              36         73,511     $2,846,777       $79,077        $38.73
                                      Lesser Prairie72hicken/BT97,745ie Do$1,622,562       $22,536        $16.60
                                      Longleaf Pine/15 Woodpecke1,164WQ     $229,814       $15,321       $197.43
    Rolling Plains BWQ/Grassland Birds             124        221,708     $4,758,660       $38,376        $21.46
                    Black-capped Vireo               8          5,518       $331,501       $41,438        $60.08
        Trans-Pecos Pronghorn Antelope              14        208,981     $1,409,923      $100,709         $6.75
                                         -----------------------------------------------------------------------
  Totals................................           269        608,627    $11,199,237       $41,633        $18.40
----------------------------------------------------------------------------------------------------------------

    In addition to the EQIP areas, the state liaison position worked 
with NRCS to align WHIP with the state wildlife action plan and 
coordinate T&E species and other trainings for NRCS field staff.
    Idaho_Idaho Department of Fish and Game (IDFG) has 3 partner 
biologist positions (farm bill coordinators) co-located in NRCS 
offices. IDFG has had agreements with NRCS since 2007 to work on CRP 
contracts as well as review all brush management projects funded under 
EQIP and WHIP. IDFG staff has been responsible for writing many of the 
plans for Idaho's SAFE program, they are also focusing on mid-contract 
management of CRP, and working with landowners on the new NRCS Sage-
Grouse initiative.
    Kentucky_Kentucky started sharing partner biologists with NRCS in 
1998. Currently, there are 14 partner biologists and 2 biological 
technicians that are shared with NRCS. These partner biologists share 
the same workloads as their NRCS colleagues and work with landowners 
from beginning of an inquiry to the inspections and compliance checks 
that follow post-project completion.
    South Carolina_Since 2003, the South Carolina Department of Natural 
Resources (SCDNR) has had a contribution agreement with NRCS to fund 
three farm bill Biologist positions in NRCS offices located in key 
geographic regions for priority wildlife species in South Carolina. 
SCDNR is providing 100% of the cost of salary and fringe benefits for 
these three employees through state and Federal funds (non-NRCS funds). 
NRCS provides office space, training, computers, network access, and 
vehicles for these employees as in-kind contributions.
    Since 2003, these three positions combined have written 
approximately 205 Conservation Plans totaling over 150,000 acres. 
Landowner contacts have equaled or exceeded the total number of 
Conservation Plans. These farm bill Biologists were largely responsible 
for South Carolina's success in delivering over 6,000 acres of CP33 
buffers, resulting in measurable increases in northern bobwhites and 
priority grassland bird species. Landowners have been extremely 
satisfied with the level and quality of service offered by the FB 
biologists, with many returning for additional technical or program 
assistance.
    Since 2003, SCDNR has invested over $350,000 of combined state and 
Federal dollars in the farm bill Biologist program. We see this as the 
greatest opportunity we have to facilitate delivery of technical 
information and financial assistance to the benefit of priority 
wildlife species and habitats. It works because SCDNR provides 
biological expertise in NRCS field offices, where it may otherwise be 
lacking, and their biologists function as full NRCS team members, 
shouldering significant workload which would otherwise be handled by an 
already-stretched NRCS staff.
    Due to budgetary constraints in SCDNR which have restricted 
available state match dollars, one position has remained vacant since 
2008 and two positions vacant since January, 2009. To date, SCDNR has 
received no direct financial assistance (cash) from NRCS for these 
positions. Additional similar positions throughout the state are needed 
to address needs of priority wildlife species and habitats.
    Florida_Florida entered into their first agreement with NRCS in 
2003, for two private lands biologists that worked exclusively on Farm 
Bill Conservation Program delivery, and primarily WHIP. In 2004, they 
entered into a separate Cooperative Agreement that funded an additional 
three biologists. In 2008, a new contribution agreement now funds six 
biologists. Half of these positions are currently co-located in NRCS 
offices, and we are working on co-locating the balance in NRCS offices. 
About half the work performed is conservation planning and half is 
conservation program delivery for primarily WHIP, EQIP, WRP and to a 
lesser extent CSP.
    State fish and wildlife agencies are collaborating with NGOs and 
USDA to put partner biologists on the ground to help deliver 
conservation programs and biological technical assistance because of 
the declining state budgetary climate. These states include Virginia, 
Minnesota, Wisconsin, Ohio, Colorado, Kansas, South Dakota, Nebraska, 
and New Hampshire to name a few. Specific examples of the partner 
biologists contributions to conservation program delivery follows.
    Kansas_Kansas Department of Wildlife and Parks (KDWP) private lands 
technical assistance began in 1973 when wildlife biologist were hired 
to work directly with private landowners to improve habitat. The Kansas 
Wildlife Habitat Improvement Program (WHIP), the first private land 
habitat program in Kansas, began in 1974 and continues today. Since the 
implementation of the Food, Conservation and Energy Act (Farm Bill) of 
1985, KDWP private land biologists have taken on an ever increasing 
role in delivering conservation programs. As new programs and 
initiatives are developed, KDWP has entered into agreements and 
partnerships with several partners to broaden the impact of the 
Departments commitment to improve habitat on private lands, which make 
up 97% of the state.
    Conservation Reserve Program (CRP)--KDWP has been involved 
delivering CRP, the largest habitat improvement program, since its 
beginning in 1985. The Conservation Assistance Program was developed in 
1988 by KDWP to encourage farmers to enroll CRP practices most 
beneficial to wildlife. Through this program, liaison efforts of Kansas 
WHIP and KDWP's working relationship with NRCS, Kansas has enrolled 
more acres in native grasses than any state in the nation. To increase 
enrollment in Continuous CRP buffer practices KDWP developed a 
partnership in 2001 to hire temporary employee's to work in local USDA 
offices and promote buffer enrollment. Through this program and the 
efforts of KDWP biologists' working directly with NRCS, Continuous CRP 
enrollment has increased to over 108,000 acres; nearly half of those 
acres are wildlife practices CP33 and CP38E.
    Cooperative Agreement with NRCS--KDWP entered into a MOA with the 
NRCS in 1994 to provide six Wildlife Biologist to work 3 days per week 
in NRCS Area Offices. The impetus for this agreement was a need to 
assist NRCS in complying with the wetland provisions of the Food 
Security Act and assist with delivery of conservation programs to NRCS 
staff. Since 1994 the Area Biologists have assisted NRCS with thousands 
of wetland determinations. In the past 5 years NRCS personnel devoted 
to making wetland determination has decreased from ten to five, 
strengthening the importance of the Area Biologist role with NRCS. Area 
Biologists have assisted with Wetlands Reserve Program delivery 
beginning in 1995. Kansas has 171 WRP agreements on 17,410 enrolled 
acres.
    Since 2003 the Area Biologist program has been under a Cooperative 
Agreement with NRCS. The Cooperative Agreement has provided the 
salaries of six Wildlife Biologist Technicians which work in Area 
Biologist's districts providing technical assistance and helping to 
deliver USDA Wildlife Habitat Incentives Program (WHIP). Cooperation 
between KDWP and NRCS remains strong and this continues to be an 
excellent program for both agencies, furthering the ability to deliver 
USDA programs in a manner consistent with improving wildlife habitat 
throughout the state.
    Contributory Agreement--NRCS--In July of 2003, KDWP entered into a 
contributory agreement with the NRCS to assist with administration and 
delivery of the Wildlife Habitat Incentive Program (WHIP). The delivery 
of WHIP within Kansas is being accomplished by 16 District Biologists 
and 10 Biologist Technicians (five bio-techs funded through the 
cooperative agreement and five funded through the contributory 
agreement). The success of this contributory agreement has allowed for 
the hire of an additional five unclassified Biologist Technicians to 
aid in the delivery of WHIP and provide technical assistance to 
landowners. Since the beginning of this agreement over 1,000 Federal 
WHIP contracts have been completed, improving wildlife habitat on 
nearly 130,000 acres, and providing over $4.7 million dollars in 
Federal funds to landowners (Table 1).

                   Table 1_KDWP Federal WHIP Delivery
         Wildlife Habitat Incentive Program--NRCS-KDWP Delivery
------------------------------------------------------------------------
       Year         No. of Contracts        Acres       Dollars Approved
------------------------------------------------------------------------
          2003                 101            14,483          $456,994
          2004                 148            17,914          $593,861
          2005                 171            18,269          $596,122
          2006                 182            27,733          $790,547
          2007                 133            16,540          $500,581
          2008                 151            13,721          $820,796
          2009                 116            20,005          $979,200
                   -----------------------------------------------------
  Totals:.........           1,002           128,665        $4,738,101
------------------------------------------------------------------------

    KDWP has been working directly with private landowners to develop 
habitat since 1973. By promoting sound wildlife management practices 
and providing technical and financial assistance to landowners for over 
11 years before the first farm bill was enacted, relationships were 
built and the groundwork laid that made possible the delivery of the 
myriad of farm bill programs that we have today. KDWP will continue to 
be the leader in providing assistance to landowners who have a desire 
to develop habitat and will work with our partners to help develop and 
deliver programs beneficial to wildlife in Kansas. As more emphasis is 
placed on wildlife in all farm bill programs and special initiatives 
are developed to address our greatest conservation needs, it will be 
critical that funding is made available to strengthen existing 
agreements and partnerships that deliver conservation programs and 
provide for biological technical assistance.
    Colorado_Colorado has had four partner biologists NRCS since 2003. 
These partner biologists provide wildlife-related technical assistance 
and expertise in the development and implementation of Farm Bill 
Programs. Biologists stationed in NRCS office throughout the state 
develop NRCS habitat conservation management plans, provide technical 
guidance and training on wildlife habitat concerns to NRCS staff and 
landowners, and establish partnerships between government agencies and 
local stakeholders. The technical and program support focuses primarily 
on the wildlife habitat conservation aspects the of Wildlife Habitat 
Incentive Program (WHIP), Wetlands Reserve Program (WRP), Conservation 
Reserve Program (CRP), and the Environmental Quality Incentive Program 
(EQIP). The Colorado Division of Wildlife (CDOW), NRCS, and the Rocky 
Mountain Bird Observatory (RMBO) are working with NRCS to facilitate 
farm bill program delivery as part of Colorado's Private Lands 
Biologist (PLB) Program. The RMBO also employs a program coordinator to 
support the partner biologists.
    Nebraska_Nebraska Game and Parks Commission (NGPC) maintains a very 
active private lands division and shares partner biologists with 
Pheasants Forever, Ducks Unlimited and NRCS to deliver conservation 
programs and biological technical assistance. NGPC has funded and 
shared partner biologists in local USDA offices (both FSA and NRCS) 
since the 1990's. After the buffer coordinators of the 1990's, the 
agencies added CRP technical assistance to the list of duties and two 
partner biologists housed in NRCS offices beginning in 2002. NGPC 
private lands staff continue working with USDA local offices to provide 
more biological technical assistance for USDA programs, staff and 
clients. Specifically, NGPC private lands staff played a huge role in 
promoting and enrolling landowners in CP38 within a two county area of 
the state that resulted in enrollment of close to 50% of the state's 
SAFE acres. Together, NGPC private land staff and partner biologists 
completed the conservation plans, seeding sheets, and the paperwork 
necessary to put habitat on the ground and dollars in landowner' 
pockets.
    Ohio_The Ohio Division of Wildlife (ODOW), Pheasants Forever, and 
the Ohio NRCS have utilized three different contribution agreements 
since August 2008. These agreements facilitate partner biologists to 
work on CRP Mid-Contract Management Assistance as well as WRP 
monitoring and marketing assistance. For CRP Mid-contract management, 
ODOW assists NRCS with the assessment of vegetative cover on fields and 
wetlands enrolled in the CRP through required mid-contract management 
(MCM). These assessments include walking these fields and completing a 
form which records the vegetative diversity, grassland/forb 
composition, amount of bare ground, contract violations, and grass 
density of the stand. Initial field assessments commence during years 
4-7 of a 10 year CRP contract. The forms are then utilized during 
meetings with the landowners to review and recommend appropriate 
practices (e.g., light disking, prescribed burning, interseeding forbs, 
etc.) that will improve the wildlife cover. From 8/13/08 through 6/30/
2010, partner biologists completed 875 CRP fields assessed covering 
8,993 acres and attended about 75 landowner meetings to review the 
field assessments and provide cover management recommendations. For WRP 
monitoring, three interns annually complete a comprehensive restored 
wetland monitoring report for lands enrolled in the WRP across Ohio. 
Monitoring includes recording such data as current vegetation quality/
conditions within the wetland and associated buffer, wildlife use, 
restoration activities, wetland class, hydrology, and management issues 
as well as involves a landowner interview, recording of GPS coordinates 
of the wetland area and easement boundary, and noting any violations of 
the easement. Ohio currently has approximately 350 WRP sites and the 
goal of this project is to complete monitoring on 90-100 wetlands 
annually until all have been completed. From 6/15/2009 through 10/15/
2010, these interns will monitor 97 WRP sites covering 5330 acres. 
Furthermore, beginning in the fall of 2009, Ohio NRCS was given the 
goal of enrolling 11,000 acres of WRP by the end of October 2010. Ohio 
entered into a contribution agreement in which the DOW provided a part-
time biologist to NRCS to assist with marketing WRP to the public. The 
DOW private lands biologists have developed a network of contacts 
through with conservation organizations and hunting clubs that would be 
able to market WRP to landowners and farmers across the state. This 
biologist worked closely with NRCS county staff, other DOW employees, 
and wetland teams to utilize the media and publish information 
documents that were sent to landowners. To date, NRCS has collected 
8,000 acres worth of applications in a 6 month period associated with 
this partner biologist position.
    Finally, the Intermountain West Joint Venture (IWJV) has developed 
a Capacity Grants Program and brokered new partner biologist positions 
in Wyoming, Nevada, California, and Oregon to facilitate focused 
habitat work through farm bill conservation programs for sage-grouse, 
migratory waterfowl, and shorebirds. The IWJV continues to seek new 
partnerships and opportunities to deliver conservation programs and 
biological technical assistance.
Conclusion
    The state fish and wildlife agencies are thoroughly committed to 
and vested in assisting USDA by providing biological technical 
assistance to both the Department and the private agriculture, grazing 
and forest landowners to fulfill effective delivery of farm bill 
conservation programs that are vital to the sustainability of the 
Nation's fish and wildlife resources and the habitats on which they 
(and our citizens) depend. Successful partnerships between the state 
fish and wildlife agencies, USDA, and NGO partner organizations need to 
be encouraged, enhanced and supported with adequate Federal funding to 
match partner state and NGO funds. This collaboration is particularly 
critical as demand from landowners for these popular conservation 
programs increase, but USDA capacity to deliver these programs fails to 
keep pace or even worse, declines. The Association and the state fish 
and wildlife agencies remain committed to working with the Committee to 
ensure the on the ground conservation success of these vital programs. 
Thank you for the opportunity to submit this Statement for the Record.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
